<html>
<title> - TSUNAMIS: IS THE U.S. PREPARED?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                    TSUNAMIS: IS THE U.S. PREPARED?

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 26, 2005

                               __________

                            Serial No. 109-1

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
98-395                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   BRIAN BAIRD, Washington
TOM FEENEY, Florida                  JIM MATHESON, Utah
BOB INGLIS, South Carolina           JIM COSTA, California
DAVE G. REICHERT, Washington         AL GREEN, Texas
MICHAEL E. SODREL, Indiana           CHARLIE MELANCON, Louisiana
JOHN J.H. ``JOE'' SCHWARZ, Michigan  VACANCY
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY


                            C O N T E N T S

                            January 26, 2005

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............     9
    Written Statement............................................    10

Statement by Representative Bart Gordon, Ranking Minority Member, 
  Committee on Science, U.S. House of Representatives............    11
    Written Statement............................................    12

Prepared Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    13

Prepared Statement by Representative Wayne T. Gilchrest, Member, 
  Committee on Science, U.S. House of Representatives............    14

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    15

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    15

Prepared Statement by Representative Lincoln Davis, Member, 
  Committee on Science, U.S. House of Representatives............    16

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    16

                                Panel I:

The Hon. Jay Inslee, Member, U.S. House of Representatives
    Oral Statement...............................................    18

  Discussion.....................................................    20

                               Panel II:

Dr. Charles ``Chip'' G. Groat, Director, United States Geological 
  Survey, U.S. Department of the Interior
    Oral Statement...............................................    24
    Written Statement............................................    28
    Biography....................................................    35

Brigadier General David L. Johnson (Ret.), Director, National 
  Oceanic and Atmospheric Administration's National Weather 
  Service
    Oral Statement...............................................    36
    Written Statement............................................    38
    Biography....................................................    42

Dr. John A. Orcutt, Deputy Director, Research at the Scripps 
  Institution of Oceanography; President, American Geophysical 
  Union
    Oral Statement...............................................    43
    Written Statement............................................    45
    Biography....................................................    55

Dr. Arthur L. Lerner-Lam, Director, Columbia University Center 
  for Hazards and Risk Research
    Oral Statement...............................................    55
    Written Statement............................................    58
    Biography....................................................    73
    Financial Disclosure.........................................    75

Mr. Jay Wilson, Coordinator, Earthquake and Tsunami Programs, 
  Plans and Training Section, Oregon Emergency Management
    Oral Statement...............................................    76
    Written Statement............................................    78
    Biography....................................................    87

Discussion.......................................................    87

             Appendix 1: Answers to Post-Hearing Questions

Dr. Charles ``Chip'' G. Groat, Director, United States Geological 
  Survey, U.S. Department of the Interior........................   104

Brigadier General David L. Johnson (Ret.), Director, National 
  Oceanic and Atmospheric Administration's National Weather 
  Service........................................................   108

Dr. John A. Orcutt, Deputy Director, Research at the Scripps 
  Institution of Oceanography; President, American Geophysical 
  Union..........................................................   114

Dr. Arthur L. Lerner-Lam, Director, Columbia University Center 
  for Hazards and Risk Research..................................   117

Mr. Jay Wilson, Coordinator, Earthquake and Tsunami Programs, 
  Plans and Training Section, Oregon Emergency Management........   123

             Appendix 2: Additional Material for the Record

Statement by Steve Malone, President, the Seismological Society 
  of America.....................................................   130

 
                    TSUNAMIS: IS THE U.S. PREPARED?

                              ----------                              


                      WEDNESDAY, JANUARY 26, 2005

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                    Tsunamis: Is the U.S. Prepared?

                      wednesday, january 26, 2005
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On January 26, 2005, the House Committee on Science will hold a 
hearing to better understand the causes of tsunamis, the risks they may 
pose to the U.S. and to the rest of the world, and how the U.S. should 
prepare for them.
    Although tsunamis are infrequent, their force and destructive power 
have recently become all too clear. On December 26, 2004, a magnitude 
9.0 undersea earthquake off the west coast of northern Sumatra, 
Indonesia, unleashed a tsunami that affected more than 12 countries 
throughout Southeast Asia and stretched as far as the northeastern 
African coast. Massive tsunami waves hit the Indonesian coast within 
minutes of the earthquake, and other deadly waves raced across the 
entire 3,000-mile span of the Indian Ocean Basin within hours. Current 
estimates indicate that at least 150,000 people were killed, and 
millions more were injured, displaced or otherwise affected. Experts 
believe that the earthquake which caused the tsunami was the most 
powerful in 40 years and the fourth largest in the last century. The 
death toll appears to be the worst on record for a tsunami.
    While no tsunami has caused equivalent devastation in the U.S., 
tsunamis have hit the U.S. in recent decades, almost all of them 
generated in the Pacific Ocean.
    To protect the U.S., the National Oceanic and Atmospheric 
Administration (NOAA) operates two tsunami warning centers, one in 
Alaska and one in Hawaii. The Hawaiian center dates back to 1948, and 
the entire current warning system, which includes ocean buoys, has been 
in place since 2001. In response to this recent disaster, on January 
14, 2005, the Administration announced an interagency plan to increase 
U.S. risk assessment, detection, warning and disaster planning for 
tsunamis. The plan would cost $37.5 million over two fiscal years.
    The Committee plans to explore the following overarching questions 
at the hearing:

        1)  Which regions of the U.S. and the rest of the world face 
        the greatest risk from tsunamis?

        2)  What are the best methods to detect tsunamis and provide 
        effective warnings? What are the best methods to educate the 
        U.S. about the risks of tsunamis and how to be prepared for 
        them? How well does the Administration's new tsunami plan 
        incorporate these methods?

        3)  What should the U.S. do to help the rest of the world 
        better prepare for tsunamis?

Witnesses:

Dr. Charles ``Chip'' Groat, Director of the United States Geological 
Survey.

Gen. David L. Johnson (Ret.), Director of the National Ocean and 
Atmospheric Administration's National Weather Service.

Dr. John Orcutt, Deputy Director for Research at the Scripps 
Institution of Oceanography, University of California at San Diego, and 
President of the American Geophysical Union.

Dr. Arthur Lerner-Lam, Director of the Columbia Center for Hazards and 
Risk Research, Lamont-Doherty Earth Observatory, Columbia University.

Mr. Jay Wilson, Coordinator of Earthquake and Tsunami Programs, Plans 
and Training Section, Oregon Emergency Management.

Background:

What is a tsunami?
    A tsunami is a series of ocean waves that are generated by a 
violent undersea disturbance or activity, usually an earthquake, but 
sometimes a volcanic eruption, landslide or even a meteor impact. These 
events cause tsunamis when they result in the sudden displacement of a 
large volume of water. Earthquakes displace water by suddenly raising 
or lowering the sea floor; in the case of the recent earthquake the 
Earth's crust moved at least an inch and the force was large enough to 
affect the planet's rotation. Waves from the underwater disruption 
travel out of the area of origin at speeds above 500 miles per hour for 
thousands of miles (depending on the depth of the water). The waves are 
often not visible on the water's surface in the open ocean, but when 
the waves reach shallower coastal shelves, their speed slows and the 
waters pile up, gathering enormous force. Usually, it takes an 
earthquake with a magnitude above 7.5 on the Richter scale to generate 
a tsunami that causes noticeable damage, and scientists are reluctant 
to predict that a tsunami has been generated unless an earthquake 
measures at least 8.0.
Where do tsunamis occur most frequently and why?
    Tsunamis can be generated in any of the world's oceans or inland 
seas, but at least 80 percent of all tsunamis occur in the Pacific 
Ocean. Tsunamis are concentrated in the Pacific because the geology of 
the Pacific Rim makes it the area on Earth most susceptible to 
earthquakes and volcanic eruptions, earning it the nickname ``Ring of 
Fire.'' The Earth's crust is not a single, fixed entity, but rather is 
made up of large tectonic plates that slowly move about. Earthquakes 
and volcanoes most often appear at the points where two or more plates 
abut each other. The entire Pacific rim is lined with areas in which 
plates rub up against each other, or where one plate dives back toward 
the Earth's core, scraping underneath another tectonic plate. The most 
active areas of the ``Ring of Fire'' include the coasts off Kamchatka, 
Japan, the Kuril Islands, Alaska and South America. About six times per 
century, on average, a tsunami from the ``Ring of Fire'' region sweeps 
across the entire Pacific, is reflected from distant shores, and sets 
the entire ocean in motion for days.
    Although infrequent, tsunamis have also occurred in the Atlantic 
and Indian Oceans, the Mediterranean Sea and even within smaller bodies 
of water, such as the Sea of Marmara, in Turkey. In the last decade 
alone, tsunamis that have caused significant damage have occurred in 
Nicaragua (1992), Indonesia (1992, 1994, 1996), Japan (1993), 
Philippines (1994), Mexico (1995), Peru (1996, 2001), Papua-New Guinea 
(1998), Turkey (1999), and Vanuatu (1999).
Brief history of recent tsunamis that have hit the U.S.
    In 1918, an earthquake in the Caribbean generated a wave that 
caused the deaths of 40 people in the Virgin Islands.
    In 1946, an earthquake along the Aleutian fault (Alaska) produced 
waves up to 55 feet high, destroying the Hilo's waterfront (Big Island, 
Hawaii). The tsunami killed 159 people and caused $255 million (in 
today's dollars) in damage. In response to this event the Federal 
Government established the Pacific Tsunami Warning Center in Hawaii in 
1948.
    In 1957, an Alaskan earthquake produced a Pacific-wide tsunami 
causing waves of 75 feet on the Alaska's Umnak Island and waves of 50 
feet on Hawaii's Kauai Island. No deaths occurred but damage was 
estimated at $34 million (in today's dollars).
    In 1958, an earthquake triggered a landslide in Lituya Bay, Alaska, 
creating a tsunami with the highest waves in recorded history as trees 
were stripped to a height of 1,720 feet. However, the tsunami's energy 
and height diminished rapidly away from the source area and, once in 
the open ocean, the tsunami was hardly recorded by tide gauge stations.
    In 1960, a magnitude 9.5 earthquake, the most powerful earthquake 
in the 20th century, occurred off the coast of Chile. The resulting 
Pacific-wide tsunami reached Hawaii with waves as high as 35 feet, 
causing 61 deaths and $155 million (in today's dollars) in damages.
    In 1964, a magnitude 9.2 earthquake, the largest earthquake in the 
Northern Hemisphere in the 20th century, occurred in Alaska. The 
resulting tsunami devastated five of Alaska's seven largest communities 
and nearly destroyed the Alaskan fishing industry. Waves also reached 
the entire California coastline with heights of seven to 21 feet. Half 
of the waterfront district in Crescent City, CA was destroyed. The 
tsunami killed more than 120 people in the U.S. and Canada and caused a 
total of $515 million in damage (in today's dollars).
How does the U.S. Tsunami Warning System work?
    The U.S. Tsunami Warning System is operated by the National Weather 
Service, which is an agency of NOAA. There are two Pacific Warning 
Centers: an Alaskan center responsible for Alaska and the West Coast of 
the U.S., and a Hawaiian center responsible for Hawaii and for acting 
as the national/international warning center for tsunamis that pose a 
Pacific-wide threat. The Centers are part of an international Pacific 
Tsunami Warning System, in which 26 nations participate.
    The NOAA Centers are tasked with detecting, locating, and 
determining the magnitude of earthquakes occurring in the Pacific Basin 
that could cause a tsunami. Earthquake information is provided by 
seismic stations operated by NOAA, the U.S. Geological Survey (USGS), 
universities and other nations. NOAA also operates a series of six 
Deep-ocean Assessment and Reporting of Tsunamis (DART) buoys and 
hundreds of coastal sea-level gauges in the Pacific Ocean. Since not 
all earthquakes cause tsunamis, the DART buoys are critical in 
verifying that a tsunami has been generated. Before the DART buoys were 
deployed in 2001, more than half of all tsunami warnings turned out to 
be false alarms in that either no tsunami occurred at all or the one 
that was generated was not significant enough to cause any damage. 
False alarms generate their own costs. For example, in 1986, an 
evacuation of Honolulu that turned out to be a false alarm cost the 
State of Hawaii nearly $40 million.
    Once a Center has determined that a tsunami has been generated, the 
Center issues a tsunami warning that includes predicted arrival times 
for the waves at specific coastal communities. These warnings are 
submitted to federal, State and local emergency management officials, 
and the nations that take part in the Pacific Tsunami Warning System, 
which are responsible for relaying the information to the public.
    In 1996, NOAA (along with the USGS, the Federal Emergency and 
Management Agency, and the States of Alaska, Washington, Oregon, 
California and Hawaii) created the National Tsunami Hazard Mitigation 
program. The program is designed to help communities prepare for 
tsunamis by giving them information on how to respond to warnings, 
helping them determine exactly what is most at risk from tsunamis in 
their communities, and developing strategies to mitigate the damage 
that would occur from a tsunami. For example, the program funds mapping 
of coastal communities to predict which areas of the community are most 
at risk from the tsunami. These maps are critical for proper evacuation 
and community preparedness. Public education is also a crucial element 
of the program because tsunamis can come ashore within minutes of 
nearby earthquakes. In those instances, people must know what to do 
immediately in the event of a ``felt'' earthquake in a low lying 
coastal area.
    The total budget for NOAA's tsunami programs has risen from about 
$6.6 million in Fiscal Year (FY) 2002 to $10.3 million in FY 2005.

What are TsunamiReady communities?
    The National Weather Service has developed a program to qualify 
communities as being ``TsunamiReady.'' Communities must meet certain 
criteria such as having established warning and emergency operations 
center staffed around the clock, having more than one way to receive 
tsunami warnings and to alert the public, and having developed a formal 
tsunami plan that includes emergency evacuation exercises. So far, only 
15 communities have qualified as TsunamiReady. Some communities have 
complained that the program requirements are too rigorous and they do 
not have the time or funding to fulfill them.

Why was the U.S. Pacific Tsunami Warning Center unable to warn the 
        people of the Indian Ocean Basin about the tsunami on December 
        26, 2004?
    While officials at the U.S. Pacific Tsunami Warning Center 
immediately received seismic information about the massive earthquake 
off the coast of Indonesia, they were unable to determine if a tsunami 
had been generated because there are no DART buoys in the Indian Ocean. 
In addition, the Center initially thought the earthquake was of a 
lesser magnitude. However, within 15 minutes, the Center issued a 
bulletin to the 26 nations of the Pacific Region stating that there was 
minimal risk to the Pacific Ocean Basin counties. NOAA officials did 
not know of the actual existence of the tsunami until two and a half 
hours later when news reports began appearing from Sri Lanka. Also, 
unlike in the Pacific, no international warning system has been put 
together to disseminate information about events in the Indian Ocean 
Basin. However, NOAA officials did contact the State Department to see 
if it could distribute information. Unfortunately, the State Department 
was not called until seven hours after the earthquake, but that still 
may have been enough time to warn communities on the East coast of 
Africa.

Recent Developments:
    On January 14, 2005, the Administration announced a new $37.5 
million plan to improve tsunami detection, warning, and community 
preparedness for the U.S. Under the plan, NOAA would receive $14.5 
million in an Emergency Supplemental Appropriation in the current 
fiscal year and $9.5 million in the proposed FY 2006 budget, which is 
due to be released February 7, 2005. The money would be used to 
purchase and deploy 32 DART buoys and 38 new tide gauges around the 
U.S. and its territories. That equipment would provide additional 
coverage in the Pacific and initiate coverage in the Atlantic Ocean and 
the Caribbean. NOAA would also expand its education and outreach 
efforts, develop tsunami inundation maps for more coastal communities, 
and enhance tsunami warning distribution through new hardware and 
software. The USGS would receive $8.1 million in the Emergency 
Supplemental Appropriation and $5.4 million in the FY 2006 budget to 
improve seismic monitoring and information delivery from the Global 
Seismic Network. More information about the plan can be found at 
www.noaanews.noaa.gov.
    On January 18, 2005, the United Nations hosted a conference on 
natural disasters in Kobe, Japan to coincide with the 10th anniversary 
of the earthquake that ravaged that city. While the discussion was to 
be about preventing natural disasters in general, the issues 
surrounding the Indian Ocean earthquake and tsunami dominated the 
conference. Many nations called for the immediate creation of an Indian 
Ocean tsunami warning system, but it was unclear what specific actions 
would be taken.
    Much of the discussion was about how to better educate the public 
about tsunamis. While the technology exists to cover the Indian Ocean 
and the world with buoys and sensors, experts warn that many of the 
areas hit by the recent tsunami suffer from deep poverty and lack basic 
education and communication networks, making it difficult to deliver 
warnings and promote the proper response. Delegates from Japan, which 
has the most sophisticated tsunami warning system, said they still have 
great difficulty in educating the Japanese public about the destructive 
nature of tsunamis and what to do if they feel an earthquake near the 
shore.
    The Administration has said that its new tsunami warning plan for 
the U.S. should be part of a global Earth observing system and is 
working with 54 other countries on what that system should entail.

Issues:

1)  The Administration's new improved tsunami warning plan proposes $15 
million in new activities for NOAA and USGS in FY06. Given the current 
fiscal constraints on all federal agencies, the Committee wants to 
better understand what programs or functions of NOAA and USGS may have 
to be reduced or eliminated to pay for these new activities.

2)  NOAA has six special tsunami detection (DART) buoys deployed in the 
Pacific Ocean. However, only three of the six DART buoys are currently 
operational. The Administration's proposal is for NOAA to operate a 
total of 38 buoys in the Pacific, Atlantic and Caribbean by mid-2007. 
Why is 50 percent of the current system not functioning and what is 
NOAA doing about it? What will be the greatest challenges in operating 
38 buoys and how will NOAA overcome these challenges?

3)  Most of the proposed $37.5 million in the Administration's tsunami 
warning proposal is for new buoys and seismic equipment. While new 
technology and detection systems are important, many experts believe 
that local education and planning may be at least as important and more 
difficult to execute. What specific activities does the Administration 
propose to increase local education and planning and is the current 
proposal too heavily weighed toward technology?

4)  Natural disasters occurring along the world's coastlines are 
causing significantly more damage and deaths. This is caused by the 
tremendous growth in population and developmental of coastal areas and 
not by an increased number or intensity of disasters. Should we spend 
some of our limited resources on reevaluating our land-use policies?

Witness Questions:

    In their letters of invitation, the witnesses were asked to address 
the following questions in their testimony:
Dr. Charles ``Chip'' Groat, Director of the United States Geological 
        Survey.

         Which regions of the U.S. are tsunamis most likely to affect? 
        What are the possible causes of tsunamis forming in the 
        Atlantic or Caribbean basins and what are the likelihoods that 
        they could form there?

         What comprises the U.S. seismic network and how does it 
        operate? What role does the seismic network play in the 
        operations of NOAA's Tsunami Warning Centers? What are the 
        greatest challenges and needs in improving our seismic network?

         Please describe in detail how USGS would use the $13.5 million 
        proposed in the President's new tsunami warning plan.

         What should the U.S. do to help better prepare the world for 
        tsunamis?

Gen. David L. Johnson (Ret.), Director of the National Ocean and 
        Atmospheric Administration's National Weather Service.

         Please briefly describe what constitutes the NOAA Tsunami 
        Warning System and the Tsunami Hazard Mitigation Program.

         Please provide a step by step account of what happens when a 
        tsunami is suspected by a warning center. What steps were you 
        unable to take after you detected the earthquake on December 
        26, 2004?

         What are the greatest challenges to NOAA in improving the U.S. 
        tsunami warning and hazard mitigation systems?

         Please describe how the Administration developed its new 
        tsunami warning proposal and what will NOAA do specifically 
        with the $24 million proposed in the President's new tsunami 
        warning plan.

         What role should the U.S. play in helping the world better 
        prepare for tsunamis?

         Please include in your written testimony: a status report of 
        the current Deep-ocean Assessment and Reporting of Tsunamis 
        (DART) program; funding levels for all five NOAA tsunami 
        programs from FY 2003-2005; and specific programmatic details 
        of the Administration's new tsunami warning plan including 
        funding levels for the FY05 supplemental request, and the FY06 
        and FY07 President's Budget request.

Dr. John Orcutt, Deputy Director for Research at the Scripps 
        Institution of Oceanography, University of California at San 
        Diego, and President of the American Geophysical Union.

         What is Scripps' role in the worldwide seismic network? When 
        did Scripps know about the earthquake on December 26, 2004 and 
        what was your response?

         What are the all of the elements of an adequate tsunami 
        warning system? Does the U.S. warning system currently contain 
        all the elements?

         What are the greatest challenges to improving the U.S.'s 
        tsunami detection and warning systems? What is your opinion of 
        the Administration's new proposal to improve the U.S. tsunami 
        warning system? Are there other activities or actions that the 
        plan should have included? If so, what are they?

         How would you recommend that an Indian Ocean and worldwide 
        tsunami warning network could be established? What role should 
        the U.S. play in its development?

Dr. Arthur Lerner-Lam, Director of the Columbia Center for Hazards and 
        Risk Research, Lamont-Doherty Earth Observatory, Columbia 
        University.

         What are the major causes of tsunamis and why are they so 
        difficult to predict?

         Please provide a brief history of the major tsunamis of this 
        past century. What is the largest tsunami ever recorded? What 
        are the possible causes of tsunamis forming in the Atlantic or 
        Caribbean basins and what are the likelihoods that they could 
        form there?

         How should the U.S. weigh the risk of tsunamis against the 
        risk of other natural disasters? What is the best use of our 
        limited resources?

         What are the greatest challenges to improving the U.S.'s 
        tsunami detection and warning systems? What is your opinion of 
        the Administration's new proposal to improve the U.S. tsunami 
        warning system? Are there other activities or actions that the 
        plan should have included? If so, what are they?

         How would you recommend establishing an Indian Ocean and 
        worldwide tsunami warning network? What role should the U.S. 
        play in its development?

Mr. Jay Wilson, Coordinator of Earthquake and Tsunami Programs, Plans 
        and Training Section, Oregon Emergency Management.

         Please explain your job in Oregon's Earthquake and Tsunami 
        Planning and Training Office. What are the greatest challenges 
        you face in helping the State and localities prepare for 
        earthquakes and tsunamis?

         What is your opinion of NOAA's Tsunami Hazard Mitigation 
        program and NOAA's Tsunami Ready program? Why are there so few 
        communities that participate in the Tsunami Ready program and 
        what can be done to increase participation?

         What roles do NOAA, USGS, FEMA play in your activities? How 
        can these agencies be more useful in your efforts?

         Please describe inundation maps and how important are they to 
        your ability to plan? Who prepares these maps and who pays for 
        them?

         What is your opinion of the Administration's new proposal to 
        improve the U.S.'s tsunami detection and warning programs? Are 
        there ways it can be improved, and if so, what are they?
    Chairman Boehlert. The hearing will come to order.
    The first order of business is to introduce to the audience 
and our colleagues on our committee, the veterans, some of the 
newer Members of the Committee. It is my understanding that the 
Democrats have just organized, and the Committee assignments 
were just made available late yesterday, so some of the newer 
Members may not know of their assignment just yet.
    But on the Republican side, we are pleased to welcome Dave 
Reichert from Washington State, Mike Sodrel from Indiana, 
Michael McCaul from Texas, and Joe Schwarz, who will be joining 
us shortly from Michigan.
    I want to welcome everyone here today, especially our 
freshmen Members. This is our first Science Committee hearing 
of the 109th Congress, and also the first Congressional hearing 
on the Administration's proposals for limiting U.S. 
vulnerability to tsunami.
    It is unfortunate that it took a tragedy of staggering 
proportions to thrust this issue to the top of the 
Congressional agenda, and indeed the whole world's agenda. But 
this newfound attention should help prevent future deaths.
    And that is the goal of today's hearing: to determine how 
the U.S. can best prevent future deaths, both at home and 
abroad. The Administration is to be applauded for coming 
forward quickly with a cogent, targeted, and affordable 
proposal to improve tsunami detection for the U.S. and for its 
commitment to improve tsunami detection internationally.
    But detection is only one piece of the kind of the 
comprehensive effort that is needed to reduce vulnerability to 
tsunami. Warning systems, education, research and development, 
land-use planning, and ecosystem protection are all necessary 
if any program is to be effective. The Administration 
acknowledges this, but Congress now needs to evaluate whether 
the January 14 proposal strikes the appropriate balance among 
those elements. Shiny new technologies should not blind us to 
the need for a comprehensive approach.
    Today's hearing must also address a number of other 
questions to help us develop a policy. How much risk does the 
U.S. actually face from tsunami, and how much would the 
proposed program reduce that risk? To what extent would the 
proposed program help save lives and property from a tsunami 
that was generated right off shore? Will other programs be cut 
in the President's fiscal year 2006 budget to pay for this new 
proposal? What, precisely, is the U.S. prepared to do to reduce 
the vulnerability to tsunami in other parts of the world? How 
can we best integrate the tsunami program with other hazard 
mitigation and research programs? A lot of questions there, and 
that is why we are having this timely hearing to get some 
answers.
    This committee has long experience in putting together 
efforts to improve the U.S. response to natural disasters. The 
National Earthquake Hazards Reduction Program, or NEHRP, as we 
affectionately call it, which we created in 1977, has helped 
reduce the loss of life and property from earthquakes, and 
indeed, NEHRP is an essential part of U.S. efforts to prepare 
for tsunami, because most tsunami are generated by earthquakes. 
We just reauthorized NEHRP last year and also created a similar 
program to respond to windstorms.
    A lesson I draw from many years of experience with NEHRP is 
that any successful response program requires a comprehensive 
approach, strong interagency coordination, and an unswerving 
focus to ensure that all programs' work will truly reduce the 
destruction wreaked by future events.
    Another lesson I take is the centrality of the National 
Science Foundation to any successful effort. I think all of our 
witnesses today mention NSF in their prepared testimony, and I 
hope the key role of NSF will be reflected in the 
Administration's fiscal year 2006 budget request.
    I think today's hearing will make it clear just how complex 
the science behind our understanding of tsunami is. I can 
certainly say that I learned a lot of new vocabulary reading 
this testimony, as well as discovering that the plural of 
``tsunami'' is ``tsunami.'' But I want to make sure today that 
we don't get lost in the complexity and keep a steady eye on 
our goal, which is saving lives.
    The devastating events of December 26 are a wake-up call to 
all of us that we need to do more to prepare for tsunami. But 
it can't be the kind of wake-up call that leaves us panicked 
and disoriented. It cannot be a wake-up call that leads us to 
race to work only to find later that we are wearing mismatched 
socks and have forgotten our belts. We need to take the time 
now, starting with this hearing, and guided by the 
Administration's proposal, to put in place a broad, thoughtful, 
and sustainable program that can save lives here and around the 
world.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    I want to welcome everyone here today, especially our freshman 
Members. This is the first Science Committee hearing of the 109th 
Congress and also the first Congressional hearing on the 
Administration's proposals for limiting U.S. vulnerability to tsunamis. 
It is unfortunate that it took a tragedy of staggering proportions to 
thrust this issue to the top of the Congressional agenda--and indeed 
the whole world's agenda--but this newfound attention should help 
prevent future deaths.
    And that's the goal of today's hearing--to determine how the U.S. 
can best prevent future deaths, both at home and abroad. The 
Administration is to be applauded for coming forward quickly with a 
cogent, targeted and affordable proposal to improve tsunami detection 
for the U.S. and for its commitment to improve tsunami detection 
internationally.
    But detection is only one piece of the kind of comprehensive effort 
that is needed to reduce vulnerability to tsunamis. Warning systems, 
education, research and development, land-use planning, and ecosystem 
protection are all necessary if any program is to be effective. The 
Administration acknowledges this, but Congress now needs to evaluate 
whether the January 14th proposal strikes the appropriate balance among 
these elements. Shiny new technologies cannot blind us to the need for 
a comprehensive approach.
    Today's hearing must also address a number of other questions to 
help us develop a policy. How much risk does the U.S. actually face 
from tsunamis, and how much would the proposed program reduce that 
risk? To what extent would the proposed program help save lives and 
property from a tsunami that was generated right off shore? Will other 
programs be cut in the President's fiscal year '06 budget to pay for 
this new proposal? What precisely is the U.S. prepared to do to reduce 
the vulnerability to tsunamis in other parts of the world? How can we 
best integrate the tsunami program with other hazard mitigation and 
research programs?
    This committee has long experience in putting together efforts to 
improve the U.S. response to natural disasters. The National Earthquake 
Hazards Reduction Program (NEHRP), which we created in 1977, has helped 
reduce the loss of life and property from earthquakes. And indeed NEHRP 
is an essential part of U.S. efforts to prepare for tsunamis, because 
most tsunamis are generated by earthquakes. We just reauthorized NEHRP 
last year and also created a similar program to respond to windstorms.
    A lesson I draw from my years of experience with NEHRP, is that any 
successful response program requires a comprehensive approach, strong 
interagency coordination, and an unswerving focus to ensure that all 
program work will truly reduce the destruction wreaked by future 
events.
    Another lesson I take is the centrality of the National Science 
Foundation (NSF) to any successful effort. I think all of our witnesses 
today mention NSF in their prepared testimony, and I hope the key role 
of NSF will be reflected in the Administration's FY06 budget request.
    I think today's hearing will make it clear just how complex the 
science behind our understanding of tsunamis is. I can certainly say 
that I learned a lot of new vocabulary reading this testimony, as well 
as discovering that the plural of tsunami is tsunami. But I want to 
make sure today that we don't get lost in the complexity, and keep a 
steady eye on our goal, which is saving lives.
    The devastating events of December 26 are a wake-up call to all of 
us that we need to do more to prepare for tsunamis. But it can't be the 
kind of wake-up call that leaves us panicked and disoriented. It cannot 
be a wake-up call that leads us to race to work, only to find later 
that we're wearing mismatched socks and have forgotten our belts. We 
need to take the time now, starting with this hearing and guided by the 
Administration's proposal to put in place a broad, thoughtful, and 
sustainable program that can save lives here and around the world.

    Chairman Boehlert. The Chair now is pleased to recognize 
the Ranking Member from Tennessee, Mr. Gordon.
    Mr. Gordon. Good morning. As usual, I concur with Chairman 
Boehlert's opening statement, and I want to thank him for 
calling this important hearing.
    As Sherry pointed out, our Caucus did not make appointments 
until just yesterday evening, so a lot of our new Members 
aren't here, so I am going to wait until a later time to 
introduce them. And I also want to take the opportunity to 
congratulate our Chairman for surviving both a difficult 
operation and re-election, and we are glad to see you back with 
us. And to the new Republican Members, I suspect that you all 
went through pretty difficult elections and partisan, and I 
hope that you can think of this as a mostly partisan-free zone 
now, and can concentrate on substance and leave the politics 
back home. So that is what we try to do here.
    But the tsunami that struck seven nations in the Indian 
Ocean one month ago shocked the world with their awesome 
destructive power. We can not recover the lost lives, but we 
can ensure that we are well prepared to deal with the natural 
disasters here in the United States, and we help--and that we 
can help other nations to do a better job preparing as well.
    Tsunamis are rare events, but large ones can have 
devastating impacts when they occur. Compared to the cost in 
life and property, the cost of a tsunami warning and emergency 
preparation system is very small. The Administration's Tsunami 
Warning System improvement plan provides $37.5 million to NOAA 
and the USGS over the next two years to upgrade the Pacific 
Warning System and deploy a detection system in the Atlantic 
and Caribbean Basins. The plan provides the basis to cover the 
coastal U.S., and it is a good start.
    However, I am concerned that once the headlines have 
disappeared and the memories of the recent tragedy have dimmed, 
we may have deployed a network without sufficient funds to 
sustain its operational capacities. The current network in the 
Pacific has six buoys, but three are not operational. Clearly, 
maintenance is an issue that we need to consider. I also 
believe we need sufficient sustained support for central public 
education and State and local emergency preparation programs 
that translate detection and warning systems into life-saving 
actions.
    Most of the funding in the current proposal is devoted to 
the procurement and deployment of technology. Mr. Wilson of the 
Oregon Emergency Management is recommending sustained annual 
funding of the National Tsunami Hazard Mitigation Program of 
$7.8 million. We currently spend $4 million. The 
Administration's proposal includes an additional $5 million 
over two years. That is $2.6 million less than Mr. Wilson 
recommends. So the $37.5 million over two years included in the 
Administration's proposal is a good start, but it does not 
appear to be a complete proposal.
    And from where does the money come? If we are spending 
money to upgrade and expand the Tsunami Warning System, are we 
going to pay for it in reductions to other programs, and if so, 
which ones? These are other--there are other programs at NOAA 
that are essential to preserve lives and property. Is the 
Tsunami Warning System going to come at the expense of 
nationwide implementation of improved flood-forecasting models? 
Will funding for research to improve tornado and hurricane 
forecasts be cut? Severe storms and the flooding associated 
with them occur every year. The forecasting and warning systems 
for these natural disasters also need to be upgraded and 
maintained.
    So as we design and employ this Tsunami Warning System, we 
must provide sustainable funding to ensure its continued 
operation. But we should not sacrifice other equally important 
NOAA programs and operations in an effort to develop a 
temporary response to yesterday's crisis. If we are going to do 
this, we should do it right, and doing it right requires that 
we know the full initial and annual cost needed to deliver the 
benefits the public expects from this warning system.
    We have an excellent witness panel today. I welcome all of 
our witnesses to Washington and thank you for appearing before 
the Committee this morning. And I certainly want to welcome our 
colleague, Jay Inslee, for being here with us. I look forward 
to your testimony and to hearing your thoughts on how we can 
best address the development and the end-to-end emergency 
warning and response system for tsunamis.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    Good Morning. I thank Chairman Boehlert for convening this 
important hearing.
    The tsunamis that struck seven nations in the Indian Ocean one 
month ago shocked the world with their awesome, destructive power. We 
cannot recover the lost lives, but we can ensure that we are well-
prepared to deal with natural disasters here in the U.S. And we can 
help other nations to be better prepared as well.
    Tsunamis are rare events, but large ones can have devastating 
impacts when they occur. Compared to the cost in life and property, the 
cost of a tsunami warning and emergency preparation systems is small.
    The Administration's tsunami warning system improvement plan 
provides $37.5 million dollars to NOAA and USGS over the next two years 
to upgrade the Pacific warning system and deploy a detection system in 
the Atlantic and Caribbean basins. The plan provides the basics to 
cover the coastal U.S. It is a good start.
    However, I am concerned that once the headlines have disappeared 
and the memories of the recent tragedy have dimmed we may have a 
deployed network without sufficient funds to sustain its operational 
capabilities. The current network in the Pacific has six buoys, but 
three are not operating. Clearly, maintenance is an issue we need to 
consider.
    I also believe we need sufficient sustained support for the 
essential public education and State and local emergency preparedness 
programs that translate detection and warning into life-saving actions. 
Most of the funding in the current proposal is devoted to the 
procurement and deployment of technology.
    Mr. Wilson of Oregon Emergency Management is recommending sustained 
annual funding for the National Tsunami Hazard Mitigation Program of 
$7.8 million dollars. We currently spend about $4 million. The 
Administration's proposal includes an additional $5 million over two 
years--$2.6 million less than Mr. Wilson's recommendation. So, the 
$37.5 million over two years included in the Administration's proposal 
is a good start, but does not appear to be a complete proposal.
    And where will the money come from? It is no secret that we are in 
a terrible budget situation. If we are spending money to upgrade and 
expand the tsunami warning system, are we going to pay for it with 
reductions to other programs? If so, which ones?
    There are other programs at NOAA that are essential to preserve 
lives and property. Is the tsunami warning system going to come at the 
expense of nationwide implementation of improved flood forecasting 
models? Will funding for research to improve tornado and hurricane 
forecasting be cut? Severe storms and the flooding associated with them 
occur every year. The forecasting and warning systems for these natural 
disasters also need to be upgraded and maintained.
    As we design and deploy this tsunami warning system, we must 
provide sustainable funding to ensure its continued operation. But we 
should not sacrifice other equally important NOAA programs and 
operations in an effort to develop a temporary response to yesterday's 
crisis. If we are going to do this, we should do it right. Doing it 
right requires that we know the full initial and annual costs needed to 
deliver the benefits the public expects from this warning system.
    We have an excellent witness panel. I welcome all of you to 
Washington and thank you for appearing before the Committee this 
morning. I look forward to your testimony and to hearing your thoughts 
on how we can best address the development of an end-to-end emergency 
warning and response system for tsunamis.

    Chairman Boehlert. Thank you very much.
    And it is with mixed emotions that I make this next 
announcement, but today is the last official hearing for Martha 
``Marty'' Ralston, who is retiring at the end of this week 
after 26 years of dedicated service to this committee. And she 
typifies the professionalism and dedication and commitment of 
the staff of this committee. And I would ask you to join me in 
saluting her for that service.
    Our first witness on panel one, and our only witness on 
panel one, is our distinguished colleague, Jay Inslee. Jay is 
someone who is, I have learned from long experience, very 
knowledgeable about the subject matter that he involves himself 
in, and it is a wide range of activities. So to my colleague, I 
say welcome and we look forward to hearing from you on this 
very important subject.
    How are we doing there? Here we go. High technology at 
work.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    A month ago today one of the most devastating tsunamis ever 
recorded struck the nations of the Indian Ocean Basin. My prayers 
continue to go out to the victims of this terrible event. It is a 
startling reminder of our vulnerability to natural disasters. As people 
recover from the shock of the tsunami, we naturally begin to ask the 
questions such as ``What can we learn from this to prevent future 
disasters?'' In that vein, I am pleased that Chairman Boehlert 
organized today's hearing about the state of preparedness for detecting 
and responding to tsunamis in the United States.
    As Chairman of the Environment, Technology, and Standards 
Subcommittee, I am particularly interested in the role that the 
National Oceanic and Atmospheric Administration's (NOAA) National 
Weather Service plays in tsunami detection and warning systems. 
Currently, NOAA operates a tsunami warning system for the Pacific 
Ocean. Recently, the Administration announced an interagency plan to 
increase U.S. risk assessment, detection, warning, and disaster 
planning for tsunamis. Under the plan, NOAA would expand its current 
system nationwide using emergency supplemental appropriations in Fiscal 
Year (FY) 2005 of $14.5 million and then $9.5 million in FY 2006. While 
I support the Administration's plan to expand our tsunami detection 
systems, I am concerned about adequate funding in the out years for 
maintenance of the system. Currently only three of the six deep-ocean 
buoys used to detect tsunamis in the Pacific Ocean are working.
    Advanced tsunami detection buoys and real-time warning systems will 
only take us so far. People in coastal areas, and those visiting 
coastal areas, must learn to recognize the signs of natural disasters 
like tsunamis and must know how to respond appropriately to warnings. 
One of the news reports from the Indian Ocean tsunami was about a young 
school girl who had just learned about tsunamis in class. On vacation 
with her family, she recognized that the unusually large amount of 
water receding from the beach was a sign that a tsunami was coming and 
warned those near by to flee to higher ground. Her efforts saved dozens 
of lives. We should all know basic signs of natural disasters like 
this. This is a perfect example of why we must continue to work for 
improved science education in all of our schools.
    Unfortunately, it has taken this tragic event to bring natural 
disaster response planning to our attention today. However, now that 
the opportunity is upon us we must act quickly to establish a detection 
and warning system for the United States, and collaborate intensely on 
an international system. Not only must we develop an excellent 
worldwide detection system, but must also do the harder task of 
implementing a good warning system and training the public to 
understand and heed the warnings.

    [The prepared statement of Mr. Gilchrest follows:]

        Prepared Statement of Representative Wayne T. Gilchrest

    Mr. Chairman, I would like to address the tragedy of the recent 
Indian Ocean Tsunami and the opportunity it presents to examine and 
address our pressing need to better understand our oceans.
    Comprising 70 percent of the Earth's surface area, our oceans 
support a growing source of protein for many developing countries, 
promising sources of medicines, and efficient transport of goods 
between continents and among nations. They also strongly influence our 
climate and weather and provide economic and unmeasurable quality of 
life benefits. For proof of this, one only needs to know that the U.S. 
coasts support over 50 percent of the U.S. population and comprise only 
17 percent of our land base.
    When South Asia was struck by tsunami waves on December 26, the 
world's interest in tsunami detection and warning systems was 
heightened. The impact of these waves was felt around the world, and 
the tragedy of its immediate effect on Indian Ocean coastlines has 
painfully exposed our lack of ability to provide early warning and 
coastal community education and support. Many lifelong residents of 
Indian Ocean coastal towns fear the sea--the primary source of their 
livelihoods for generations. It is critical that individuals in high-
risk areas are educated about and prepared for tsunamis before they 
strike. Coastal communities need assurance that technology exists and 
will be applied to increase warnings for such events and to prepare 
them for evacuation to avoid catastrophic loss of human life.
    In contrast, developed nations use increasing technological 
sophistication to acquire from the sea its bounty--with little thought 
for the long-term sustainability of this activity. In time, without 
increased understanding of our ocean ecosystems and the impact of our 
harvest and extraction of its resources, developed nations may also 
come to fear the sea. The antidote to the disease of fear is 
understanding. New technologies have already led to enormous advances 
in our understanding of the coastal and marine environment. However, 
advanced sensors have been deployed only on relatively small scales, 
and the systems that are deployed have not been coordinated into an 
integrated system that will optimize our understanding of the oceans.
    Since the U.S. hosted the Earth Observation Summit in July 2003, we 
have been working with our partner nations to adopt a comprehensive, 
coordinated and sustained Earth Observation System to collect and 
disseminate data, information and models for more effective and 
responsible use of our resources as well as to inform decision-makers 
about impending disasters. Most recently, the U.S. Commission on Ocean 
Policy made an integrated ocean observing system a top recommendation 
in its report, An Ocean Blueprint for the 21st Century.
    Our space exploration and our weather programs show that when our 
scientists and the Nation support a program and devote time, money and 
most importantly the human mind into these types of endeavors we are 
highly successful. The ocean, however, is often referred to as the last 
frontier, a place where we continue to find new organisms and species 
and where we still struggle to understand the profound implications for 
climate changes and more direct impacts of the oceans on our human 
habitats.
    There is perhaps no more motivating event, no louder a voice for 
attention and understanding than having the ocean engulf human 
habitats. Our failure to fully develop and utilize our technology to 
understand our oceans has many more implications, including the 
potential for permanent damage to fragile and complex ecosystems that 
have generously provided us with food, medicines, recreation, and other 
benefits. We are now awake to the power of the ocean, and it is my hope 
that we will use this opportunity to move more quickly toward 
integrated data collection and dissemination systems, as well as 
intensive education of coastal communities, to ensure that we and 
future generations can look to the sea for inspiration, sustenance, and 
life-giving support.
    I applaud the Administration's commitment to increase global 
monitoring capacity and public awareness about tsunamis and other 
disasters, especially in adding capacity to ocean monitoring as part of 
the Global Earth Observation System of Systems (GEOSS). I look forward 
to the testimony from our esteemed witnesses and their insight into how 
best to develop our contribution to GEOSS to best warn coastal 
communities of potential disasters, how to integrate this system with 
broader needs for integrated ocean monitoring data, and how best to 
educate coastal communities about the impacts of the oceans on our 
lives.

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
our committee to discuss the causes of tsunamis, the risks they may 
pose to the U.S. and to the rest of the world, and how the U.S. should 
prepare for them. We have all shared the grief and recognized the 
catastrophic damage caused by the tsunami in South Asia. While 
Americans have generously responded to the disaster, we also have an 
important role to play in preventing such horrific loss of life should 
another underwater earthquake occur.
    A tsunami as powerful as the one that devastated South and 
Southeast Asia has never hit the United States, but that does not mean 
it could not happen. Even a lesser catastrophe could be deadly, and 
would only take a minor underwater landslide in the Canary Islands to 
trigger a big eruption. The Atlantic Ocean, like the Indian Ocean, 
lacks tsunami sensors. There were no sensors in the Indian Ocean 
because tsunamis were deemed less likely there, but now we know that 
`less likely' is not good enough. Merely detecting a disaster and 
having the technology to access the magnitude of the earthquake will 
not minimize the impact of future natural disasters. Experts believe 
that millions of lives lost in the recent tsunami disaster could have 
been saved if the Indian Ocean countries had the capabilities to 
administer warnings about the impending catastrophe to people along the 
coasts. This claim has caused us to re-examine our own risk assessment 
and detection systems for tsunamis and I am pleased this committee is 
having this hearing today in order to address the challenges that lie 
ahead.
    I welcome our panel of witnesses and look forward to their 
testimony.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    First of all, I would like to thank Chairman Boehlert for calling 
this important hearing to review how prepared the U.S. is for tsunamis. 
I also want to thank our distinguished witnesses for agreeing to appear 
today and answer our questions.
    We were all quite disturbed by the catastrophic images that were 
disseminated worldwide last December. As casualties have risen above 
the 200,000, our hearts and prayers go out to all the victims and their 
families.
    As we discuss the enormous devastation caused by this natural 
disaster, the one question we must ask ourselves is could this have 
been avoided?
    We here in the U.S. at least like to believe that thanks to the 
sophisticated tsunami-detection systems in the Pacific Ocean, we are 
save from tsunami harm. However, recent reports have suggested that 
half of our system is in desperate need repair, leaving substantial 
blind spots in our detection system and our beaches vulnerable.
    This is unacceptable. The nations around the Pacific Ocean basin 
have had a tsunami-warning network in place since the 1940s. Since the 
mid '90s, the U.S. has had sensors at the bottom of the Pacific Ocean 
floor capable of detecting destructive waves and signaling to surface 
buoys, which then radio the information to satellites and onward to 
scientists. No such Indian Ocean tsunami-warning system was in place.
    Equally as important as increasing technology, there should also be 
an increase in education. There was little public education in low-
income countries to the dangers of tsunamis. The public needs to 
understand and react properly to tsunami warning signs, such as the 
rattling of an earthquake that initiates the wave, the dramatic 
recession of water from the beaches, and a deep rumbling that 
immediately precedes the wave. Information needs to get from federal to 
State and local agencies--and then be transmitted to the public. Most 
importantly, the public needs to understand what to do with that 
information.
    I hope the witnesses here today can help us come up with ideas on 
how exactly to accomplish this.
    With that being said, I again thank the Chair and Ranking Member 
for this hearing.

    [The prepared statement of Mr. Davis follows:]

           Prepared Statement of Representative Lincoln Davis

    Good morning. Thank you, Mr. Chairman and Ranking Member, for the 
opportunity for us to discuss the Indian Ocean tsunami that occurred on 
December 26, 2004. Thank you, Witnesses, for your presence today.
    It is hard to imagine the destruction caused by that tsunami. My 
district, in rural Tennessee, seems so far removed from a natural 
disaster such as this one.
    But my constituents, whose loved ones are bravely serving this 
nation in our military, know the feelings of sorrow and despair when 
lives are lost. Tornadoes and floods affect our area, and so I can 
understand the grave importance of having plans in place to predict 
these forces of nature so that people can prepare as best they can.
    I have seen much on the news about the December 26th Tsunami--we 
all have. But it is my hope today that these witnesses who are experts 
in their fields will be able to tell us what we can do in the future to 
better prepare, better predict, better communicate, and better protect 
people from future tsunamis.
    It is frustrating to know that all the world's advanced 
technologies couldn't save 212,000 people. 212,000 of anything is hard 
to fathom, and the loss of just one life seems unbearable. Our hearts 
and prayers go to the families of those affected by this terrible 
disaster.
    Mr. Chairman, thank you and I yield back the balance of my time.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

Mr. Chairman,

    I want to thank you for organizing this briefing on how NOAA, USGS, 
universities, and State agencies can assist with the detection and 
relief efforts of tsunamis and other natural disasters. Just last week 
I traveled with my Congressional colleagues to Colombo and Galle in Sri 
Lanka on a delegation lead by Congressman Joseph Crowley. I saw the 
devastation caused by the December 26 tsunami which took thousands of 
lives. I have never witnessed such extensive destruction and loss of 
life. I hope that the technologies that the Science Committee will help 
to develop will help to minimized losses in future natural disasters.
    I was able to see first hand how USAID workers and U.S. Armed 
Forces personnel were helping in the effort to provide assistance and 
rebuild. Despite all the horrific devastation, it was a welcome sight 
to see American personnel putting so much work and effort into helping 
the people struck by the tsunami. You could see on the faces of the Sri 
Lankan people that they were grateful of the efforts being made on 
their behalf. Those Americans in Galle have served their nation well 
and we should all be proud of their efforts.

Tsunami Causes and History

    Tsunamis are walls of water that inundate coastal areas with little 
or no warning, often taking many lives and causing extensive property 
damage. They are initiated by sudden underwater disruptions and in this 
regard they differ from wind generated waves because the power they 
pack is not limited to the surface. Tsunamis are usually started as a 
result of an undersea earthquake, which for years was considered to be 
the sole cause of tsunamis. Research is now showing that tsunami 
generation involves intricate interactions between earthquakes, 
undersea landslides, and sympathetic vibrations between the quake and 
the ocean above it.
    Tsunamis have been known since 426 B.C., and between 1990 and 2001 
there were 11 major tsunami events in the Pacific Rim, killing over 
4,000 people and causing hundreds of millions in property damage. 
Previously, the most devastating tsunami occurred in 1755 in the 
Atlantic which killed 60,000 people and destroyed much of Lisbon. By 
comparison, the death toll from the Banda Aceh Tsunami could exceed 
150,000 on top of the unthinkable numbers of displaced, orphaned, and 
injured. Subsequent disease and untreated injuries will undoubtedly add 
to these statistics.

U.S. Assistance

    The President has already pledged $350 million in direct support to 
the affected countries on top of the medical, infrastructure, and 
logistics support from the U.S. Military. I want to encourage my 
colleagues in the Congress to work together as we did last Fall to 
provide nearly $14 billion in relief to the Southeastern states and 
Caribbean nations following the four devastating hurricanes.
    In addition to the technical assistance our U.S. Military is 
providing for the relief efforts, we want to also make sure that U.S. 
scientific capability is available to the relief efforts and also in 
the prediction and warning of future natural disasters.
    I also want to recognize the private sector that has shown 
unprecedented outpouring of generosity with donations of supplies and 
money. In my own district, I helped to organize a group known as 
Houston's Solutions for Tsunami Victims held a Medical Relief Drive and 
Save the Children Effort in Houston on January 9th in which thousands 
of vital medical supplies were collected and will be delivered to 
tsunami stricken areas.

Research and Early Warning

    Beyond the immediate needs, I want to encourage the Science 
Committee to work with me in developing programs that will help to 
minimize losses suffered in future natural disasters. The National 
Oceanographic and Atmospheric Administration and the U.S. Geological 
Survey lead the U.S. in the research, monitoring, and warning of 
tsunamis and other natural disasters. For example, the Deep-ocean 
Assessment and Reporting of Tsunamis Project (DART) can detect ocean 
level anomalies as small as 1/2 inch in 20,000 feet of water to 
determine if a tsunami event is occurring in the deep sea. This system 
was useful in avoiding a false alarm in response to an Alaskan 
earthquake that could have but, did not cause a tsunami. DART stations 
cost about $250,000 to purchase and around $125,000 per year to 
maintain. Stations are now located off the coasts of Alaska, the 
Pacific Northwest, and Chile, but we need to consider how this system 
can be expanded to other parts of the world. Reliability of the DART 
system needs to be understood as we consider its deployment worldwide.
    Research on the causes of tsunamis is also needed. One of the most 
severe tsunamis in recent history occurred in Papua New Guinea in July 
1998. The initiating earthquake was unexceptional at a magnitude of 
7.1--the size of an earthquake that strikes somewhere in the world 
about every three weeks. Geological modeling strongly suggested that 
the quake caused an underwater landslide that together triggered the 
exceptional size tsunami that killed at least 2,500 people. Other 
preliminary research indicates that under some conditions, tsunamis may 
be detectable from aircraft or satellites using radar or radiometers 
miles away from coastal areas.
    NASA recently provided me with some preliminary information that 
their JASON-1 satellite sensors did detect the December 26 tsunami, and 
I understand that NASA is already collaborating with NOAA in the 
analysis of this data. While JASON-1 was not designed as part of a 
tsunami warning system, these data may help to identify new sensor and 
detection systems for tsunamis that will reliably predict tsunamis with 
a low rate of false alarms.
    ASTER, a cooperative effort between NASA and Japan's Ministry of 
Economy Trade and Industry, is a satellite sensing system that obtains 
high-resolution image data in 14 channels over targeted areas of the 
Earth's surface, as well as black-and-white stereo images. With a 
revisit time between four and 16 days, ASTER data is already being used 
to assess the damage to the countries devastated by the tsunami.

Science Committee Opportunities

    The preliminary data from NASA indicates that new analyses of data 
from existing sensing systems may be useful in predicting tsunamis and 
other impending natural disasters. New types of sensing systems may 
also help in this regard. Ab initio modeling, taking into account all 
of the data from this tsunami, will be important in understanding how 
to prevent future devastation. I am looking forward to working with the 
Science Committee to identify these opportunities for NOAA, USGS, NASA 
and the other federal science agencies.

                                Panel I:

 STATEMENT OF REPRESENTATIVE JAY INSLEE, MEMBER, U.S. HOUSE OF 
                        REPRESENTATIVES

    Mr. Inslee. We are talking about high technology here. You 
know, people have described this event as a biblical event that 
brought us here today, and the same Creator that created a 
world that is so dynamic that can create tragedies like this 
also created the human mind. And what we are really talking 
about at this hearing is the use of the human mind to guard us 
from these future events, future events that we know are going 
to happen. This is not a hearing about something that is 
uncertain. There is certainty that we are going to experience 
earthquakes and tsunamis like this. The only question is when 
and where.
    And you know, Mr. Boehlert, of all of the hearings you have 
ever had, you, perhaps, never had one that was so timely, 
because 305 years ago today, January 26, 1700, a few miles off 
the coast of the Pacific in the United States, the Cascadia 
subduction zone ruptured, and it created an earthquake probably 
equal or exceeding that off the coast of Indonesia, and it sent 
tidal waves, tsunamis perhaps as much as 50 feet high across 
the Pacific coast in the State of Washington. So 305 years ago 
today, we experienced in the United States an event very 
similar in scope and potential tragedy as they did in 
Indonesia. So you really could not have picked a better day to 
focus the Nation's attention on this issue.
    The bad news is that we are very exposed. This is a 
personal issue. My District is connected to the Pacific Ocean 
on the shores of Puget Sound. Washington has an exposed 
coastline. But we have many areas in the country that have 
these potential exposures. That is the bad news.
    The good news is that we have the scientific capability, 
due to some extraordinary achievements, some of, I may note, is 
from my District, that have the capability of really giving us 
100 percent protection in a timely real-time warning of 
tsunamis. So that is the good news. And the good news here, 
there is a success story already. The United States has 
already, before a huge tragedy, developed at least the 
beginnings of a good system with the six buoys we have in the 
Pacific now already being developed. And that is the success 
story of some of the advanced thinking of our scientific 
community of our federal agencies, and they should be 
complimented for that. Now we need to give them the tools to 
finish that job. I may note that one of these tools that can 
detect one inch, these tools that sit on the bottom of the 
ocean, they are anchored to the sea floor. And they use a 
transducer developed by someone in the first District of the 
State of Washington, I may add, Redmond, Washington, they can 
note in five miles deep water one inch of deviation in the 
elevation of the water column above them by noticing that 
pressure distance. This is an incredible technology. We simply 
need to get it out under the ocean. And that is why we--I look 
forward to introducing this bill with you, Mr. Boehlert, to do 
that on a bipartisan basis to get this job done.
    We are talking about probably 50 buoys worldwide to provide 
not only America but the world with this protection. And that 
is one important point, I think, of this effort is that we need 
to protect our own coastlines, but we need to use our 
technological know-how to lead the world in an international 
system to protect the world's coastlines. And there is at least 
preliminary thought about using the Hagemeyer Pacific Tsunami 
Warning Center in Hawaii as the sort of nerve brain to 
distribute--analyze this information and distribute the 
warnings worldwide, and I think that is something we should 
contemplate, because we really are the worldwide leaders.
    I want to note just several things that I hope we will keep 
in mind as we develop this legislation. First, and Mr. Gordon 
really mentioned it, the need for follow up. This does not 
simply involve sticking some buoys in the water and calling it 
a day. And we will be challenged to make sure that this job 
gets done in several respects. One, the maintenance needs, the 
ocean is fairly unforgiving. Three of our buoys are down now. 
We need to make sure we have a rigorous maintenance schedule. 
And we have to build in redundancy into this system, because 
some of these buoys are going to be down no matter what we do 
due to the stresses of the ocean.
    Second, and this is very important for, I think, the 
Committee to think about, is that the buoys don't do the job 
without a warning and educational system for the people on the 
shorelines. Sending a signal from a satellite to Hawaii and 
then down from Hawaii to a certain agency of the Federal 
Government doesn't do any good if we haven't educated our 
citizens of what to do and how to get the warning to the 
beaches and to the schools to get that job done. We started 
that in the Pacific. I noticed La Push, Washington is exposed. 
They have got a bus out there to--24 hours a day practically to 
evacuate kids from an elementary school they have there. So we 
have the good beginning of that system, but we have got to 
develop a national system to get that job done.
    False alarms. I also want to talk about a benefit of this 
that is not often contemplated. One of the problems we have 
with the existing system is that because it doesn't have a 
sufficient scope, we have false alarms. And when you have false 
alarms, it costs you humongous amounts of money, if I may use 
that scientific term. It cost about--Hawaii about $40 million 
when we had a false alarm in the last couple decades. This--
creating a larger system will eliminate or severely reduce 
false alarms that will make this system work. It will save us a 
lot of dollars in lost tourism and the like shutting down your 
economy.
    The last note I want to make, people have asked about the 
cost of this. These are very rare events. The last event that 
damaged the United States was 305 years ago, so they are quite 
rare. And people have asked, you know, ``Why should we protect 
against and spend millions of dollars on a rare event?'' And 
the answer is very simple. It is one of the best investments 
you can make. You know, we have spent hundreds, literally 
hundreds of billions of dollars on what, up until now, have 
been some rare events of the terrorism threat. We have a threat 
now that may be rare but equally devastating, and that is 
tsunamis. And spending somewhere in the order of $40 million to 
get this job done, there is really no cheaper investment to 
save Americans' lives, and we ought to make it.
    So I want to thank you, Mr. Boehlert and Mr. Gordon, and I 
look forward to working with you, and I will answer any 
questions or general criticisms.

                               Discussion

    Chairman Boehlert. I want to thank you for an excellent 
statement. I want to compliment you for getting, at last count, 
seven plugs for your District in, and you did very well in your 
representational capacity.
    But you underscored the need for a comprehensive approach. 
It is something more than just appropriating dollars to get new 
gadgets, and that is very important. But there has to be an 
educational program, and it has to be a very comprehensive 
program. So I thank you for that.
    Mr. Gordon, do you have any------
    Mr. Gordon. Just concurring and thanking you, Jay. You 
understand it very well, and you have conveyed that to us and 
to this group.
    Mr. Inslee. Just one more plug, too. Behind me is Dr. Eddie 
Bernard. I don't know if he is going to speak today, but he has 
been an absolute leader in developing this system, and I think 
we owe our tip of the hats to the scientific personnel who 
advanced this technology before an earthquake and a tsunami has 
hit the United States. Those are advanced thinkers.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you very much.
    Ms. Woolsey. Mr. Chairman?
    Chairman Boehlert. Yes.
    Ms. Woolsey. Could I ask our------
    Chairman Boehlert. Ms. Woolsey.
    Ms. Woolsey.--esteemed guest a question and make a 
statement? And maybe you can kind of just, Jay, walk us through 
this a little bit.
    My fear is false security. I mean, you have both said that, 
and you just said that, Mr. Chairman, and you have covered it, 
but you didn't tell us how. I mean, I need to--I am sorry I am 
a cynic, but I can see this all being put in place and then an 
event occurs and we go, ``Oh, we hadn't--we didn't prepare.''
    Chairman Boehlert. Ms. Woolsey, let me point out that not 
all of the wisdom is vested in the distinguished Representative 
of the first District of Washington.
    Ms. Woolsey. But he has got a wonderful mind, and I------
    Chairman Boehlert. He does, indeed, but we have------
    Ms. Woolsey. He can tell us. Tell us.
    Chairman Boehlert.--some of the foremost experts, not just 
in America, but in the world going to testify today.
    Ms. Woolsey. Behind him?
    Chairman Boehlert. Yes, and------
    Ms. Woolsey. So the--that is my--I have to wait and hear 
from them?
    Chairman Boehlert. No, Jay, you can add anything you might 
care to add right now, but I------
    Ms. Woolsey. Thank you.
    Mr. Inslee. I think the Chairman is calling for a little 
humility from the witness, so perhaps I should display that.
    No, I just think, in the serious question about--this panel 
needs to know--to find a way legislatively to build a 
foundation for funding for the ongoing maintenance and 
educational needs. And I think, again, it may be easy--it may 
be a little bit of a no-brainer to put the buoys in. And we are 
going to have to figure out a way, with the concurrence of 
other committees, to build in the appropriations and the 
infrastructure to get, particularly, the educational and the 
warning systems domestically that are needed, including the 
Caribbean and even the East Coast, where they are really not--
they really don't exist. We have got a rudimentary system in 
the--in Washington State. We really don't on the Caribbean, 
pretty much, at all.
    So I guess what I would say is I am looking to your great 
ideas, Lynn.
    Ms. Woolsey. Okay. Thank you.
    Chairman Boehlert. Well, thank you very much. And we would 
welcome your------
    Mr. Sherman. Mr. Chairman?
    Chairman Boehlert.--continuing input as we go forward with 
the development of legislation. Because make no mistake about 
it, this is not just a hearing. This is the beginning of a 
journey, and we are going to travel it together, and we are 
going to develop a comprehensive legislative initiative that we 
hope will be marketable to our colleagues and the Nation.
    Who said--Brad?
    Mr. Sherman. Yes. I don't know whether Jay wants to respond 
to this or maybe the panel of experts can work it into their 
statement. But I would like to know if we have done enough to 
create mathematical models that could be used on an emergency 
basis to know an earthquake occurred here, therefore we have to 
evacuate this area or we might have to evacuate that area. And 
also, whether we have an early warning system and evacuation 
system that is integrated, whether it is tsunami, whether it is 
some other disaster, or whether it is a dirty bomb, that is to 
say, when we are planning for evacuation and warning, it ought 
to be a comprehensive system. Perhaps either this witness or 
the next can focus on that.
    Chairman Boehlert. Sure. Yeah. Because as you will learn, 
as the testimony goes forward, I have had the opportunity to 
look at the testimony, this very important point is being 
addressed.
    Mr. Inslee. A very quick comment. I am very convinced that, 
with all of our tremendous ability to evaluate the seismic wave 
that we can pick up on our seismographs, that is not even close 
to good enough to really giving us predictive ability of where 
a wave is going to hit and what its extent is. I think the 
scientists will back me up on that, I hope. We really need the 
buoy system to find out if the wave is there, otherwise, you 
are stuck with continual false alarms. You would have lack of 
compliance with that issue. You have enormous economic cost. 
You really need to use this science to find out if the wave 
really exists, and I look forward to a bipartisan success doing 
that.
    Chairman Boehlert. Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman. Just a quick 
statement here, because I may have to leave shortly for another 
hearing.
    I recently visited, Jay, the Indian Ocean Basin where all 
of the countries were hit. The destruction was staggering, 
incomprehensible. The response to that, by the international 
community, was stunning, and it continues to be that way. When 
we went to Sri Lanka or India, we asked a number of questions 
to people whose lives were torn apart. The most curious 
question and their most curious response was how did this 
happen and what can we do to prevent it. We asked them did they 
know how this happened, and they didn't. And whether it was the 
Buddhists, whether it was the Muslims, whether it was the 
Hindus, they were all curious, not as to why it happened. They 
didn't want to associate that with any religious aspect. They 
wanted to know how it happened, the physics behind the tsunami. 
And then they wanted to know how they could find out if it was 
going to happen again.
    So we have worldwide interest in this issue. It is a--it 
revealed the common humanity of all people. Religion was set 
aside. National origin was set aside. Race was set aside. The 
idea that humans can get together in this most dynamic process 
of nature and how the tsunami works.
    So Mr. Chairman, and to the Ranking Member, we have huge 
momentum behind this issue, not only for the United States and 
all of our coastal areas, but the U.S. can be a leader in the 
world to protect these vulnerable shorelines.
    Mr. Inslee. Just let me note, what you said about when you 
asked how did this happen, it sort of pointed out to me the 
need for education, how important it is for this from a safety 
standpoint. In 1964, I think, was the Alaska earthquake, and I 
was living in Seattle at the time, so I saw, and one of my 
classmates explained how they watched the water recede. All of 
the water went out of the harbor before the tsunami came back 
in. And we all knew in Seattle in that classroom that if you 
ever see Puget Sound go out, you head for the hills. In places 
in Thailand, the tourists headed for the beaches to watch this 
abnormal occurrence, which is a, you know, terrible tragedy. It 
just points out the need for an educational effort that I know 
the Chair is going to lead us to build.
    Chairman Boehlert. Thank you very much. Thank you, Mr. 
Gilchrest. Thank you.

                               Panel II:

    Chairman Boehlert. Our second panel today consists of Dr. 
Charles ``Chip'' Groat, who is Director of the U.S. Geological 
Survey, General David L. Johnson, retired, Director of the 
National Oceanic and Atmospheric Administration's National 
Weather Service, Dr. John Orcutt, Deputy Director, Research at 
the Scripps Institution of Oceanography and President of the 
American Geophysical Union, Dr. Arthur Lerner-Lam, Director, 
Columbia University Center for Hazards and Risk Research, and 
for the purpose of an introduction, the Chair recognizes Mr. 
Wu.
    Mr. Wu. Thank you, Mr. Chairman. It is my honor to 
introduce Mr. Jay Wilson of the Oregon Emergency Management 
Office. But first, I would like to thank the Chairman and the 
Ranking Member on holding this very timely hearing.
    The December 26 tragedy in the Indian Ocean earthquake and 
the following tsunami was a tremendous tragedy, and we should 
do all that we can to help in the present situation. And I want 
to commend people and organizations around this country, 
particularly some organizations, non-profits and businesses in 
Oregon, who have generously helped: Northwest Medical Teams, 
and Medical Teams Northwest. Some for-profit businesses, like 
Nike and Intel, I am--it is my understanding that the employees 
at Intel alone have contributed $1 million and matched by $1 
million from the Intel Foundation. And I want to thank all 
Americans for their generous contributions.
    And while we deal with the current situation in Indonesia, 
Sri Lanka, Thailand, and elsewhere, at the same time, we should 
be very cognizant of the possibility of significant tsunamis 
occurring in the United States. And as Mr. Inslee previously 
stated, perhaps the greatest largest tsunami to ever hit our 
shores occurred 305 years ago today, January 26, 1700, in 
Oregon and Washington where two tectonic plates come together. 
And it is--the way that we calculated this date is that there 
are historic recordings in Japan, thousands of miles away, at a 
certain date and hour when that tsunami hit the shores of Japan 
back in 1700. And the geologists and geophysicists tell us that 
these huge subduction earthquakes can occur on our Pacific 
Northwest coast every 300 to 1,000 years. That is the current 
estimate. I note that we are 305 years away from the last 
occurrence, so we are in the yellow zone, if not the red zone, 
for another significant event in the Pacific Northwest. Much 
more recently, there was a 9.2 Richter scale earthquake off 
Alaska, and it created 19 to 20-foot waves, which flooded 
seaside Oregon in March of 1964.
    With the Pacific Rim's experiences in earthquakes and 
tsunamis, we, on the West Coast, take this threat very, very 
seriously. Several Oregon research universities, such as 
Portland State University, Oregon State University, and the 
University of Oregon, conduct cutting-edge research in tsunami. 
And I am also very pleased to say that, along with other 
Pacific coast states, work together to prepare and educate our 
citizens on the threats of tsunami. And I would especially like 
to mention Kennan Beach, Oregon, in my District, as well as 
Mazzonina and Halem on the border of my colleague's and my 
District for being some of the four Oregon communities, which 
are rated as TsunamiReady communities.
    It is my pleasure to introduce Mr. Jay Wilson, the 
distinguished--to this distinguished committee. Mr. Wilson is 
currently the Earthquake and Tsunami Programs Coordinator for 
the Oregon Emergency Management Office. He has been working in 
the emergency management field in California and Oregon, and 
now works hard to prepare Oregonians for tsunami.
    I am very happy to hear that Mr. Wilson's latest work is in 
the creation of a tsunami educational pilot project in Seaside, 
Oregon, and at this moment, I would like to yield to my 
colleague from Oregon, Ms. Darlene Hoosley.
    Ms. Hoosley. Thank you.
    Again, welcome, Mr. Wilson. I had the privileged of 
spending time with some of the people that you work with as 
they did a briefing for me in Salem, all of the statewide 
experts in this area. So I appreciate what Oregon is doing, and 
that was interesting as I was on a flight a couple of weeks 
ago, I was sitting next to a gentleman who does a lot of work 
in this area on--he does it both nationally and 
internationally. And he leaned over and he said, ``Oregon has 
done the best job of preparing of any state.'' So I think you 
should feel good about that.
    We also had a series of hearings on the central coast to 
see what they were doing and how prepared they were. I was 
pleased by the work that we have done. There is a lot more work 
that needs to be done. But in each of these hearings, we had 
all of the emergency management people. We had first responders 
as well as elected officials and community members talking 
about what each of those two counties have done, which are the 
central part--central coast, Lincoln and Tillamook counties. 
And one of the things I would like to do, Mr. Chair and Mr. 
Ranking Member, is when we talked, these groups came up with 
several really fabulous ideas. I asked them to go back and meet 
again and put those in ranking order. And what I would like to 
do, Mr. Chair, is introduce those to the Committee so that we 
may use the------
    Chairman Boehlert. Thank you very much. The Committee------
    Ms. Hoosley. And again, thank you.
    Chairman Boehlert.--will be most receptive. Thank you, 
everyone.
    Now let us get to our distinguished witnesses. And we would 
ask that you summarize your statements in five minutes or so. 
The Chair will not be arbitrary. It is too important a subject. 
But if you condense your testimony, because we have your full 
written testimony, which will be part of the official record, 
that will allow more time for those of us who need to be better 
educated to take part in this exercise.
    So with that, Dr. Groat, you are first up.

 STATEMENT OF DR. CHARLES ``CHIP'' G. GROAT, DIRECTOR, UNITED 
   STATES GEOLOGICAL SURVEY, U.S. DEPARTMENT OF THE INTERIOR

    Dr. Groat. Thank you, Mr. Chairman.
    Thank you for the opportunity to reflect on the recent 
tragedy in South Asia and important to us here, in the United 
States, and what can be done to reduce the threat that tsunamis 
and earthquakes pose to coastal communities in the United 
States as well as around the globe.
    Events, such as this one, and we are also reminded by the 
four hurricanes that crossed Florida this past summer, recent 
volcanic activity at Mount St. Helen's, point out our 
vulnerability to natural hazards. And those natural hazards, 
such as all of these, are inevitable. They are geologically and 
meteorologically inevitable, but as has been pointed out 
several times, the consequences are not inevitable if we 
prepare for them.
    As we move forward, we have got to bear in mind that we are 
being confronted here with multiple hazards. Both the tsunami 
and the earthquake have to be considered in planning our 
responses and in instructing our scientific understanding as we 
move that forward in the name of public safety.
    The December 26, 2004 magnitude 9 earthquake that struck 
the coast of Sumatra, was initiated 20 miles beneath the sea 
floor off the western coast, and it was the fourth largest 
earthquake to strike the planet since 1900 and the largest 
since the magnitude 9.2 earthquake struck Alaska in 1964. The 
devastation caused by both the tsunami and the earthquake are 
of grand proportions and remind us, again, of the effects of 
these natural events on lives and property.
    As with other giant earthquakes, this one took place in a 
subduction zone where one of the tectonic plates that make up 
the Earth's rigid outer layer, is being thrust against another. 
The size of the earthquake is directly related to the area of 
the fault that has actually ruptured. This particular rupture 
was huge. It propagated northward along the plate boundary for 
almost 750 miles. Along the length of the fault rupture, the 
sea floor was jolted upward as much as 15 feet, lifting 
trillions of gallons of sea water, a volume more than 30 times 
that of the Great Salt Lake and generating a tsunami that swept 
both east, inundating the coast of Sumatra, Thailand, and 
Burma, and west, crossing the open ocean at hundreds of miles 
an hour on its way to the coast of India, Sri Lanka, and 
eventually eastern Africa. The devastation that struck the 
coastal Sumatra area can be seen on this pair of land set 
images from before and after the event.
    While not all tsunamis are caused by earthquakes, most are, 
thus earthquake-monitoring networks play a large role in 
Tsunami Warning Center operations. It is necessary to 
determine, based on the interpretation of seismic waves 
generated by an earthquake, whether tsunami generation is 
likely or not. This is an extremely important fact, because 
there are many kinds of earthquakes, and not all that are large 
even generate tsunamis. So interpretation of the information we 
get from this monitoring network is critical in informing those 
responsible for tsunami warnings whether or not there is likely 
to be one.
    To monitor seismic events worldwide, the Global 
Seismographic Network, the GSN, maintains the constellation of 
128 globally distributed, modern seismic sensor. The U.S. 
Geological Survey operates about 2/3 of this network, and the 
University of California, San Diego, operates the other 1/3 
with NSF support. NSF also funds the Incorporated Research 
Institutions for Seismology (IRIS) Consortium to handle data 
management and the long-term archiving. As you pointed out, Mr. 
Chairman, the role of NSF in funding both the monitoring and 
the science in this important area is extremely important and 
needs to be continued and increased. In the case of the Sumatra 
earthquake, automated analysis of data from the Global Seismic 
Network stations generated the alert of strong recorded 
amplitudes that were sent to NOAA and to the USGS. At the 
present time, about 80 percent of this network transmits data 
in real time that can be used for rapid earthquake analysis and 
tsunami warnings. A hallmark of our efforts to upgrade this 
system is to increase our ability to receive this data in real 
time and to upgrade our capability in the scientific community 
of analyzing this data very quickly and providing the results 
of those analyses to people responsible for issuing warnings.
    In the United States, we face a major risk from subduction 
zone earthquakes, like the one that struck Sumatra. The most 
recent was a magnitude 9.2 earthquake that struck Alaska in 
1964. However, the greatest risk, as pointed out by several 
Members, is in the Pacific northwest. At the 1700 Cascadia 
subduction zone that was mentioned before, the earthquake along 
the Pacific coast in Oregon, Washington, California, and 
British Columbia is particularly notable. This event was of the 
same general size as the Sumatra earthquake, and it caused 
coastal marshes to suddenly drop several feet. Based on return 
interval, USGS scientists and others who work on this aspect of 
it, have estimated that there is a 10 to 14 percent chance of a 
repeat of the Cascadia magnitude 9 earthquake and tsunami in 
the next 50 years, so that gives you some sense of the order of 
risk that we are facing, as Mr. Wu pointed out.
    To monitor earthquakes in the United States, the USGS has 
begun to install and operate the Advanced National Seismic 
System, part of the NEHRP process, to provide seismic data to 
NOAA's Tsunami Warning Centers. The system includes a 63-
station Advanced National Seismic System (ANSS) backbone 
network, which is capable of locating most felt earthquakes 
nationwide and provides data in near real time to the USGS. 
Extending our capability in high-hazards areas of the U.S. are 
17 regional seismic networks that provide detailed coverage and 
rapid response both--and local expertise and event analysis and 
interpretation of this data is an important part of these local 
networks.
    On December 29, the President asked the Departments of 
Commerce and Interior to determine whether our warning systems 
are adequately prepared for tsunamis that could affect the 
United States coasts and the coasts of those interests that the 
United States has. As a result, the Administration has 
announced its commitment to implement and improve domestic 
seismic detection and warning systems. And as part of the 
President's plan, the USGS will upgrade its ability to provide 
NOAA with timely interpretation of seismic data from 
earthquakes, including their potential for tsunami generation 
by doing the following. And I want to point out here that the 
point that we can start and then forget is not lost on what we 
have proposed to do. We are trying to upgrade a system that is 
important not only to tsunamis, but also to earthquakes, and 
provide the resources that will continue this system in an 
advanced state of readiness in the outcoming years so that we 
do not become complacent and figure we solve the problem with a 
one-time effect.
    So we plan to implement 24 x 7 operations in the National 
Earthquake Information Center in Golden, Colorado, and upgrade 
the hardware and software systems in order to improve the 
processing of earthquake data from the U.S. and around the 
world. As part of this upgrade, we will fully develop what is 
now a prototype system to estimate the number of people 
affected by strong ground motion after an earthquake using our 
ShakeMap model and databases of global population. This PAGER 
system, which is--stands for the Prompt Assessment of Global 
Earthquakes for Response, can provide eight agencies and others 
with a quick estimate of how significant casualties might be 
well in advance of reports from affected areas where 
communications may be down, so here again, an important 
forecasting tool to provide those responsible for response with 
early information. Thus these improvements at the NEIC, the 
National Earthquake Information Center, will increase our 
ability to provide relevant information about earthquake 
hazards as well as their tsunami generation potential.
    We also plan to support research to develop more rapid 
methods for characterizing earthquakes and discriminating 
likely tsunamigenic sources, here again, the importance of 
determining which earthquakes do and will generate tsunamis.
    We also plan to improve the detection response time of the 
Global Seismographic Network by making data from all stations 
available in real time, using satellite telemetry and improving 
station up-time through increased maintenance schedules. This 
again has been pointed out as an extremely important part of 
any warning system. We have to have the resources to make sure 
that it is upgraded, that it is maintained, so that it is 
always ready.
    We also intend to improve coverage in the Caribbean region. 
We will achieve that through the addition of some seismic 
stations there and upgrades of existing stations through 
cooperation with international partnerships in that area.
    And finally, we will further the use of software developed 
by the California Integrated Seismic Network, which is a USGS 
university and State partnership, to speed USGS generated 
earthquake information directly to local emergency managers 
with a dual-use capability to also provide that information to 
NOAA.
    And finally, getting to the importance that has been 
pointed out of understanding what the impacts on our coastal 
areas will be. Do we understand the nature of the topography, 
the terrain, the infrastructure that is there in a way that can 
be fed into models for the generation of projected impacts? We 
plan, as part of our cooperative effort with NOAA and others, 
to enhance our capabilities to provide elevation mapping for 
coastal areas--in the United States and in the Caribbean and 
provide this information for improved tsunami hazards 
assessments in the U.S., in general, but particularly in Puerto 
Rico and the Virgin Islands.
    The earthquake which contributed significantly to the loss 
of lives and property will encourage us to continue forward on 
the comprehensive NEHRP approach to earthquake loss. Here 
again, I think a model of interagency cooperation where we, 
FEMA, NIST, and the National Science Foundation work together 
to translate good science into hazard reduction programs. So we 
translate our understanding, through monitoring and research, 
through such initiatives as the Advanced National Seismic 
System and also the work of the George Brown, Jr. Network for 
Earthquake Engineering Simulation. These activities will 
accelerate the use of new earthquake risk mitigation 
technologies and the development of improved seismic provisions 
in building codes.
    In closing, Mr. Chairman, the USGS will also continue 
ongoing collaboration with NOAA, FEMA, and other agencies and 
universities to improve tsunami hazard assessments and warning 
through geologic investigations into the history and the 
potential for tsunami occurrences. We learn about the present 
from understanding the past, and the records of things that 
happened prehistory are extremely important, so geologic and 
geomorphic understandings are gained through active research 
and active mapping, and we plan to continue that.
    Chairman Boehlert. Thank you.
    Dr. Groat. We also plan to help provide better products in 
terms of inundation maps and propagation maps and supply 
information that will support the very kinds of models that 
were questioned before. And we will also continue in the Indian 
Ocean to understand, based on that, what the impacts were there 
to inform our understanding in the United States.
    With that, Mr. Chairman, I will close and be welcoming 
questions you pose.
    [The prepared statement of Dr. Groat follows:]

                 Prepared Statement of Charles G. Groat

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to discuss the recent tragedy in South Asia and what can be 
done to reduce the threat that tsunamis and earthquakes pose to coastal 
communities in the United States and around the globe. Events such as 
this serve as a tragic reminder of our vulnerability to natural 
hazards. While the United States is not as vulnerable to tsunamis as 
other regions of the world, we do face significant risk.
    On December 29, the President asked the Departments of Interior and 
Commerce to determine whether our systems are adequately prepared for a 
tsunami on our coasts. As a result, the Administration announced its 
commitment to implement an improved domestic tsunami detection and 
warning system. As part of the President's plan, the U.S. Geological 
Survey (USGS) will strengthen its ability to detect global earthquakes 
both through improvements in the Global Seismographic Network (GSN), 
which we support jointly with the National Science Foundation (NSF), 
and through around-the-clock analysis of earthquake events. The changes 
that are proposed for USGS clearly have a dual purpose, improving our 
capacity to respond to earthquakes as well as supporting the tsunami 
warning program of the National Oceanic and Atmospheric Administration 
(NOAA).
    In addition to earthquake monitoring and reporting, the USGS 
conducts a number of activities aimed at improving tsunami hazard 
assessments, education, and warnings, including geologic investigations 
into the history of and potential for tsunami occurrence, coastal and 
marine mapping, and modeling tsunami generation. Although most tsunamis 
are caused by earthquakes, they can also be caused by volcanic 
eruptions, submarine landslides, and onshore landslides that cause 
large volumes of rock to fall into the water. All of these tsunami-
generating hazards can impact the United States. Consequently, a broad 
range of USGS work in earthquake, volcano and landslide hazards, and 
coastal and marine geology, contribute to better understanding of 
tsunami impacts and occurrences.
    Additionally, USGS is playing a role in relief efforts for nations 
impacted by the December 26 disaster by providing relief organizations 
worldwide with pre- and post-tsunami satellite images and image-derived 
products that incorporate information on population density, elevation, 
and other relevant topics. These images and products are being used by 
relief organizations to determine where relief efforts are most 
critical and how best to carry out those relief operations. In our 
efforts to assist and improve relief efforts, we work closely with 
partners at NOAA, the U.S. Agency for International Development, other 
federal agencies, and in academia. For example, USGS scientists are 
part of international teams conducting post-tsunami investigations in 
Sri Lanka and Indonesia with the goal of applying the knowledge 
developed to other vulnerable areas in the United States and around the 
globe.
    USGS is also working with NOAA and other domestic and global 
partners through the Global Earth Observing System of Systems (GEOSS) 
and other mechanisms. Through GEOSS, improved monitoring capabilities 
must be firmly linked into all-hazards warning systems and, the most 
important link in the chain, public education and mitigation programs. 
As we move forward, we must bear in mind that this was an earthquake 
disaster as well as a tsunami disaster, and we must learn from both. 
This is not just a scientific endeavor; it is a matter of public 
safety.

Earthquake and Tsunami of December 26, 2004

    This was the second year in a row in which a deadly earthquake 
occurred near the end of the year. In 2003, a magnitude 6.6 quake 
struck Iran's ancient city of Bam, killing over 30,000 people. In 2004, 
the deadly quake was a magnitude 9 earthquake that initiated 20 miles 
below the seafloor off the western coast of Sumatra, the fourth largest 
earthquake to strike the planet since 1900 and the largest since a 
magnitude 9.2 earthquake struck Alaska in 1964. The earthquake and 
resulting tsunami killed more than 150,000 people around the Indian 
Ocean, two-thirds of them in northern Sumatra, whose inhabitants 
experienced not only the severe shaking from the earthquake but also 
the tsunami's full force.
    As with other giant earthquakes, this one took place along a 
subduction zone, where one of the tectonic plates that make up the 
Earth's rigid outer layer is being thrust beneath another (see Figure 
1). The Sunda trench is the seafloor expression of such a plate 
boundary where the Indian plate is thrusting under the overriding Burma 
plate. The size of an earthquake is directly related to the area of the 
fault that is ruptured. This rupture propagated northward along the 
plate boundary fault for over 750 miles beneath the Nicobar and Andaman 
Islands almost to Burma with a width of over 100 miles and slip along 
the fault averaging several tens of feet.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    It is difficult to comprehend the scope of a magnitude 9 
earthquake. When we hear the term earthquake magnitude, we think of the 
Richter scale, which was the first of several scales developed to 
measure the earthquake size from the seismic waves they generate. These 
scales are logarithmic such that each whole number represents an order 
of magnitude larger in the seismic waves generated. So a magnitude 7 
earthquake is 10 times larger than a magnitude 6 and 100 times larger 
than a magnitude 5. However, the amount of energy released goes up much 
faster. This magnitude 9 earthquake released 32 times more energy than 
a magnitude 8 earthquake and 1000 times more energy than a magnitude 7 
earthquake such as the one that struck the San Francisco Bay area in 
1989. The energy released by the Sumatra earthquake is roughly equal to 
that released by all the earthquakes, of every size, everywhere in the 
world since the mid-1990s. It's important to remember that our own 
coasts, Alaska in 1964 and the Pacific Northwest in 1700, were the site 
of earthquakes as large as the Sumatra earthquake.
    A great deal of that energy was transferred to the Indian Ocean's 
waters and ultimately to its surrounding shores. Along the length of 
the fault rupture, the seafloor was jolted upward by as much as 15 
feet, lifting trillions of gallons of sea water--a volume more than 30 
times that of the Great Salt Lake--and generating the tsunami that 
swept both east, inundating the coast of Sumatra, Thailand and Burma, 
and west, crossing the open ocean at hundreds of miles per hour on its 
way to the coasts of India, Sri Lanka, and eventually eastern Africa.
    Tsunamis strike the Indian Ocean less frequently than the Pacific 
Ocean, which is ringed by subduction zones, but there have been at 
least a half dozen Indian Ocean tsunamis caused by earthquakes in the 
past 200 years. What had been the deadliest tsunami in the region was 
not caused by an earthquake but by the explosion of Krakatau volcano in 
1883. The tsunami generated by the collapse of that volcano killed 
36,000 people on Java, Sumatra and neighboring islands.
    It is important to emphasize that not all large subsea earthquakes 
generate tsunamis. For example, four days before the Sumatra 
earthquake, a magnitude 8.1 earthquake struck the seafloor south of New 
Zealand near the Macquarie Islands. Instead of generating a thrusting 
motion as in a subduction zone, this earthquake occurred on a strike-
slip fault, moving side to side like the San Andreas Fault, a motion 
much less efficient at creating a tsunami. No tsunami was generated. 
Even earthquakes generated in subduction zones may not produce tsunami, 
depending on whether the fault rupture reaches the seafloor, the amount 
of displacement on the fault and other factors. One of the key roles of 
a tsunami detection system is to avoid false warnings that cause costly 
and unnecessary evacuations that can undermine people's willingness to 
heed warnings in the future. In addition to buoys and tide gauges, 
seismic data may be able to provide an additional check, and research 
in this area could improve our ability to recognize tsunami-causing 
events in minutes.

U.S. earthquake monitoring networks and their role in tsunami warning 
                    center operations

    To monitor earthquakes in the United States, the USGS has begun to 
install and operate the Advanced National Seismic System (ANSS), which 
was established by the National Earthquake Hazard Reduction Program 
(NEHRP) in 2000 (P.L. 106-503). The system includes a 63-station ANSS 
Backbone Network, which is capable of locating most felt earthquakes 
nationwide and provides data in near-real-time to USGS. Extending our 
capability in high-hazard areas of the country are 17 regional seismic 
networks that provide detailed coverage and rapid response, local 
expertise in event analysis and interpretation, and data. Our ANSS 
partnerships--which include universities, State government agencies and 
NSF--greatly leverage USGS seismic monitoring capabilities. The key 
products of the system are rapid and accurate earthquake locations and 
magnitudes, delivered directly to users for emergency response.
    In several of the highest-risk urban areas in the United States, 
dense arrays of seismic sensors designed to record strong ground motion 
have been deployed under ANSS. These areas include the Los Angeles, San 
Francisco, Seattle, Anchorage and Salt Lake City metropolitan regions. 
When triggered by an earthquake, data from these sensors are 
automatically processed into detailed maps of ground shaking 
(``ShakeMaps''), which in turn feed loss estimation and emergency 
response. Also, because earthquake losses are closely tied to the 
vulnerability of buildings and other structures, USGS monitors 
earthquake shaking in structures in support of engineering research, 
performance-based design, and rapid post-earthquake damage evaluations. 
If placed in certain critical facilities, these sensors can contribute 
to critical post-earthquake response decisions.
    USGS has set a minimum performance goal of determining automated 
locations and seismic magnitudes within four minutes or less in the 
U.S. This is exceeded in many ANSS regions; for example, the magnitude 
6.5 San Simeon, California, earthquake of December, 2003, was 
automatically located within 30 seconds. Earthquake data, including 
locations, magnitudes, other characterizations and, where requested, 
the actual seismograms, are automatically transmitted from USGS and 
regional centers to federal response departments and agencies such as 
the NOAA tsunami warning centers, the Department of Homeland Security, 
including the Federal Emergency Management Agency (FEMA), State 
governments, local emergency managers, utility operators, several 
private sector entities, and the public and media. USGS does not 
currently have 24  7 earthquake analysis, but analysts are on-call in 
the event of a large earthquake worldwide. The Administration has 
recently proposed 24  7 operations as a key needed improvement in 
response to the Indian Ocean tsunami disaster.
    To monitor seismic events worldwide, the Global Seismographic 
Network (GSN) maintains a constellation of 128 globally distributed, 
modern seismic sensors. USGS operates about two-thirds of this network, 
and the University of California, San Diego, operates the other third 
with NSF support. NSF also funds the IRIS (Incorporated Research 
Institutions for Seismology) Consortium to handle data management and 
long-term archiving. Two GSN stations were the first to detect the 
December 26, 2004, Sumatra earthquake, and automated analysis of these 
data generated the ``alerts'' of strong recorded amplitudes sent to 
NOAA and USGS. At the present time, about 80 percent of GSN stations 
transmit real-time data that can be used for rapid earthquake analysis 
and tsunami warning. The Administration is requesting funding to extend 
the GSN's real-time data communications, as well as to improve station 
uptime through more frequent maintenance. These changes will result in 
improved tsunami warning in the United States and globally.
    Through the National Tsunami Hazard Mitigation Program, the USGS, 
NOAA, FEMA, and five western States (Alaska, California, Hawaii, Oregon 
and Washington) have worked to enhance the quality and quantity of 
seismic data provided to the NOAA tsunami warning centers and how this 
data is used at the State and local level. This program has funded USGS 
to upgrade seismic equipment for regional seismic networks in northern 
California, Oregon, Washington, Alaska and Hawaii. The seismic data 
recorded by the USGS nationally and globally are relayed to the NOAA 
tsunami warning centers. USGS and NOAA also exchange earthquake 
locations and magnitude estimates, with USGS providing the final 
authoritative magnitudes of events. USGS is also working with emergency 
managers in the Pacific Northwest to support public warning systems in 
coastal communities there.
    Improving earthquake monitoring in the United States--with 
consequent improvements to public safety and the reduction of 
earthquake losses--can be achieved through the modernization and 
expansion of the ANSS, including expansion of seismic sensor networks 
nationwide, the upgrading of the associated data processing and 
analysis facilities, and the development of new earthquake products. 
Funding over the past three years has focused on installation of over 
500 new seismic sensors in high-risk urban areas. The FY05 
appropriation for ANSS is $5.12 million. The President's proposed 
increase in funding to USGS in response to the tsunami disaster would 
allow USGS to make critically needed improvements to performance in one 
key element of ANSS, providing 24  7 operations capacity and 
completing software and hardware upgrades to speed processing times. 
These improvements will enhance USGS support of NOAA's tsunami warning 
responsibility.

The threat from tsunamis and great earthquakes in the Pacific

    The concentration of U.S. tsunami warning efforts in the Pacific 
reflects the greater frequency of destructive tsunami in that ocean. 
Approximately 85 percent of the world's tsunamis occur in the Pacific. 
This is due to many subduction zones ringing the Pacific basin--the 
source of submarine earthquakes of large enough magnitude (greater than 
7) to produce tsunami. While Hawaii's position in the middle of the 
Pacific makes it uniquely vulnerable to ocean-wide tsunami, this chain 
of volcanic islands also faces a hazard from locally generated tsunami 
due to local earthquakes or submarine landslides. In 1975, a magnitude 
7.2 earthquake just offshore the island of Hawaii caused a tsunami that 
killed two with maximum runup height (elevation reached by tsunami as 
they move inland from the shoreline) of 47 feet.
    U.S. Insular Areas in the Pacific also face a threat both from 
ocean-wide tsunami as well as ones generated locally. The volcano 
Anatahan in the Northern Marianas, which began actively erupting on 
January 5, 2005, serves as a reminder that inhabitants and U.S. 
military interests in the Commonwealth of the Northern Mariana Islands 
and the Territory of Guam are threatened by nine islands with active 
volcanoes that have the potential to generate hazardous ash plumes as 
well as tsunamis through eruption-induced collapse. The risks from 
tsunamis to the inhabited islands are poorly understood, and tsunami 
inundation modeling is needed to assess the threat represented by such 
an event.
    Our knowledge of what may be the greatest risk to the United States 
does not come from our tsunami experiences of the last half century, 
but rather to the detective work of USGS and other scientists in the 
Pacific Northwest. In contrast to the San Andreas Fault, where the 
Pacific and North American plates are sliding past one another, a 
subduction zone known as Cascadia lies offshore further north, its size 
nearly identical to that of the rupture zone of the Sumatra earthquake 
(see Figure 2). On January 26, 1700, the Cascadia subduction zone broke 
in a great earthquake, probably from northernmost California to the 
middle of Vancouver Island. Along the Pacific coast in Oregon, 
Washington, California, and British Columbia, this huge event of the 
same general size of the Sumatra earthquake, caused coastal marshes to 
suddenly drop down several feet. This change in land elevation was 
recorded by the vegetation living in and around the coastal marshes. 
For example, along the Copalis River in Washington State, Western Red 
Cedar trees that have lifespans of over 1,000 years were suddenly 
submerged in salt water. Over the next few months, those trees died. By 
comparing tree rings of the still standing dead trees with nearby trees 
that were not submerged, paleoseismologists established that the trees 
were killed during the winter of 1699-1700.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Digging through river bank deposits along the Copalis and other 
rivers in Cascadia, paleoseismologists found a pervasive, black sand 
sheet left by the tsunami. Because the sands deposited by the tsunami 
are transported by the tsunami waves, paleoseismologists can combine 
the location of tsunami sands with the change in marsh elevation to get 
an approximate idea of the length of the rupture for the 1700 
earthquake. Tsunami sands have been found from Vancouver Island to 
Humboldt Bay in California.
    Once paleoseismologists found evidence of the 1700 event, they 
combed written records in Japan to see if evidence existed of an 
unknown tsunami wave. Several villages recorded damage in Japan on 
January 27, 1700, from a wave that people living along the coast could 
not associate with strong ground shaking. The coast of Japan had been 
hit, not unlike Sri Lanka and Somalia, by a distant tsunami, but this 
tsunami came from the west coast of North America. By modeling the 
travel time across the Pacific, paleoseismologists were able to 
establish the exact date of the last Cascadia subduction zone event.
    Based on estimates of the return interval, USGS scientists and 
others have estimated that there is a 10-14 percent chance of a repeat 
of the Cascadia magnitude 9 earthquake and tsunami event in the next 50 
years. Since that initial discovery in the early 1980s, many of the 
elements of the seismic systems for the Pacific Northwest described 
above have been put in place along with improved building codes to 
address the higher expected ground shaking and increased public 
education through the efforts of State and local emergency managers.
    The December 26, 2004, earthquake and tsunami together cause us to 
focus on the similar threat from the Cascadia subduction zone that 
faces the Pacific Northwest as well as our long Alaskan coastline. Here 
I cannot emphasize enough the critical role played by our partners in 
State and local government, especially the State emergency managers. 
Largely through the efforts of the National Tsunami Hazard Mitigation 
Program partnership, much has been accomplished. Seismic systems have 
been improved, allowing NOAA's West Coast and Alaska Tsunami Warning 
Center to issue warnings within minutes of a significant offshore 
earthquake. Inundation maps, graphic representations of estimates of 
how far inland future tsunami waves are likely to reach, are available 
for most major communities in northern California, Oregon, and 
Washington. Working with FEMA, public education has been stressed, and 
emergency managers have begun installing all-hazard warning systems. 
USGS is co-funding a $540,000 pilot project in Seaside, Oregon with 
FEMA and NOAA to develop risk identification products that will help 
communities understand their actual level of risk from tsunami in a way 
that could be conveyed on existing flood maps. The goal of the project 
is to develop techniques that can be used to determine the probability 
and magnitude of tsunami in other communities along the west coast of 
the United States.

Tsunami threats in the Atlantic

    With respect to tsunami hazard risk to the U.S. East coast, it 
should be noted that subduction zones are scarce in the Atlantic Ocean. 
But the Atlantic Ocean is not immune to tsunami. A tsunami following 
the great 1755 Lisbon earthquake, generated by collision of the African 
and Eurasian tectonic plates, devastated coasts of Portugal and 
Morocco, reached the British Isles, and crested as much as 20 feet high 
in the Caribbean.
    In 1929, the magnitude 7.2 Grand Banks earthquake triggered a 
submarine landslide and tsunami that struck Newfoundland's sparsely 
settled coast, where it killed 27 people with waves as high as 20 feet. 
An event like this, involving a submarine landslide, may be the most 
likely scenario for the Atlantic coast. Scars of past large submarine 
landslides abound on the continental slope off the U.S. Atlantic coast. 
As in the 1929 Grand Banks event, some of the slides probably resulted 
from large earthquakes. If earthquakes are the primary initiator of the 
observed landslide features, the hazard to the Atlantic coast is 
limited as large earthquakes rarely occur in the vicinity of the U.S. 
and Canada Atlantic coast-perhaps once a century, on average (Boston 
area, 1755; Charleston, 1866; Newfoundland, 1929). Additionally, this 
type of tsunami would affect a much smaller geographical area than one 
generated by a subduction zone, and its flooding effect and inundation 
distance would be limited. Much work is needed, however, to more fully 
understand the triggering of submarine landslides and the extent of 
that threat in the Atlantic.
    Another tsunami scenario for the Atlantic coast that has been 
widely publicized is a landslide involving collapse of part of the 
Cumbre Vieja volcano in the Canary Islands into the sea. While this 
collapse would be dramatic and might indeed induce a trans-atlantic 
tsunami, such a collapse may occur only once every hundred thousand 
years. Furthermore, unlike the West Coast with the abundant record of 
past ocean-wide tsunami deposits, no such regionally extensive deposits 
have been found to date along the Atlantic coast.

Tsunami threats in the Caribbean

    The Caribbean is subject to a broad range of geologic processes 
that have the potential to generate tsunami. Indeed, the Caribbean 
tectonic plate has almost all of the tsunami-generating sources within 
a small geographical area. Subduction zone earthquakes of the type that 
generated the Indian Ocean tsunami are found along the Lesser Antilles 
and the Hispaniola and Puerto Rico trenches. Other moderately large 
earthquakes due to more local tectonic activity take place probably 
once a century, such as in Mona Passage (1918 tsunami) and in the 
Virgin Islands basin (1867 tsunami). Moderate earthquakes occur that 
may trigger undersea landslides and thus generate tsunami. An active 
underwater volcano (Kick'em Jenny near Grenada) where sea floor maps 
show previous episodes of flank collapse also poses a tsunami hazard. 
Above-water volcanic activity occurs, wherein the Lesser Antilles 
periodically generate landslides that enter the sea to cause tsunami. 
And finally, the possibility exists of tele-tsunami from the African-
Eurasian plate boundary, such as the great Lisbon earthquake of 1755 
described above.
    In 1867, an 18-foot high tsunami wave entered St. Thomas' Charlotte 
Amalie at the same time that a 27-foot wave entered St. Croix's 
Christiansted Harbor. Were that to occur again today, the 10-fold 
increase in population density, the cruise ships, petroleum carriers, 
harbor infrastructure, hotels and beach goers, nearby power plants, 
petrochemical complexes, marinas, condominiums, and schools, would all 
be at risk.
    On October 11, 1918, the island of Puerto Rico was struck by a 
magnitude 7.5 earthquake, centered approximately 15 kilometers off the 
island's northwestern coast, in the Mona Passage. In addition to 
causing widespread destruction across Puerto Rico, the quake generated 
a medium sized tsunami that produced runup as high as 18 feet along the 
western coast of the island and killed 40 people, in addition to the 76 
people killed by the earthquake. More than 1,600 people were reportedly 
killed along the northern coast of the Dominican Republic in 1946 by a 
tsunami triggered by a magnitude 8.1 earthquake.
    In contrast to the Caribbean, the Gulf of Mexico has low tsunami 
risk. The region is seismically quiet and protected from tsunami 
generated in either the Atlantic or the Caribbean by Florida, Cuba, and 
broad continental shelves. Although there have been hurricane-generated 
subsea landslides as recently as this fall, there is no evidence that 
they have generated significant tsunami.

Lessons learned: What the United States can do to better prepare itself 
                    and the world

    Natural hazard events such as the one that struck Sumatra and the 
countries around the Indian Ocean on December 26, 2004, are 
geologically inevitable, but their consequences are not. The tsunami is 
a potent reminder that while the nations surrounding the Pacific Ocean 
face the highest tsunami hazard, countries around other ocean basins 
lacking basic tsunami warning systems and mitigation strategies face 
considerable risk. Reducing that risk requires a broad, comprehensive 
system including rapid global earthquake and tsunami detection systems, 
transmission of warnings in standardized formats to emergency officials 
who already know which coastal areas are vulnerable through inundation 
mapping and tsunami hazard assessment, and broadcast capabilities to 
reach a public already educated in the dangers and how to respond. For 
tsunami crossing an ocean basin, an adequate system of earthquake 
sensors, Deep-ocean Assessment and Reporting of Tsunamis (DART) buoys, 
and tide gauges should allow for timely warnings if the rest of the 
system is in place. For tsunami generated near the coastline, time is 
considerably more critical. For tsunami warnings to be effective, they 
must be generated and transmitted to the affected coastline within a 
few minutes of detection, local emergency responders must be prepared, 
the population must be informed, and the entire system must be executed 
without delay.
    The Sumatra earthquake and its devastating effects will encourage 
us to continue forward on the comprehensive NEHRP approach to 
earthquake loss reduction. USGS is committed to do so in partnership 
with FEMA, the National Institute of Standards and Technology, and NSF 
to translate research into results through such initiatives as ANSS, 
the George E. Brown, Jr. Network for Earthquake Engineering Simulation, 
the plan to accelerate the use of new earthquake risk mitigation 
technologies, and development of improved seismic provisions in 
building codes.
    As part of the President's plan to improve tsunami detection and 
warning systems, the USGS will:

        <bullet>  Implement 24  7 operations at the National 
        Earthquake Information Center and upgrade hardware and software 
        systems in order to improve the timeliness of alerts for global 
        earthquakes. As part of the upgrade, USGS will fully develop 
        what is now a prototype system to estimate the number of people 
        affected by strong ground shaking after an earthquake using our 
        ShakeMap model and databases of global population. Known as 
        Prompt Assessment of Global Earthquakes for Response (PAGER), 
        this system can provide aid agencies and others with a quick 
        estimate of how significant the casualties might be well in 
        advance of reports from affected areas where communications may 
        be down.

        <bullet>  Support research to develop more rapid methods for 
        characterizing earthquakes and discriminating likely 
        tsunamigenic sources.

        <bullet>  Improve the detection response time of the Global 
        Seismographic Network by making data from all stations 
        available in real time via satellite telemetry and improving 
        station up-time through increased maintenance schedules. 
        Improved coverage in the Caribbean region will be achieved 
        through the addition of stations and upgrades of existing 
        stations through international partnerships and cooperation.

        <bullet>  Further the use of software developed by the 
        California Integrated Seismic Network (a USGS, university and 
        State partnership) to speed USGS-generated earthquake 
        information directly to local emergency managers with a dual 
        use capability to also provide NOAA tsunami warnings.

        <bullet>  Enhance existing USGS geologic and elevation mapping 
        for coastal areas in the Caribbean. Such mapping is critical to 
        development of improved tsunami hazards assessments for Puerto 
        Rico and the U.S. Virgin Islands.

    The USGS will also continue its ongoing efforts to improve tsunami 
hazard assessment and warnings through geologic investigations into the 
history of and potential for tsunami occurrence; coastal and marine 
mapping; modeling tsunami generation, source characterization, and 
propagation; and development of assessment methods and products such as 
inundation maps with NOAA, FEMA, and other partners. USGS will also 
continue strong partnerships with State tsunami and earthquake hazard 
mitigation groups and contribute to public awareness efforts. An 
example of the latter is the 2001 publication, USGS Circular 1187, 
Surviving a Tsunami: Lessons Learned from Chile, Hawaii and Japan, 
which was prepared in cooperation with the Universidad Austral de 
Chile, University of Tokyo, University of Washington, Geological Survey 
of Japan, and the Pacific Tsunami Museum. Continuing investigations of 
the Indian Ocean tsunami provide a critical opportunity to expand our 
knowledge of tsunami generation and impacts and to evaluate the 
research and operational requirements for effective hazard planning, 
warning, and response systems.
    Mr. Chairman, I thank you for this opportunity to appear before the 
Committee and would be happy to answer any questions now or for the 
record.

                     Biography for Charles G. Groat

    On November 13, 1998, Dr. Charles G. Groat became the 13th Director 
of the U.S. Geological Survey, U.S. Department of the Interior.
    Groat is a distinguished professional in the Earth science 
community with over 25 years of direct involvement in geological 
studies, energy and minerals resource assessment, ground-water 
occurrence and protection, geomorphic processes and landform evolution 
in desert areas, and coastal studies. From May to November 1998, he 
served as Associate Vice President for Research and Sponsored Projects 
at the University of Texas at El Paso, following three years as 
Director of the Center for Environmental Resource Management. He was 
also Director of the University's Environmental Science and Engineering 
Ph.D. Program and a Professor of Geological Sciences.
    Prior to joining the University of Texas, Dr. Groat served as 
Executive Director (1992-95) at the Center for Coastal, Energy, and 
Environmental Resources, at Louisiana State University. He was 
Executive Director (1990-92) for the American Geological Institute. 
From 1983-88, he served as assistant to the Secretary of the Louisiana 
Department of Natural Resources, where he administered the Coastal Zone 
Management Program, and the Coastal Protection Program.
    From 1978-1990, Dr. Groat held positions at Louisiana State 
University and the Louisiana Department of Natural Resources which 
included serving as Professor for the Department of Geology and 
Geophysics, and as Director and State Geologist for the Louisiana 
Geological Survey. He also served as Associate Professor (1976-78) at 
the University of Texas at Austin, in the Department of Geological 
Sciences, and as Associate Director and Acting Director of the Bureau 
of Economic Geology.
    Dr. Groat received a Bachelor of Arts degree in Geology (1962) from 
the University of Rochester, a Master of Science in Geology (1967) from 
the University of Massachusetts, and a Ph.D. in Geology (1970) from the 
University of Texas at Austin.
    Among his many professional affiliations, Groat is a member of the 
Geological Society of America, American Association for the Advancement 
of Science, American Geophysical Union, and the American Association of 
Petroleum Geologists. He has also served on over a dozen Earth science 
boards and committees and has authored and contributed to numerous 
publications and articles on major issues involving Earth resources and 
the environment.
    Dr. Charles G. Groat was born in Westfield, New York, March 25, 
1940. He currently resides in Reston, Virginia, with his wife, Barbara. 
He has two grown children.

    Chairman Boehlert. Thank you very much. It was the third 
``finally'' that got me.
    Dr. Groat. Yeah.
    Chairman Boehlert. Thank you.
    Dr. Groat. I got one ``finally'' ahead of myself. I am 
sorry.
    Chairman Boehlert. Well, no, and it is very important, and 
you know, and we deal with some of the most sensitive issues of 
our time, and when we ask people to summarize in 300 seconds or 
less, I always feel that we sort of cheat ourselves, but we 
have to be mindful of everybody's schedule and everything else.
    So thank you very much, Dr. Groat.
    General Johnson.

  STATEMENT OF BRIGADIER GENERAL DAVID L. JOHNSON (RETIRED), 
  DIRECTOR, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION'S 
                    NATIONAL WEATHER SERVICE

    Brigadier General Johnson. Thank you, Chairman Boehlert and 
Mr. Gordon and Members of the Committee, for the opportunity to 
testify before you regarding the National Oceanic and 
Atmospheric Administration, NOAA, activities with regard to the 
tsunamis. I am Brigadier General David L. Johnson, the 
Assistant Administrator for Weather Services, and the Director 
of NOAA's National Weather Service. And I ask that my written 
testimony be submitted for the record.
    As my time here today is limited, I will focus my oral 
testimony on describing the U.S. tsunami program, NOAA's 
response to the Indian Ocean tsunami, NOAA's role in the 
Administration's tsunami warning proposal, and how the United 
States can help the world prepare for tsunamis.
    The U.S. Tsunami Warning System consists of two warning 
centers, the Richard H. Hagemeyer Pacific Tsunami Warning 
Center in Ewa Beach, Hawaii, and the West Coast/Alaska Tsunami 
Warning Center in Palmer, Alaska.
    The Hagemeyer Warning Center in Hawaii was established in 
1949 in response to the unpredicted 1946 Aleutian tsunami, 
which killed 165 of our citizens on the Hawaiian Islands. The 
1967 Alaska Warning Center was created as a result of 120 
deaths from the 1964 Great Alaska earthquake and tsunami that 
has already been mentioned here today.
    These centers are responsible for issuing all tsunami 
warning, watch, advisory, and information messages to emergency 
manager officials and to the public. Now NOAA operates six 
Deep-ocean Assessment and Reporting of Tsunami, or DART, buoys 
to help issue these accurate warnings. NOAA research activities 
developed these buoys to measure tsunamis in the deep ocean and 
to transmit the information back to the Warning Centers. These 
instruments accurately calculate the size of the tsunami by 
measuring the pressure wave from the deep ocean floor as it 
passes, and tsunamis as small as 0.5 centimeters have been 
measured.
    In November of 2003, the DART buoys demonstrated their 
effectiveness when a large earthquake occurred in the Aleutian 
Islands and generated a tsunami. The two Warning Centers 
evaluated the tsunami and confirmed only a small wave. This 
accurate prediction of the non-destructive tsunami saved Hawaii 
an estimated $68 million in projected evacuation costs. The 
Hagemeyer Warning Center also serves as the operational center 
for the International Tsunami Warning System of the Pacific, 
which is comprised of 26 member nations around the Pacific Rim. 
The Hagemeyer Center's primary responsibility is to issue 
tsunami warnings in the Pacific Basin for tsunamis that can 
cause damage far away from their source. It is not the Center's 
responsibility to issue local tsunami warnings from seismic 
events. For example, if an earthquake occurs off the coast of 
Japan and a local tsunami is generated, it is Japan's 
responsibility to issue the local tsunami warning. However, the 
Hagemeyer Center will warn all participating nations in the 
Pacific Basin if the Japanese tsunami will cause damage.
    NOAA's Tsunami Warning Centers have no authority or 
responsibility to issue tsunami warnings for the Indian Ocean 
Basin. However, knowing the concerns Pacific countries have 
about the potential damage, on Sunday, the 26th of December, 
2004, at 8:14 p.m. Eastern Standard Time, and within seven 
minutes of notification and 15 minutes of the Indonesian 
earthquake, both centers issued tsunami information bulletins.
    Now sea level gauges are also essential elements of the 
current Tsunami Warning System in the Pacific. When 
strategically located, they can also be used to quickly confirm 
the existence or non-existence of tsunami waves following an 
earthquake to monitor the tsunami's progress and to help 
estimate the severity of the hazard.
    Unfortunately, there was no sea level data or other 
information available to substantiate or evaluate the Indian 
Ocean tsunami until hours after the earthquake had happened and 
when the first news reports began to come in indicating 
casualties in Sri Lanka and Thailand.
    As recently announced by my boss, Admiral Lautenbacher, 
Under Secretary of Commerce for Oceans and Atmosphere, the 
United States is now committed to complete the current Tsunami 
Warning System for the United States by 2007. NOAA's 
contribution to the plan includes procuring and installing 32 
new DART buoys, including 25 in the Pacific and seven in the 
Atlantic and Caribbean. In addition to the DART buoys, NOAA 
will procure and install 38 new sea level monitoring and tide 
gauges, and the Administration has proposed $24 million to NOAA 
for this effort, including $18.1 million for the Pacific Basin 
and $5.9 million for the Atlantic/Caribbean/Gulf. With that 
expansion of the U.S. Tsunami Warning System, NOAA forecasters 
will be better able to protect the United States 24/7 and will 
be able to alert communities within minutes of a tsunami-
producing event.
    I agree education and outreach are key to ensure people 
take appropriate action when the warnings are issued. NOAA's 
TsunamiReady program prepares communities to learn from the 
events of just one month ago and to ensure we educate the 
public about potential impacts of tsunamis and to ensure every 
vulnerable coast community is TsunamiReady certified. I solicit 
your help to make this happen. We are prepared to export this 
important program to whomever needs it now.
    With global attention on this matter, we have a great 
opportunity to help the world better prepare for tsunamis 
through the development of a Global Earth Observation System of 
Systems, or GEOSS. This system would include a real-time 
seismic monitoring network, a real-time DART network, and a 
real-time sea level monitoring network. NOAA's Administrator, 
Vice-Admiral Conrad C. Lautenbacher, will be a member of the 
U.S. delegation at the Third Earth Observation Summit taking 
place in Brussels this February. He will ensure the development 
of a global tsunami warning system is a high priority for the 
larger Global Earth Observation System of Systems.
    We look forward to working with the Congress and other 
nations around the world to help take the pulse of the planet 
and to make our world a safer place. And I, too, am happy to 
take your questions at the end.
    Thank you, sir.
    [The prepared statement of Brigadier General Johnson 
follows:]

                 Prepared Statement of David L. Johnson

    Thank you, Mr. Chairman and Members of the Committee, for the 
opportunity to testify before you regarding the National Oceanic and 
Atmospheric Administrations (NOAA) activities with tsunamis. I am 
Brigadier General (ret.) David L. Johnson, Assistant Administrator for 
Weather Services and Director of NOAA's National Weather Service.
    As the world and our Nation mourn the loss of life from the Indian 
Ocean tsunami tragedy, we recognize the very real threat of tsunamis 
and ask, ``Could it happen here?'' We need to be able to answer that 
question with a high degree of confidence.
    We know a tsunami can affect any community along the coast of the 
United States. This is particularly true for the Pacific coast, where 
tsunamis have been more frequent. The recent event in Southeast Asia 
and Africa highlights the need to address the steps we can take to 
mitigate the potential impact of such an event here at home.
    This catastrophic event focuses the spotlight on the threat 
tsunamis pose to all coastal communities. If there is some good to come 
from this tragedy, it is the opportunity that we now have to educate 
United States citizens about the actions they should take if they 
receive a tsunami warning.
    In this testimony, I will describe our existing tsunami warning 
program, including a brief overview of our work with the International 
community; specific actions NOAA took during the recent tsunami; and 
then briefly outline the Administration's plan for developing a global 
tsunami warning system.
    Tsunamis are natural disasters that can form in all of the world's 
oceans and inland seas, and in any large body of water near seismic 
activity. Each region of the world appears to have its own cycle of 
frequency and pattern for generating tsunamis that range in size from 
small events (no hazards) to the large and highly destructive events. 
Eighty-five percent of tsunamis occur in the Pacific Ocean and its 
marginal seas. This is not surprising as the Pacific Basin covers more 
than one-third of the Earth's surface and is surrounded by a series of 
mountain chains, deep-ocean trenches and island arcs called the ``ring 
of fire.''
    Most seismic activity occurs in this ring of fire where the main 
tectonic plates forming the floor of the Pacific collide against one 
another or against the continental plates that surround the ocean 
basin, forming subduction zones. While tsunamis can be generated by any 
sudden pressure source in the water, such as a meteor, landslide, etc., 
most are generated from earthquakes. In the tropical Pacific tsunamis 
tend to be modest in size. While tsunamis in these areas may be locally 
devastating, their energy decays rapidly with distance. Usually they 
are not destructive more than a few hundred kilometers away from their 
sources. That is not the case with tsunamis generated by great 
earthquakes in the North Pacific or along the Pacific coast of South 
America. On the average of six times per century, a tsunami caused by 
an earthquake in one of these regions sweeps across the entire Pacific 
Ocean, is reflected from distant shores, and sets the entire ocean in 
motion for days. Although not as frequent, destructive tsunamis have 
also been generated in the Atlantic and the Indian Oceans, the 
Mediterranean Sea and even within smaller bodies of water, such as the 
Sea of Marmara, in Turkey. There have also been tsunamis in the 
Caribbean, but the lack of any recent tsunami in that area has lowered 
the level of interest and hindered establishing a warning program in 
that area.
    According to NOAA's National historical tsunami databases, during 
the 105-year period from 1900 to 2004:

        <bullet>  923 tsunamis were observed or recorded in the Pacific 
        Ocean.

        <bullet>  120 tsunamis caused casualties and damage, most near 
        the source. Of these, at least ten caused widespread 
        destruction throughout the Pacific.

        <bullet>  The greatest number of tsunamis during any one year 
        was 23 in 1938. While most were minor, one event did result in 
        17 deaths.

        <bullet>  There was no single year during this period that was 
        free of tsunamis.

        <bullet>  19 percent of all tsunamis were generated in or near 
        Japan; nine percent were generated off Alaska and the west 
        coasts of Canada and the United States; and three percent were 
        generated near Hawaii.

    The U.S. Tsunami Warning System consists of two warning centers: 
the Richard H. Hagemeyer Pacific Tsunami Warning Center (PTWC) in Ewa 
Beach, Hawaii; and the West Coast/Alaska Tsunami Warning Center (WC/
ATWC) in Palmer, Alaska. NOAA conducts research on tsunamis, operates 
essential ocean buoys and tide gauges to detect tsunamis, and works 
with other Federal, State, local government agencies and universities 
as our partners in the tsunami warning mission.
    The Richard H. Hagemeyer Pacific Tsunami Warning Center in Hawaii 
was established in 1949 in response to the unpredicted 1946 Aleutian 
tsunami, which killed 165 people on the Hawaiian Islands. In 1967, the 
West Coast/Alaska Tsunami Warning Center in Palmer, Alaska, was created 
as a result of the 1964 Great Alaska earthquake and tsunami. These 
centers are responsible for issuing all tsunami warning, watch, 
advisory, and information messages to emergency management officials 
and the public throughout their respective areas of responsibility. The 
Pacific Center covers United States interests and territories 
throughout the Pacific, including Hawaii, while the West Coast/Alaska 
Center covers Alaska, and the west coast of North America from British 
Columbia in Canada, to California.
    About 100 water level gauges are used by the Tsunami Warning 
Centers and are operated by the Unites States and our international 
partners. These gauges are along the coasts of islands or continents 
around the Pacific Rim. NOAA operates many of these stations, including 
33 from NOAA's National Water Level Observation Network in the Pacific 
Ocean basin, which are equipped with software to support the Tsunami 
Warning System. Water levels from these gauges can be sent directly to 
NOAA Tsunami Warning Centers and others who want the information. NOAA 
is working to upgrade the nationwide network with a real-time 
capability to provide a continuous stream of water level data (minute-
by-minute) for integration with tsunami warning systems and research 
applications. NOAA also helps support many coastal gauges located in 
other countries around the Pacific.
    NOAA operates six Deep-ocean Assessment and Reporting of Tsunamis 
(DART) buoys. NOAA research activities developed these buoys to measure 
tsunamis in the deep ocean and to transmit the information back to the 
Warning Centers in near real time. These instruments accurately 
calculate the size of the tsunami by measuring the pressure it exerts 
on the deep ocean floor as the wave passes over. Tsunamis as small as 
0.5 cm have been measured. NOAA began placing DART buoys in the Pacific 
Ocean in 2002 and plans to have a complete coverage of potential 
Pacific tsunami source zones over the next few years.
    In November 2003, the buoys demonstrated their effectiveness. A 
large earthquake occurred in the Aleutian Islands and generated a 
tsunami. The two Tsunami Warning Centers evaluated the tsunami using 
coastal gauge data but didn't ``stand down'' until a reading arrived 
from the nearest DART buoy confirming only a small tsunami. During post 
analysis of the event, DART data were used for a model simulation and 
the output from the simulation accurately predicted the two cm tsunami 
recorded at Hilo, Hawaii. This NOAA model is still being developed, but 
an initial version will be transferred to the warning centers for test 
operations this year. DART data and the forecast model show much 
promise to help accurately predict tsunami impacts. In the history of 
Pacific Warning Center, 75 percent of its warnings to Hawaii have been 
for non-destructive tsunamis. The DART data combined with forecast 
models promise to significantly reduce false alarm rates as well as 
provide a better measure of the severity of destructive tsunamis for 
Hawaii and all other parts of the Pacific. The accurate forecasting of 
a non-destructive tsunami in November 2003 saved Hawaii an estimated 
$68M in projected evacuation costs.
    The Pacific Center also serves as the operational center for the 
International Tsunami Warning System of the Pacific, which is comprised 
of 26 member nations of the Pacific Rim. These members share seismic 
and water level information with the Pacific Center so the Center can 
determine whether a tsunami was generated in the Pacific Basin and 
assess its strength. The Pacific Center's primary responsibility is to 
issue tsunami warnings for Pacific Basin teletsunamis--tsunamis that 
can cause damage far away from their source. It is not the Center's 
responsibility to issue local tsunami warnings from seismic events 
outside of the United States. For example, if an earthquake occurs off 
the coast of Japan and a local tsunami is generated, it is Japan's 
responsibility to issue a local tsunami warning. However, it is the 
Pacific Center's responsibility to warn all participating nations in 
the Pacific Basin if the Japanese tsunami will cause damage far from 
its source.
    Only Australia and Indonesia have coastlines bordering both the 
Pacific and Indian Ocean coasts. None of the other countries impacted 
by the Indian Ocean tsunami have coasts bordering the Pacific Ocean and 
therefore they do not receive tsunami bulletins via the automated 
dissemination network.
    Thailand and Indonesia are member states within the International 
Tsunami Warning System in the Pacific (ITSU), but their participation 
has been limited. Thailand has no coast along the Pacific, and 
Indonesia's tsunami threat is primarily outside the Pacific Basin. As a 
member of the International Coordination Group (ICG) for ITSU, the U.S. 
has actively encouraged non-member States to become ICG/ITSU members. 
Under the IGC/ITSU, the U.S. has actively supported the need for global 
tsunami mitigation actions and will continue to provide support through 
the development of a Global Earth Observation System of Systems 
(GEOSS), an effort in which the UNESCO Intergovernmental Oceanographic 
Commission, the UN International Strategy for Disaster Reduction 
(ISDR), and a number of other UN agencies and programs participate.
    NOAA Tsunami Warning Centers have no authority or responsibility to 
issue tsunami warnings for the Indian Ocean basin. However, knowing the 
concern Pacific countries might have about the potential devastating 
impact a large earthquake and resulting tsunami can inflict, on Sunday, 
26 December 2004, at 8:14 p.m. EST, within 15 minutes of the Indonesian 
earthquake, both centers issued Tsunami Information Bulletins. These 
bulletins included location and initial magnitude (8.0) information and 
an assessment that there was no tsunami threat in the Pacific. As the 
Indian Ocean is outside the NOAA tsunami area of responsibility, NOAA 
Tsunami Warning Centers have no procedures in place to issue a warning 
for this region. An hour and five minutes after the earthquake, as 
additional information came in from seismic monitoring stations around 
the world, another bulletin was issued by both Centers revising the 
magnitude of the earthquake to 8.5. This time the bulletin contained a 
statement that the potential existed for a tsunami near the epicenter. 
Unfortunately, there was no sea-level data or other information 
available to substantiate or evaluate a tsunami until three and a half 
hours after the earthquake when news reports began coming indicating 
casualties in Sri Lanka and Thailand. At about the same time, data from 
the one sea-level gauge in the Indian Ocean (Cocos I; west of 
Australia) was received indicating a 45 cm peak-to-trough non-
destructive tsunami.
    Sea-level gauges are essential elements of the current Tsunami 
Warning System in the Pacific. When strategically located, they are 
used to quickly confirm the existence or non-existence of tsunami waves 
following an earthquake, to monitor the tsunami's progress, and to help 
estimate the severity of the hazard. There was no data available from 
the Indian Ocean to help the warning centers know what was occurring.
    An effective tsunami warning system requires (1) an assessment of 
the tsunami hazard, (2) near real-time seismic and oceanographic (sea-
level change) data; (3) high-speed data analysis capabilities; (4) a 
high-speed tsunami warning communication system; and (5) an established 
local communications infrastructure for timely and effective 
dissemination of the warning and evacuation requirements. It is also 
critical that coastal populations are educated and prepared to respond 
appropriately to tsunami warnings and calls for evacuations. For the 
Pacific Basin, these tsunami warning requirements are well known. 
Unfortunately, for the Indian Ocean basin, they were basically non-
existent.
    There are currently six DART buoys in the Pacific operated by 
NOAA--three off the coast of Alaska, two off the coast of the western 
U.S., and one in the eastern Pacific. These first buoys of the 
currently envisioned 29 buoy array are an example of a successful 
transition of buoys from research and development into an operational 
system. Three of the deployed DART buoys are inoperable and will be 
repaired as soon as the weather permits.
    The government of Chile purchased one DART buoys from NOAA and in 
now operating off the northwest coast of Chile; another buoy is in the 
process of being purchased at this time. Japan also operates a few 
cabled deep ocean sensors off its Pacific coasts. The NOAA buoys 
represent the only current deep ocean capability available to the 
Tsunami Warning Centers to detect tsunamis. In July of last year, staff 
from the Pacific Center had discussions with Japanese representatives 
about the possibility of allowing PTWC access to data from the Japanese 
cabled buoys.
    While technical equipment is required for detection and 
communication, equally important are continued research and 
development, and education and outreach to mitigate potential impacts 
from tsunamis. People must have the knowledge and information to act 
during potentially life threatening events. Outreach and education 
efforts, such as NOAA's own StormReady and TsunamiReady programs, are 
key components of the U.S. National Tsunami Hazard Mitigation Program 
(NTHMP). These programs foster interaction between emergency managers 
and their citizens, provide robust communications systems, and 
establish planning efforts before certification. NOAA also developed 
multi-hazard risk and vulnerability assessment training and decision 
support tools using GIS mapping technology to highlight populations, 
infrastructure and critical facilities at risk for coastal hazards. 
These tools and other support are critical to land use planning, pre-
disaster planning, mitigation efforts, and targeted dissemination of 
outreach, education and information about high-risk areas.
    The International Strategy for Disaster Reduction (ISDR) was 
launched by the General Assembly of the United Nations to provide a 
global framework for action to reduce human, social, economic, and 
environmental losses due to natural and man-made hazards. The ISDR aims 
at building disaster-resilient communities, highlighting the importance 
of disaster reduction as an integral component of sustainable 
development. ISDR is the focal point within the United Nations system 
for coordination of strategies and programs for disaster reduction and 
to ensure synergy between disaster reduction activities and those in 
the socioeconomic and humanitarian fields. One particularly important 
role of ISDR is to encourage both policy and awareness activities by 
promoting national committees dedicated to disaster reduction and by 
working in close association with regional initiatives. As part of this 
effort, tsunami hazard maps have been produced for over 300 coastal 
communities in over 11 countries, including 130 communities throughout 
the United States.
    The United Nation's Education, Scientific, and Cultural 
Organization's (UNESCO) Intergovernmental Oceanographic Commission 
(IOC) has developed products to help countries implement tsunami 
response plans. Road signs and other mitigation products are available 
through the NTHMP (http://www.pmel.noaa.gov/tsunami-hazard). In 
summary, Tsunami Response Plans are probably the most cost-effective 
way to create a tsunami resilient community. To be successful, 
communities must remain committed to a continuous, long-term education 
program. Tsunamis are infrequent events and it is important to ensure 
future generations understand tsunami safety.
    Protecting near-shore ecosystems, like coral reefs, is equally 
important for maintaining disaster-resilient communities. The 
international media and South Asian officials reported less destruction 
in locations protected by wave-absorbing healthy coral reefs. NOAA and 
our federal, State, territorial, and international partners work to 
protect and preserve coral reef ecosystems.
    The United States will continue working closely with the 
international community to help implement recommended tsunami detection 
and warning measures for the Indian Ocean Basin and other regions of 
the world currently without adequate tsunami warning capability. A 
comprehensive global tsunami warning program requires deploying DART 
buoys along each of the world's major subduction zones; adding real-
time sea-level monitoring/tide gauge stations; establishing Regional 
Centers for Disaster Reduction, assessing hazards, promoting education 
and outreach efforts; and conducting research and development.
    As recently announced by Vice Admiral Lautenbacher, Under Secretary 
of Commerce for Oceans and Atmosphere, the Bush Administration has a 
plan to upgrade the current U.S. Tsunami Warning System. NOAA's 
contribution to this plan includes procuring and installing 32 new DART 
buoys, including 25 new buoys in the Pacific and seven new buoys for 
the Atlantic and Caribbean. We expect to have the complete network of 
DART buoys installed and operational by mid-2007; 20 buoys should be 
operational in FY06, with the final 12 in place in FY07. In addition to 
the DART buoys, NOAA will procure and install 38 new sea level 
monitoring/tide gauge stations. The Administration has allocated $24M, 
over the next two years, to NOAA for this effort, including $18.1M for 
the Pacific Basin and $5.9M for Atlantic/Caribbean/Gulf.
    There were many lessons learned from the Indian Ocean tsunami. A 
key point to make is that, for all coastal communities, the question is 
not ``if'' a tsunami will occur, but ``when.'' We know what causes a 
tsunami to develop, and we know a great deal about how to track them 
and forecast their path. With expansion of the U.S. Tsunami Warning 
System, NOAA forecasters will be able to detect nearly 100 percent of 
tsunamis affecting the United States and will be able to respond and 
alert communities within minutes of a tsunami-producing event. With 
expanded education and outreach via NOAA's TsunamiReady program and 
other efforts, we can rest assured that our coastal communities have 
the opportunity to learn how to respond to a tsunami event and that we 
have minimized the threat to American lives.
    With global attention on this important matter, we have a great 
opportunity to help the world better prepare for tsunamis through the 
development of a Global Earth Observation System of Systems (GEOSS). 
This system would include a real-time global seismic monitoring 
network, a real-time DART network, and a near real-time sea level 
monitoring network. NOAA Administrator, Vice-Admiral Conrad C. 
Lautenbacher will be a member of the U.S. delegation at the Third Earth 
Observation Summit (February 16, 2005; Brussels, Belgium) and will work 
to ensure that the development of a global tsunami warning system is a 
high priority for the larger Global Earth Observation System of Systems 
and the Integrated Ocean Observing System.
    We look forward to working with Congress and other nations around 
the world to help take the pulse of the planet and make our world a 
safer place. Attached to this written testimony submitted for the 
record is an article published in the International Tsunami Information 
Center Tsunami Newsletter, which provides detailed information about 
NOAA's Pacific Tsunami Warning Center. Much more information about 
tsunamis can be found at http://wcatwc.arh.noaa.gov, http://
www.pmel.noaa.gov/tsunami/, http://www.prh.noaa.gov/ptwc/, and http://
www.ngdc.noaa.gov/spotlight/tsunami/tsunami.html.

                     Biography for David L. Johnson

    David L. Johnson serves as the Assistant Administrator, National 
Oceanic and Atmospheric Administration (NOAA) for Weather Services 
(National Weather Service). Johnson heads the Nation's weather service 
and is responsible for the day-to-day management of NOAA's domestic 
weather and hydrology operations.
    Prior to joining NOAA, Johnson served as the U.S. Air Force 
director of weather. He retired from the Air Force as a Brigadier 
General, after a 30-year military career. As Director of Weather, he 
was one of ten directors at the Headquarters Air Force, Air and Space 
Operations, and was responsible for developing doctrine, policy, 
requirements and operational organizations to support Air Force and 
Army operations worldwide. He also served as one of NOAA's military 
deputies.
    Notably, he organized, trained and equipped forces for the war in 
Afghanistan and the war in Iraq, and managed a steady flow of accurate 
and focused environmental information to battlefield commanders. He was 
a key advisor in the development of the National Polar-orbiting 
Environmental Operational Satellite System (NPOESS).
    Johnson's career is marked by his strong management and fiscal 
capabilities. During his time as Director of Weather, he led a massive 
re-engineering effort that revised the organizational structure, 
training and operations of the 4,000-person career field. Under 
Johnson's steady hand, retention of weather-career airmen and officers 
grew to 97 percent, up from 74 percent previously.
    Johnson guided the planning, programming and budgeting process 
implementation at the highest levels in the Air Force and in the 
Department of Defense. He has a worldwide perspective, having served in 
leadership positions on the Joint Staff with planning portfolios in 
Europe/NATO and Asia/Pacific. He secured funding for a new facility for 
the Air Force Weather Agency to house collection, analysis, modeling 
and career-field supervision functions.
    Prior to his service as the Director of Weather, Johnson flew 
fighter, transport and special operations aircraft. He has over 3,800 
flying hours including 78 combat sorties. Johnson commanded airdrop and 
air/land operations in Bosnia-Herzegovina and was Deputy Commander of 
the Joint Task Force for Operation Support Hope in Rwanda. He was 
selected for early promotion three times.
    Johnson is an honor graduate from the University of Kansas with a 
degree in geography, and earned his Master's degree in human relations 
from Webster's University. He is a graduate of the National War 
College, Maxwell School of Citizenship and Public Affairs at Syracuse 
University, and from the Paul Nitze School of Advanced International 
Studies at Johns Hopkins University.

    Chairman Boehlert. Thank you very much, General.
    Dr. Orcutt.

 STATEMENT OF DR. JOHN A. ORCUTT, DEPUTY DIRECTOR, RESEARCH AT 
 THE SCRIPPS INSTITUTION OF OCEANOGRAPHY; PRESIDENT, AMERICAN 
                       GEOPHYSICAL UNION

    Dr. Orcutt. Mr. Chairman and Members of the Committee, 
thank you very much for inviting me. I am John Orcutt, Deputy 
Director of Scripps Institutions of Oceanography and President 
of the American Geophysical Union, the AGU.
    On the 26th of December last year, a 1,200-kilometer length 
of the sea floor ruptured during the Sumatra earthquake. The 
rupture took at least six minutes to propagate, breaking rock 
the entire way. The earthquake generated a devastating tsunami, 
but there was no systematic warning distributed to coastal 
populations. The event exceeded 500 megatons of explosives.
    Adding to the tragedy is our knowledge that so many of the 
deaths could have been prevented if tsunami detection 
technologies had been more extensively employed and at-risk 
populations had been educated about how to react. The power of 
education is clear. A colleague of mine, Chris Chapman, a 
British seismologist on holiday in Sri Lanka, understood the 
drastic rapid retreat of the ocean from the beach signaled the 
arrival of the tsunami. He convinced his hotel manager to get 
on the beach with a bullhorn and warn people to direct them to 
retreat inland or to higher stories of the hotel. Many lives 
were saved by Chris's perception and persistence.
    In a similar story involving, again, a Briton, a 10-year-
old British girl, Tilly Smith, was visiting Thailand with her 
parents. Two weeks earlier, she had done a school project on 
tsunamis and earthquakes, and with this information alone, she 
was able to warn and save more than 100 lives. Long time 
intervals between tsunamis, tens to hundreds of years, poses a 
great challenge to sustaining education efforts for the entire 
coastal populations.
    In addition to education, of course, expansion of the 
Global Seismic Network, the GSN, is critical to detect tsunamis 
triggered by earthquakes. With more seismic stations, we can 
more readily determine the true size of the event and whether 
the event is deep and not tsunamigenic or shallow and likely to 
have caused a tsunami. With a comprehensive network of seismic 
stations, the important surface waves from an earthquake will 
begin to arrive about seven minutes after the rupture begins, 
and information from all parts of the fault surface will be 
available after about 13 minutes.
    Once information from the fault surface has arrived, it is 
possible to compute this earthquake source mechanism in about a 
minute. Taking another minute, the source mechanism can be 
propagated to determine the tsunami's path. This scenario that 
I have explained of 15 minutes is really very optimistic, 
because a tsunami can travel at nearly 500 miles an hour. The 
real Sumatra tsunami would have traveled 125 nautical miles, 
nearly halfway from its initial break to Sumatra. In many parts 
of the world, proximity to the origin of the tsunami makes 
warnings almost impossible. In these cases, an informed 
population is essential.
    For the Caribbean, enhancing GSN coverage is particularly 
important. The Caribbean Hispaniola and Puerto Rico trenches 
are sites of past tsunamigenic earthquakes and tsunamis will 
occur there in the future. To avoid false warnings, false 
alarms, tsunami model information must be verified using tide 
gauges and pressure gauges. If several of these had been 
installed, for example, on the west coast of Sumatra and 
telemetered to a Warning Center, the tsunami could have been 
verified well before it reached Sri Lanka, India, Diego Garcia, 
the Maldives, and Africa.
    I have mentioned some of the available technologies that 
might be deployed. Unfortunately, sustaining tsunami warning 
infrastructure over many years will be a tremendous challenge. 
Even in the Pacific, tsunamis do not occur often. Between major 
tsunamis, the NOAA centers have always had a hard time 
maintaining their budgets and personnel. The El Nino monitoring 
array has funding problems even though El Nino occurs every 
three to seven years and everybody on the planet knows its 
affects.
    The Administration's proposed Tsunami Warning System would 
deploy many single-purpose buoys. I am extremely concerned 
about the ability to maintain such a system. I believe a more 
sustainable approach would be to deploy additional shore-based 
pressure gauges and integrate the proposed NOAA system with the 
National Science Foundation's Ocean Observatory Initiative 
(OOI) plans to include bottom pressure gauges on mid-ocean 
buoys that serve a wide variety of disciplines.
    The OOI also includes plans for sea floor seismic 
observatories, greatly enhancing the densification of seismic 
stations I discussed earlier. And off the coast of Washington 
and Oregon, a planned cabled observatory will include seismic 
stations and bottom pressure gauges to form a dense tsunami 
observatory network. The OOI is expected in the President's 
fiscal year 2006 request for the NSF.
    The Administration's plan recommends 24/7/365 operation of 
the National Earthquake Information Center satellite telemetry 
to the entire GSN and increasing station coverage. I strongly 
support these recommendations. Furthermore to have the greatest 
efficacy, data should be openly available.
    Unfortunately, today, current operations and maintenance 
funding of $5 million a year, $2 million from the NSF and $3 
million from the Geological Survey for the GSN, is not 
adequate. As a result, GSN is deteriorating and requires an 
additional $5 million a year based on several studies in the 
IRS and USGS.
    Because the Tsunami Warning System will need to be 
maintained in perpetuity, we must develop strategic knowledge 
about high-risk tsunami areas to lower long-term costs. In 
order to accomplish this, NOAA and the Geological Survey's 
Tsunami Hazard Mapping efforts should be expanded and detailed 
asymmetry surveys should be undertaken to identify important 
slumps for monitoring.
    We must also explore the development of cheap monitoring 
technology, exploring the Global Positioning System, or GPS, 
using ocean buoys and ships is an interesting alternative to 
pressure gauges to verify a tsunami. Horizontal tsunami motion 
would be detectable from a buoy or even a ship underway, and 
costs may be lower using that technology.
    As President of AGU, I was asked by the U.N. Environmental 
Program to write a brief report proposing an Indian Ocean 
Tsunami Warning System. This report is not complete, but it 
will include a number of approaches, including increasing the 
number of GSN stations, developing a Tsunami Warning Center or 
Centers for the region, improving telemetry to the stations in 
between the center of the many states in the Indian Ocean, 
exploiting modern grid-based cyberinfrastructure and installing 
a large number of telemetered pressure gauges, and installing 
communications needed to distribute a tsunami warning to the 
public.
    The location and magnitude of the 26th of December Sumatra 
earthquake was determined in time for mitigating measures to be 
taken in Sri Lanka, India, the Maldives, and Africa to prevent 
extensive loss of life. The lack of infrastructure to warn 
people was, unfortunately, the weak link in the system.
    Thank you, again, Mr. Chairman and Members of the 
Committee. I am happy to answer any questions you may have.
    [The prepared statement of Dr. Orcutt follows:]

                  Prepared Statement of John A. Orcutt

    Mr. Chairman and Members of the Committee, thank you very much for 
inviting me to testify. I am John Orcutt, Deputy Director of Scripps 
Institution of Oceanography (SIO) at University of California at San 
Diego (UCSD), Director of the UCSD Center for Earth Observations and 
Applications, and President of the American Geophysical Union or AGU. 
The AGU has more than 44,000 members worldwide. Nearly every scientist 
involved in tsunami studies in any country in the world is likely a 
member of the AGU.
    Over the last sixty years, SIO scientists have played a substantial 
role in understanding tsunamis. In 1947, Professor Walter Munk, a 
continuously active scientist/oceanographer, developed and installed 
the first tsunami-recording instrument. In 1949, Dr. Gaylord Miller, 
Walter's student, was named the first director of what is now NOAA's 
Tsunami Warning Center in Hawaii. Dr. Bill Van Dorn, another of 
Walter's students, was the real pioneer at Scripps in understanding and 
popularizing knowledge of tsunami.
    Scripps continues its tsunami work through the operation of 
approximately one-third of the Global Seismic Network (GSN), pressure 
gauges, the study of slope failure and initiation in submarine 
landslides, and the development of sensitive instrumentation to 
understand triggering mechanisms of submarine landslides.

What is Scripps' role in the worldwide seismic network? When did 
                    Scripps know about the earthquake on December 26, 
                    2004 and what was your response?

    With National Science Foundation (NSF) funding, Scripps operates 
and maintains 40 Project IDA (International Deployment of 
Accelerometers) GSN stations. Scripps is also responsible for data 
telemetry (transferring data immediately via phone line, cable, or 
satellite), quality control, and distribution of data to researchers 
worldwide via the Incorporated Research Institutions for Seismology 
(IRIS) Data Management System. The U.S. Geological Survey operates the 
remaining two-thirds of the GSN.
    In 1975, Scripps Project IDA pioneered modern global digital 
seismic networks by deploying a network of high performance 
instruments, the forerunner of today's GSN. Cecil Green, founder of 
Texas Instruments, provided funding for the project and the NSF 
provided funds to maintain the network.
    In 1984, the extraordinary scientific results gleaned from data 
recorded by that early network and a parallel evolution in electronics 
technology led to the formation of IRIS and the associated GSN, with 
Scripps' IDA stations at the core of the fledgling network. With NSF 
support and continuing support from the Green Foundation for Earth 
Sciences, the GSN modernized the original IDA instruments and expanded 
the scope of the global network. Scripps continues to operate some of 
the original global stations, making IDA the longest operating digital 
global seismic network in history. The digital recording 
instrumentation and high performance characteristics of the 
seismometers pioneered at SIO/UCSD are essential elements of the 
earthquake and tsunami warning systems in existence today. Because 
Scripps is usually tasked with deploying global seismic stations at the 
most difficult sites, all of the Indian Ocean seismic stations and many 
on the direct periphery are SIO/IDA observatories (See Figure 1).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Data telemetered from thirty IDA stations are immediately and 
automatically forwarded by computer to the USGS National Earthquake 
Information Center (NEIC) in Golden, Colorado and the NOAA tsunami 
warning centers in Hawaii and Alaska. Those organizations constantly 
monitor these and other data streams for earthquake signals. Due to 
their proximity to the event, IDA stations were critical in the early 
detection of the December 26th earthquake. The two closest global 
seismic stations, IDA stations on Cocos (Keeling) Island (Figure 2) and 
Sri Lanka (Figure 3), received signals three minutes, thirty seconds 
after the quake began. Data from these and other IDA GSN stations in 
the region were used by the NEIC, and other civil, academic, and 
military systems to quickly determine the quake's size and location 
(Figure 4).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Scripps personnel do not constantly review incoming data. Scripps 
staff first learned of the quake at 6:16 PM PST (one hour seventeen 
minutes after the earthquake) when they received notice via automatic 
e-mail from the NEIC of the initial earthquake detection. SIO also 
received an inquiry from the IDA/Sri Lanka operator at 6:57 PM (one 
hour fifty-eight minutes after the quake) asking whether there had been 
any earthquakes in or near Sri Lanka. The operator had received many 
phone calls from local residents who had felt tremors and wanted to 
know the source. SIO's analyst replied at 7:13 PM with information 
about the NEIC announcement of the earthquake and a plot of the seismic 
waves recorded by the IDA station in Sri Lanka.

What are all of the elements of an adequate tsunami warning system? 
                    Does the U.S. warning system currently contain all 
                    these elements?

    The Global Seismic Network (GSN) is critical to tsunami detection 
associated with earthquakes. The recent Sumatra earthquake 
substantially displaced the seafloor causing a tsunami with 
displacements throughout the water column. Smaller events can also 
excite tsunami via a major underwater landslide triggered by an 
earthquake. For example, on November 18, 1929, a 7.2 magnitude offshore 
earthquake triggered the Grand Banks Tsunami. The earthquake caused 200 
cubic kilometers of sediment to shift, breaking twelve transatlantic 
communications cables. Twenty-seven people died in the tsunami and the 
tsunami run up was as great as twenty-seven meters. More than forty 
villages were affected and homes, ships, and fishing gear were lost. 
The tsunami also damaged the seabed leading to poor fish catches 
through much of the Great Depression.
    The 1200-kilometer length of seafloor ruptured in the Sumatra 
earthquake. The rupture took at least six minutes to propagate, 
breaking rock the entire way. Sixteen minutes after the earthquake 
began, the NEIC estimated a 6.2 magnitude earthquake. The low estimate 
was not because of any system or human malfunction, but because limited 
information was available (Figure 2).
    When a large earthquake occurs, the seismogram appears differently 
when viewed from different directions. If the fault breaks toward the 
station, the sum of the rupture velocity and the wave propagation 
velocity will make the event appear to be compressed in time. On the 
other hand, if the rupture front propagates away from the seismic 
station, the two speeds will combine to lengthen the seismogram in 
time. To fully understand the magnitude of a great earthquake, seismic 
stations with high fidelity must be available from as many directions 
as possible. The higher the density of seismic stations, the more 
rapidly one can determine the accurate size of the event and whether 
the event is deep and not tsunamigenic, or shallow and likely to have 
caused a tsunami. In a relatively perfect world, with a large number of 
seismic stations 15<SUP>+</SUP> away from a great earthquake on Earth's 
surface, the important surface waves will begin to arrive about seven 
minutes after the rupture begins and information from all parts of the 
fault surface will be available after about thirteen minutes. While it 
would be impractical to deploy this array of stations worldwide, it 
would be possible to have the necessary coverage in high-risk areas. If 
computation can be speeded to determine the initial fault mechanism in 
a minute's time (the actual computational challenge is modest), 
fourteen minutes would be the minimum time needed to develop a full 
understanding of the earthquake source. Because of the sparse 
distribution of high-quality seismic stations around the Sumatra 
earthquake, what is theoretically possible in fourteen minutes took 
considerably longer.
    With a comprehensive network of seismic arrays, once an earthquake 
source mechanism is known, certainly no earlier than fourteen to 
fifteen minutes after the earthquake begins, the source mechanism can 
be coupled to a model that forecasts the path of the tsunami from the 
earthquake location to islands and continents. Because a tsunami in 
average ocean depth travels at 200m/s (nearly 500 mph), the real 
Sumatra tsunami would have traveled 125 nautical miles, or 142 statute 
miles, nearly half way from the initial break to Banda Aceh on Sumatra. 
Time would be running out for many even in this idealized case.
    The existence of a tsunami associated with a suspect, large 
earthquake can be verified in a number of ways. Tide gauges and 
especially pressure gauges are very helpful in this regard. Pressure 
gauges are simple, inexpensive sensors that last decades. Figure 5 
shows a record of a pressure gauge sampled each second at the end of 
the Scripps pier. This records the Sumatra tsunami thirty-six hours 
after the earthquake and shows a peak-to-peak amplitude of about twelve 
centimeters (four inches). Surprisingly, this is the only pressure 
gauge on the west coast that samples at this high frequency. If several 
of these had been installed and telemetered on the west coast of 
Sumatra, the gauges would have been able to verify the tsunami well 
before it reached Sri Lanka, India, Diego Garcia and the Maldives. 
Technically and financially, the installation and operation of these 
gauges is not a major challenge. NOAA has experimented for some years 
with pressure gauges on the seafloor tended by telemetering buoys 
overhead--the principle is the same as the pressure gauge in Figure 5. 
In the President's recently announced program, NOAA proposes to install 
a number of these DART buoys around the world.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The instrumentation described above summarizes the science and 
technology necessary to detect a tsunami. The greater challenges to a 
tsunami warning system, however, are socio-political and involve 
distributing information to those at risk as well as long-term 
educational efforts for entire coastal populations. Currently, tsunami-
warning centers exist only for the Pacific through NOAA and the NEIC 
through the USGS. There are no warning centers for the Indian, Atlantic 
or Caribbean oceans.
    The power of education is clearly stated by Dr. Chris Chapman, a 
close colleague on holiday in Sri Lanka with his wife during the 
tsunami. Dr. Chapman, a British seismologist, understood that the 
drastic, rapid retreat of the ocean from the beach signaled the arrival 
of a tsunami. He and his wife convinced their hotel manager to use his 
bullhorn to warn everyone to retreat inland or to the higher stories of 
the hotel. Many lives were saved by Chris' perception and persistence.
    In a recent article from AGU's newspaper, EOS, Dr. Chapman states:

         Given the time and distances, there was little we could have 
        done for the neighboring villages. Would an early warning 
        system have helped? Of course, but the situation in the Indian 
        Ocean is very different from the Pacific: The recurrence rate 
        is very low (There appear to be no recent historical events; 
        locals spoke of a tsunami more the 2000 years ago, although I 
        have been unable to check this. With a recurrence rate longer 
        than a generation, how would people have reacted? We had 40 
        minutes of warning and still did not behave in the most logical 
        fashion); the distances and hence warning times are less than 
        in the Pacific; and some of the countries surrounding the 
        Indian Ocean have fragile infrastructures at best. But given 
        that an early warning system is technically relatively 
        straightforward and inexpensive, of course it should be 
        installed. Perhaps it can be used as a catalyst and driving 
        force for improvements to the local infrastructures rather than 
        just being imposed from outside.

    A ten-year-old girl British girl, Tilly Smith, was visiting 
Thailand with her parents. Two weeks earlier she had done a class 
project on earthquakes and tsunami and was able to save more than a 
hundred people because she recognized the warning signs of an impending 
tsunami.

What are the greatest challenges to improving the U.S. tsunami 
                    detection and warming systems? What is your opinion 
                    of the Administration's new proposal to improve the 
                    U.S. tsunami warning system? Are there other 
                    activities or actions that the plan should have 
                    included? If so, what are they?

    Sustaining tsunami-warning infrastructure over many years is the 
greatest challenge. For the past thirty-two years as an observational 
scientist, I have developed, deployed and been responsible for the 
maintenance of numerous research facilities. Maintaining observing 
platforms is incredibly difficult, especially when events occur 
infrequently.
    In the case of tsunamis, major events occur at time scales from 
decades to centuries. Even in the Pacific, tsunamis do not occur often. 
Between major tsunamis, the NOAA Center in Honolulu always has a hard 
time maintaining its budget and hiring qualified personnel. The El Nino 
monitoring array has funding problems even though an El Nino occurs 
every three to seven years and everyone on the planet is aware of its 
effects.
    The Administration's proposed tsunami warning system would deploy 
many single-purpose buoys. I am extremely concerned about the ability 
and willingness of the United States to maintain such a system. Initial 
system costs are not particularly high; however, annual operations and 
maintenance costs will equal the initial costs within three to four 
years when the cost of ship time needed to service buoys is included.
    I believe a more sustainable approach would be to deploy additional 
shore-based pressure gauges and integrate the proposed NOAA system with 
NSF plans to include bottom pressure gauges on mid-ocean buoys that 
serve a wide variety of disciplines. NSF's Ocean Observing Initiative 
(OOI) plans include deployment of seven to twelve buoys capable of 
multidisciplinary measurements, such as seafloor pressure for tsunami 
detection and sea level rise. The OOI also includes plans for seafloor 
seismic observatories of a quality equal to those on land--this would 
greatly enhance the recommended densification of seismic stations I 
discussed earlier. For the Northeast Pacific, a planned cabled 
observatory offshore will include seismic stations as well as bottom 
pressure gauges to form a dense tsunami observatory network as well as 
providing the infrastructure for observations relevant to climate, life 
in extreme environments, physical oceanographic and biological 
observations in the California current, and coastal sediment dynamics.
    Expansion of the Global Seismic Network is necessary to reduce 
tsunami detection times, at least for tsunamis associated with 
earthquakes and volcanoes which are the vast majority in terms of 
numbers. The 137-station GSN is too sparse for the purposes of global 
tsunami detection. More stations are needed to understand quickly an 
earthquake's source and its potential to create a tsunami. Furthermore, 
these additional stations will serve a wide variety of purposes: global 
earthquake hazard studies, detection and identification of nuclear 
tests, fault mechanics research, seismicity, and Earth structure from 
the inner core to the planet's crust. This broad range of scientific 
and societal uses will help to ensure the system is maintained.
    For the Caribbean, enhancing GSN coverage is particularly 
important. The Caribbean Hispaniola and Puerto Rico trenches are sites 
of past tsunamigenic earthquakes and will cause future tsunami. Many of 
the Caribbean's islands are close to these trenches and the impact of a 
tsunami could be devastating. Steep slopes around the trenches also 
increase the likelihood of earthquake-triggered underwater landslides 
in this region. In 1998, such an earthquake-triggered landslide killed 
2000 people in Aitape on the north coast of Papua New Guinea. Within 
the Gulf of Mexico, submarine landslide hazards are substantial 
although not known to be tsunamigenic. British Petroleum is funding 
Scripps to develop deep seafloor instrumentation capable of monitoring 
seafloor movement and landslide initiation. We are currently testing 
these instruments at a major slump in southern California, the Goleta 
slump (Figure 6).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The President's plan recommends 24/7/365 operation of the NEIC and 
establishing satellite telemetry to the entire GSN. I strongly support 
the recommendation to enhance the quality of NEIC and the satellite 
telemetry will minimize the time from event to source identification. 
Currently, in some cases, seismic station telemetry piggybacks on a UN 
satellite system operated by the UN Comprehensive Test Ban Treaty 
Organization (CTBTO); development and testing of this system was done 
at Scripps. Following the Sumatra earthquake, the system was saturated 
with CTBTO traffic and some of the GSN shared circuits were blocked by 
this priority traffic. Because the data at the CTBTO are not available 
publicly, it is important to move from this system as soon as possible. 
Furthermore, to have the greatest efficacy, data should be openly 
available to all agencies, governments, and individuals interested in 
monitoring and processing data. For the Indian Ocean specifically, 
moving to a satellite telemetry system would immediately resolve data 
dependability issues with the Sri Lanka, Indonesia, and Seychelles 
stations. (Figure 7)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Another GSN issue is how the network is currently funded. NSF 
provides the support for a third of the GSN and, through IRIS, manages 
data quality control, archiving, and distribution of all data. The NSF 
has provided all the capital costs for the GSN stations including those 
operated and maintained by the USGS. The President's plan for a tsunami 
warning system does not recognize NSF's role and does not include an 
augmentation of the NSF budget for GSN growth and modernization.
    Finally, current funding of $5 million per year ($2 million NSF/$3 
million USGS) for the GSN is inadequate. As a result, GSN is 
deteriorating and requires an additional $5 million per year for 
operations and maintenance. IRIS has established, through a series of 
studies, that GSN O&M costs range from $60,000 to $75,000 per year per 
station in 1998 dollars. Therefore, the costs to maintain the GSN are 
$8 to $10 million per year.
    The NOAA/USGS tsunami hazard mapping efforts should be expanded. In 
the case of earthquake-caused tsunami and volcanoes, this is fairly 
straightforward. Earthquake probabilities could be coupled to tsunami 
models, which would include the best offshore bathymetry data 
available. Tsunami run-up could be estimated from the best available 
topographic maps. At a minimum, topography data from the U.S. Shuttle 
Radar Topography Mapping (SRTM) at 30-meter postings are available 
globally; better data are often available from other unclassified 
resources. The intersection of high probability tsunami run-up 
estimates with data about population and economic centers would provide 
guidelines for monitoring requirements; for example, where pressure 
gauges should be installed. Tsunami risk assessment can then be used to 
prioritize more detailed topography and bathymetry surveys. 
Furthermore, governments can use the knowledge for civil works 
planning, as is done now in the U.S. and especially in California for 
earthquake hazards.
    Hazard mapping for non-earthquake related submarine landslides is 
more complex. Detailed bathymetry surveys can identify important slumps 
for monitoring (Figure 8). Continued research in the causes and 
development of new monitoring technologies are important for 
understanding their role in tsunami and should be accelerated.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    While pressure gauges on the seafloor are well understood, 
exploiting the Global Positioning System (GPS) using ocean buoys and 
ships is an interesting tsunami detection alternative not requiring 
communications with the seafloor. Horizontal resolution with errors 
less than three centimeters has been achieved on Scripps ships. While 
GPS vertical resolution is generally five to ten times poorer than 
horizontal, obviating the detection of passing tsunami in deep water, 
the horizontal motions are substantially larger than the vertical 
displacements. The horizontal tsunami motion should be detectable from 
a buoy or a ship underway. Research should be conducted to investigate 
this approach for verifying a tsunami at sea as costs may well be lower 
than the pressure gauge alternative.
    A global tsunami warning system requires reliable global 
communications and effective collaboration among many states. In the 
past these exchanges occurred by telephone, radio, and, with increasing 
frequency, e-mail. Moore's Law; after Gordon Moore, founder of Intel, 
is often used to quantify the exponential growth of the number of 
transistors on a chip. Generally, this number doubles every eighteen 
months and computing speed follows not far behind. Less well known is 
the rate of doubling of network speed, approximately nine months and 
digital storage, twelve months. Clearly both network speed and memory 
are outstripping increases in computational capability. In five years 
time, for example, computer-processing capability will increase by a 
factor of ten, memory density by thirty-two, and network bandwidth by 
100. Today network speeds of 10Gbps (a Gbps is a gigabit per second 
where a gigabit is a billion bits of data) are available in academia 
and connect a number of locations in the U.S. using networks such as 
the National Lambda Rail (NLR) and these speeds extend to Japan, 
Europe, Korea, and Australia through international projects such as 
NSF's Pacific Rim Applications and Grid Middleware Assembly (PRAGMA).
    It is no longer necessary or even desirable to centralize 
computing, data archives, visualization tools, and real-time sensor 
networks because of the tremendous networking speeds available now and 
in the future. Furthermore, this growth translates into exponential 
decreases in cost for a constant capability. That is, a terabyte of 
storage today costs approximately $900 (a terabyte is 1,000,000,000,000 
characters). In five years, $900 will purchase 32 TB of storage. 
Cyberinfrastructure grids connecting nodes for computation, 
visualization, sensorwebs, and storage must be exploited to create the 
global tsunami warning system to maximize capability while minimizing 
costs. The G-8's Global Earth Observing System of Systems (GEOSS) is an 
excellent candidate for coordinating this effort.

How would you recommend that an Indian Ocean and worldwide tsunami 
                    warning network be established? What role should 
                    the U.S. play in its development?

    As President of the AGU, I was asked by the United Nations 
Environmental Programme to write a brief report proposing an Indian 
Ocean tsunami warning system. This report is not complete but, when 
finished, will include a number of the approaches outlined above. In 
particular, it will recommend increasing the number of GSN stations in 
and around the Indian Ocean; developing a tsunami warning center or 
centers for the region; improving the telemetry to the various stations 
and between the center and the many states in the Indian Ocean; the 
installation of a substantial number of telemetered pressure gauges; 
and the technology needed to inform threatened States, local 
governments and private citizens of impending tsunami disasters. 
Education and outreach are critically important to teach children and 
adults about the dangers and signs of tsunamis. Tsunami hazards mapping 
must be started as soon as possible to determine where additional 
sensors, such as buoys with GPS and/or pressure gauges, should be 
installed and maintained.
    The cyberinfrastructure discussed in the previous section can be 
very helpful in meeting local needs. For example, at the request of the 
government of the Maldives, we quickly established a web page showing 
the real-time seismic data from the three GSN stations closest to the 
Sumatra event. It is possible for people on the Maldives to monitor for 
aftershocks--an issue of significant concern given the very low island 
freeboard for nearly all of these islands. It should be possible for 
interested parties to set up similar virtual observatories for their 
specific needs without outside help if the grid architecture for global 
services is adopted.
    The location and magnitude of the December 26th Sumatra earthquake 
was determined in time for mitigating measures to be taken in Sri 
Lanka, India, the Maldives and Africa to prevent extensive loss of 
life. The lack of civil infrastructure to warn people was, 
unfortunately, the weak link in the system. The development of tsunami 
warning in this area of the world will have to be comprehensive in 
nature.

                      Biography for John A. Orcutt

    Prof. John A. Orcutt is the Deputy Director for Research at Scripps 
Institution of Oceanography and heads University of California at San 
Diego's Center for Earth Observations and Applications. He served as 
Director of the Cecil and Ida Green Institute of Geophysics and 
Planetary Physics at Scripps for 18 years. Prof. Orcutt is a graduate 
of Annapolis (1966) and received his M.Sc. in physics as a Fulbright 
Scholar at the University of Liverpool. He served as a submariner and 
advanced to the rank of Commander. He received his Ph.D. in Earth 
Sciences from Scripps (1976). He has published more than 140 scientific 
papers and received the Ewing Medal from the U.S. Navy and the American 
Geophysical Union (AGU) in 1994. He received the Newcomb-Cleveland 
Prize from the American Association for the Advancement of Science 
(AAAS) in 1983 for a paper in Science. He is one of nine Secretary of 
the Navy/Chief of Naval Operations Oceanography Chairs and is presently 
the President of the American Geophysical Union (AGU). He chaired a 
National Research Council Committee on the Exploration of the Seas the 
past two years and was a member of the Steering Committee of MEDEA, an 
organization working with the Director of Central Intelligence in the 
use of classified data for environmental research. His research 
interests are the shallow and deep structure of the ocean basins and 
ridges, the use of seismic data for monitoring nuclear explosions, and 
the exploitation of information technology for the collection and 
processing of real-time environmental data. He was the Chair of the 
National Science Foundation/Consortium for Ocean Research and Education 
(CORE) Dynamics of Earth and Ocean Systems (DEOS) Committee with an 
interest in extending long-term observations to sea--a permanent 
presence in the oceans. He is currently a member of the ORION (Ocean 
Research Interactive Ocean Network) Executive Steering Committee. He 
was a member of the Science Advisory Panel to the President's Ocean 
Policy Commission. He was elected to the American Philosophical Society 
in 2002; Benjamin Franklin founded the APS in 1743.

    Chairman Boehlert. Thank you very much.
    Dr. Lerner-Lam.

   STATEMENT OF DR. ARTHUR L. LERNER-LAM, DIRECTOR, COLUMBIA 
        UNIVERSITY CENTER FOR HAZARDS AND RISK RESEARCH

    Dr. Lerner-Lam. Thank you, Mr. Chairman, Mr. Gordon, 
Members of the Committee. Thank you very much for the 
opportunity to provide testimony on such an important matter 
facing us today.
    This committee, of course, has long been a supporter of 
basic science and research in the United States, and this 
support has enabled many of us to participate in the 
discussions of the Tsunami Warning System to talk about the 
role that basic science has in developing such systems and to 
talk about the role that basic science plays in protecting the 
population and our societies.
    My comments today, I am a seismologist at the Lamont-
Doherty Earth Observatory. I am also Director of the Center for 
Hazards and Risk Research. As a seismologist, I share many of 
the comments that Dr. Orcutt made. As a Director of a center 
that is concerned with the use of this information to protect 
populations, my comments today will be oriented toward how we 
should perceive the risk of tsunamis in the presence of other 
natural hazards and risks.
    [Slide.]
    My first slide shows this tsunami to be an extreme event. 
The number of deaths as of last Thursday in the South Asian 
tsunami is well over 200,000, but you can see that persistent 
tsunamis, particularly in the Pacific, and in some cases, the 
Indian Ocean, also killed tens of thousands of people.
    In some sense, these are extreme events in that they have 
an extreme impact and are outside of our experience. In another 
sense, some of the generative events, some of the events that 
cause these tsunamis, can be forecast in ways that pertain to 
our understanding of basic science.
    We have attempted to do this with a basket of natural 
disasters, including droughts, earthquakes, landslides, floods, 
severe storms, and other disasters, and earthquakes. The point 
of a map like this is to show that the world is, indeed, a 
dangerous place, that there are areas in the world that have 
persistent hydrometeorological and geophysical impacts from 
disasters and that the United States, on a global basis, 
luckily suffers relatively low mortality.
    But in terms of economic risks, the United States has a 
severe exposure. And again, these exposures to a basket of 
hazards are significant.
    [Slide.]
    I would point out in a slide of this sort, that the 
hydrometeorological disasters, that is the floods and the 
storms, as well as the geophysical disasters, the landslides 
and the earthquakes, are decent proxies for what might be 
expected if a severe tsunami impacted the United States.
    Now in some sense, a calculation of this sort is an 
annualized calculation. This is what we would expect from the 
normal physics of the Earth. On the other hand, we are faced 
with the events of December 26, which is, in reality, extreme. 
And these are extreme events for which we really do not have 
good statistics. We simply don't have a long enough 
instrumental record.
    In this case, how do we approach the risk? I think there 
are two approaches. We need to persist in our understanding of 
the events that happen all of the time and to develop systems 
that allow us to mitigate the impact of those events, both for 
the Nation and globally. But we also must take a precautionary 
approach towards these extreme events, especially when, like 
the current Tsunami Warning System, the cost of setting a 
system are low, relative to the enormous impacts that might 
occur.
    Elements of a Tsunami Warning System that should be 
considered by this committee have been touched on by some of 
the other testimony, but I will reiterate some of these points.
    First, rapid estimation of the size of large tsunami-
generating events is an important component. An interesting 
point about this is that this must be integrated with basic 
research, for it is research by the National Science Foundation 
and by the External Grants Program of the U.S. Geological 
Survey that provides us with the basic knowledge that allows us 
to characterize these enormous extreme events. It is something 
that the operational entities need to take advantage of.
    Secondly, as has already been stated, we need to maintain 
the very broadband nature of these Global Seismic Networks, 
because it is only the broadband nature that allows us to look 
particularly at these very great earthquakes. We have some 
specific concerns, which are detailed in my written testimony.
    We have already touched on the notion of redundancy, and I 
will simply state that redundancy is a factor not only of the 
geographic coverage in both the seismometer and in the buoy 
systems, but in the engineering, research, and development that 
must occur for basic elements of these instruments. In my view, 
the Administration's proposal is lacking in engineering R&D 
funds.
    A second set of elements to consider is the need to ensure 
sufficient local capacity to use these warnings. We are about 
to hear some details on that, but I would also point out that 
this is of significant importance internationally. We already 
know, the warnings can not be used unless there is 
infrastructure on the ground, capacity on the ground to use 
them. And this is a particular problem if the United States is 
to take a leadership role internationally.
    Data archives for performance-based assessments of these 
systems need to be implemented so that we understand, as in 
cases in December 26, what might have gone wrong, what needs to 
be improved, and what other research and technology we need to 
implement to provide adequate warnings.
    And finally, stable support for operations and maintenance 
as well as engineering research and development needs to be 
found.
    Finally, the leveraging of the Tsunami Warning System ought 
to be done in two ways. The Tsunami Warning System ought to be 
a step toward the System of Systems, as we know, GEOSS. What we 
need to do is to ensure interoperability among the 
international partners and among the different observing 
systems, and in fact, the Tsunami Warning System, as proposed, 
can be a confidence-building measure in that way.
    We also need to ensure that the dual goals of both the 
research and the operational communities are satisfied, and 
again, the Tsunami Warning System provides that confidence-
building measure as a pilot program.
    My final remark, that the U.S. ought to show leadership in 
linking global Earth observations to smart recovery in the 
Indian Ocean and to sound development elsewhere in the world, 
because, after all, hazards are problems of the poor, not just 
of the developed world.
    Thank you.
    [The prepared statement of Dr. Lerner-Lam follows:]

               Prepared Statement of Arthur L. Lerner-Lam

    Mr. Chairman and Members of the Committee, I thank you for the 
invitation to provide testimony on the recent tsunami tragedy in the 
Indian Ocean, and strategies for reducing the risk from tsunamis and 
other natural disasters in the United States and worldwide.
    I am a seismologist holding the position of Doherty Senior Research 
Scientist at the Lamont-Doherty Earth Observatory of Columbia 
University, in Palisades, New York. I am also the Associate Director 
for Seismology, Geology, and Tectonophysics at the Observatory. I am 
the Director of the Center for Hazards and Risk Research in the Earth 
Institute at Columbia. As Director, I have overseen research in natural 
hazard risk assessment and management, including the preparation of 
major reports for the World Bank on the exposures of populations and 
country economies to multiple natural hazards.
    The magnitude 9.0 Sumatra-Andaman Islands Earthquake of 26 
December, 2004 and the resultant basin-wide tsunami in the Indian Ocean 
killed more than 212,000 people and has exposed millions more to 
additional risks from injury, disease, loss of livelihood, increased 
vulnerability to recurrent natural hazards and other disruptions to 
their cultural and civil institutions. In coastal areas known to have 
suffered significant casualties from the tsunami and where relief 
efforts are now focused, the estimates of the exposed population living 
within one kilometer of the coast or within two kilometers of the coast 
are 2.1 and 4.2 million people, respectively (compilation by Balk, 
Gorokhovich and Levy, 2005, Center for Earth Science Information 
Network (CIESIN) at Columbia University, unpublished report to various 
relief agencies). Economic damages, and economic losses resulting from 
damage to ecosystems, are also severe. For example, in published 
reports released just last week, a preliminary estimate by the Asian 
Development Bank places the economic losses to Indonesia alone at $4.45 
billion. These estimates suggest that initial economic damage reports, 
which were based on quick evaluations of the geographic exposure of 
major economic activity and insured property, did not fully reflect the 
spectrum of long-lasting economic impacts. Preliminary needs 
assessments by the United Nations, the World Bank, and other 
international development organizations will be completed soon, but 
early results suggest that the region's recovery from the disaster will 
be long and complicated. Experience with this tsunami and other natural 
disasters in the Indian Ocean suggests that vulnerability to natural 
disasters is and will continue to be a major problem for people and 
countries in the region. The potential exposure of Indian Ocean coastal 
populations to oceanographic and meteorological hazards, such as 
tsunamis and typhoons, is great. Our compilations indicate that 10.6 
million people live within one kilometer of the coastlines around the 
Bay of Bengal and eastern Indian Ocean, and 19.2 million people live 
within two kilometers.
    It is understandable, then, with such grave damage and casualties, 
that the United States and the rest of the developed world have 
responded to the humanitarian emergency with compassion and largess. 
These efforts are now known to have had a significant impact on the 
emergency needs of the people and governments in the region. It is also 
understandable that the first response of the scientific and technical 
communities, including those agencies that have operational 
responsibilities for tsunami warnings, has been to emphasize the 
expansion of existing tsunami warning systems to provide global 
coverage. This technical response is justified by the benefits of 
adequate warning when compared to the expected life and economic loss 
from extreme geophysical, oceanographic and meteorological events. 
Indeed, the costs of the system proposed by the Administration are 
modest when compared with the potential losses. However, it is 
important to note that the mortality and economic losses from other 
natural hazards are also large, occur more frequently, and could also 
benefit from improved and sustained programs of global and regional 
environmental observations and monitoring, and the concomitant programs 
of basic research that must accompany the acquisition of new data.

The Major Causes of Tsunamis and Tsunami Prediction

    Statistical analysis of past tsunami occurrences, which are 
recorded either in the historic or geologic records, is one of the most 
reliable ways of assessing tsunami hazard risk. However, tsunamis are 
caused by a range of complex natural phenomena, making the prediction 
of any future tsunami difficult. Improvements in the forecasting and 
characterization of the main tsunamigenic events will improve tsunami 
risk assessments.
    Tsunamis are caused by the sudden displacement of extremely large 
volumes of water by undersea earthquakes, coastal and submarine 
landslides, volcanic explosions, coastal glacier or ice sheet 
collapses, and meteorite impacts. There is evidence in the geologic 
record for each of these sources. However, the largest destructive 
tsunamis in recorded history are caused most frequently by earthquake, 
landslide and volcanic events. We call these ``source events.''
    The first source of uncertainty in predicting future tsunami 
occurrence is the uncertainty associated with predicting the 
occurrences of source events. Large events that produce extreme 
tsunamis are themselves rare, and the modern instrumental record is not 
yet long enough to provide high quality quantitative observations of 
extreme events. For example, one difficulty in predicting earthquake-
generated tsunamis is our limited understanding of the dynamics of 
great earthquakes. When we can forecast great events, we may be able to 
forecast tsunamis, but this is not now achievable unambiguously. 
Nevertheless, the Sumatra-Andaman Islands Earthquake is the first 
magnitude 9 event to be captured by modern high-fidelity seismic 
networks, especially the Global Seismographic Network (GSN) operated by 
the Incorporated Research Institutions for Seismology (IRIS), an 
academic consortium supported by the National Science Foundation in 
collaboration with the U.S Geological Survey. Research on this 
earthquake, much of it to be funded by the NSF and the external grants 
program of the USGS, will without doubt enlarge the body of knowledge 
about great earthquakes, including why they are different from merely 
large earthquakes. This research will help immeasurably in 
understanding the processes within large subduction zones that produce 
great shallow megathrusts. It is difficult to predict whether this will 
lead to the ability to predict the precise timing of a tsunamigenic 
earthquake, but identification of probable locations and estimation of 
decade-scale probabilistic risk are achievable goals.
    Submarine and coastal landslides are beginning to be understood in 
theory. There is a vigorous international community of theoretical and 
observational geomorphologists who have compiled an impressive track 
record of research. However, landslides are complex phenomena whose 
impacts on humans may be quantified by examining the geological and 
historical record for past occurrence. This can produce risk factors in 
a probabilistic sense, but, again, it is difficult to predict the 
precise timing, location, and size of a future event. This 
probabilistic assessment has been done in a preliminary fashion, 
globally, for landslides on land (Norwegian Geotechnical Institute, 
referenced in Dilley, Chen, Deichmann and Lerner-Lam, 2005, Global 
Natural Disaster Risk Hotspots, Report to The World Bank, Hazard 
Management Unit, in press), but a systematic assessment of undersea 
slide probabilities has not yet been achieved.
    Among the major tsunami source events, it is often suggested that 
volcanic eruptions are relatively amenable, both in theory and 
practice, to monitoring and prediction. Most vulcanologists believe 
that individual volcanoes can be well characterized and incipient 
eruptions can be accurately detected, provided that the volcano is 
heavily instrumented and constantly monitored. The U.S. Geological 
Survey follows this approach through its various Volcano Observatories, 
and there are a few other examples around the globe where progress has 
been made. However, it takes years of continuous observation to 
``fingerprint'' an individual volcano to the extent that eruptions can 
be foreseen, and it is not pragmatic to do this globally. Of course, 
not every volcano, not even the most dangerous ones, is instrumented 
adequately. It should be a high priority to identify the most dangerous 
volcanoes in terms of their tsunamigenic potential, and observe them 
accordingly. However, predicting an eruption, and predicting the nature 
of volcanic mass flank movement that could cause a tsunami are two 
different things. The latter is related more to landslide dynamics and 
should be connected to that area of inquiry and monitoring.
    In contrast to source dynamics, the theory of tsunami propagation 
in the open ocean is reasonably well understood, but uncertainties 
arise from unmapped small-scale variations in ocean and coastal 
bathymetry, complexities in the excitation of the tsunami at its 
source, and in its amplitude or ``run-up'' at the shoreline. The 
``source function'' of the tsunami can be understood in general terms 
as the area of the seafloor that is vertically displaced by a submarine 
earthquake, or by the size and velocity of a submarine, volcanic or 
coastal landslide, or by the explosive force of a volcanic event. Any 
uncertainty in measuring the size of these source functions leads to 
uncertainty in predicting the amplitude of a tsunami.
    Amplitude uncertainty is further enlarged by uncertainties in ocean 
and coastal bathymetry and coastline topography. Variations in coastal 
bathymetry can focus or defocus tsunami energy, and small-scale 
features in the on-shore topography can lead both to excessive run ups 
and safe harbor from the onslaught of the tsunami surge.
    In contrast to the tsunami source events and run-up amplitudes, the 
progress of a tsunami wave across an ocean basin is rather more 
predictable. Once a tsunami wave is generated, it travels through the 
ocean at a speed that is proportional to the square root of the ocean 
depth. While our detailed knowledge of ocean bathymetry is limited, 
enough is known about the larger scale variations in ocean depth to 
accurately predict the arrival time of a tsunami once it is generated. 
This time is sufficiently long for ocean crossing tsunamis that warning 
systems based on the detection of the open-water tsunami wave make 
sense. Even in the case of source events proximal to a vulnerable 
coast, tsunami propagation in shallow water is slow enough so that at 
least some simple and quickly delivered warnings could save lives.
    Predicting tsunami damage is more difficult, because the physical 
properties of potential tsunamis must be convolved with population 
densities, the fragilities of the built environment, and other 
difficult measures of physical, economic and social vulnerabilities. 
Nevertheless, it is interesting that initial tsunami models of the 
Indian Ocean event did a reasonably good job of explaining the observed 
damage. In large measure, the relatively low impact on Bangladesh, for 
example, was due to predictable physics of the tsunami propagation. 
Similarly, the large impacts in Southeast India and Sri Lanka are, in a 
gross sense, predicted by these rudimentary models. On the other hand, 
the destruction in Aceh Province in Indonesia, though expected (and 
nearly complete) because of proximity to the source region of the 
earthquake, would be difficult to predict in detail.
    This combination of uncertainties reinforces the need for warning 
systems to have an oceanographic component combined with rapid source 
event identification and characterization. It also emphasizes the need 
to build local and regional capacity to make effective use of a warning 
when it is received.

History of Major Tsunamis

    Tsunami size may be measured by physical parameters such as maximum 
run-up height and total number of shoreline incursions. Figures 1 and 2 
show these parameters for the largest tsunamis in well-researched 
historical databases of disasters. Observed run-ups and incursions are 
not yet tabulated for the Indian Ocean tsunami. It is apparent in these 
figures that the tsunami run-ups and incursions in the Aleutian Islands 
and continental Alaska are among the largest recorded. (The Mt. St. 
Helens run-up is included to illustrate the near-source effect of a 
catastrophic volcanic landslide although, in this case, the effect was 
localized.) Preliminary reports from survey teams suggest that the run-
up heights in the Indian Ocean probably did not achieve these levels, 
but that the total number of on-shore incursions will probably approach 
the observed maximum. Figure 3 shows historical tsunami mortality, 
including recent data from the Indian Ocean, which places this event as 
the most deadly tsunami ever recorded.
    Taken together, these charts illustrate that the total destruction 
caused by a tsunami is not just a function of run-up height, which is 
controlled by local bathymetry and topography, but more a function of 
the tsunami's geographic scope and the overlap with the geography of 
human habitation. From the point of view of tsunami risk assessment, 
this makes the obvious point that we should be concerned with the 
exposure of densely populated and economically productive low-lying 
areas near coastlines.
    The causes of these largest tsunamis are either large underwater 
thrusting earthquakes or cataclysmic volcanic eruptions, and the 
observed mortality and physical impacts are known to occur along 
coastlines far from the event as well as those in close proximity. Thus 
the potential exposure of low-lying coastal areas must encompass an 
assessment of possible source events throughout the ocean basins.
    Great thrusting earthquakes in the Atlantic Ocean are rare compared 
with occurrences in the Pacific, because there are only a few places in 
the Atlantic where the tectonic plates that make up the crust of the 
Earth are colliding. The most famous of these is the Lisbon earthquake 
of 1755, which generated a destructive tsunami along the coasts of 
western Europe and northwestern Africa. This tsunami was also observed 
in the eastern Caribbean.
    Thrusting earthquakes are observed along the eastern boundaries of 
the Caribbean plate and in the Scotia Arc at the southern tip of South 
America. Some of these earthquakes have generated tsunamis in the past, 
although the effects have been regional or local. Lander et al. (2002) 
have published a list of observed ``wave events'' in the Caribbean and 
judge 27 of these to be ``true'' tsunamis and another nine to be ``very 
likely true'' tsunamis. The last destructive tsunami in the Caribbean 
occurred in August, 1946, the consequence of a magnitude 8.1 
earthquake, and killed a reported 1600 people. Tsunami waves from this 
event were observed along the eastern coast of the United States. 
Recently published work by ten Brink and Lin (USGS and Woods Hole 
Oceanographic Institution, Journal of Geophysical Research, December 
2004) confirm the current potential for large tsunamigenic earthquakes 
near Puerto Rico, the U.S. Virgin Islands, and Hispaniola.
    A more problematic scenario in the Atlantic is the generation of 
tsunamis by extreme events such as intraplate earthquakes, submarine 
landslides on the continental shelf, and the collapse of volcanic 
edifices. Two examples are the 1886 Charleston Earthquake and the 1929 
Grand Banks Earthquake, both of which produced regionally observed and 
damaging tsunamis. These events do not fall readily within the plate 
tectonic framework that governs much of our understanding of great 
earthquakes. In intraplate settings, the smaller earthquakes that would 
allow seismologists to effectively characterize potential earthquake 
source zones are relatively infrequent, and it can take decades to 
accumulate enough high quality data to develop a recurrence or 
probability model. The situation is even more problematic for submarine 
landslides and edifice collapse. Some of these potential tsunami source 
events could be triggered by just moderate earthquakes, by 
gravitational instability, by the release of trapped gas, or by large 
meteorological storms. Thus the lack of major colliding plate 
boundaries, as in the ``Ring of Fire'' around the Pacific, does not 
suggest that the Atlantic Ocean Basin is geologically ``quiet.'' On the 
contrary, geologic mapping of the continental shelf, when done with 
sufficient resolution, shows an active landscape modified by sudden 
mass movements. Much more work needs to be done to quantify these 
potential tsunami source events.
    The potential instability of the volcanic edifice on Cumbre Vieja 
in the Canary Islands should be taken seriously. This is one of the 
most active volcanoes in the Atlantic, and Ward and Day (UC Santa Cruz, 
Geophysical Research Letters, 2001) constructed a collapse scenario 
that could in principle create a meters-high inundation of the eastern 
seaboard of the United States. While there are many unknown factors, 
including the potential size of the edifice collapse, the possibility 
of a damaging or devastating tsunami cannot be dismissed. While more 
geophysical work is certainly warranted, precautionary monitoring of 
the volcano could detect imminent collapse, and oceanographic 
monitoring in the Atlantic Ocean could detect the approach of a 
destructive tsunami in time to issue a warning.
    In the absence of deterministic predictions, tsunami scenario 
modeling serves the purpose of parameterizing the potential range of 
tsunami source events and impacts.

Weighing the Risks of Tsunamis and Other Natural Disasters

    A systems approach to comparative risk analysis for multiple 
natural hazards is emerging in importance, as we continue to understand 
that what causes a natural hazard to turn into a disaster is the 
exposure and vulnerability of people and their institutions as well as 
geophysical parameters. Some of the same fragilities that make people 
vulnerable to hurricanes, typhoons and extreme weather also make them 
vulnerable to tsunamis and even earthquakes. Thus it is important to 
understand how reducing vulnerability to one set of hazards can improve 
resiliency to another set. Leveraging investments in one area of hazard 
mitigation to improve another is one way in which comparative risk 
analysis can improve the use of limited resources.
    Global multiple hazard analyses have been completed recently by the 
United Nations Development Program and by the Columbia Earth Institute 
in collaboration with the World Bank and other international partners 
(for example, Dilley et al., 2005). Figure 4 shows a compilation of 
globally-normalized multiple hazard mortality from Dilley et al. 
(2005). Figure 5 shows the same analysis in detail for North America, 
the Caribbean, and Central America. By far the most significant 
mortality risks globally are hydrometeorological hazards in South, 
East, and Southeast Asia/Southwest Pacific as well as Central and Latin 
America and the Caribbean, and drought in sub-Saharan Africa. 
(Significant earthquake and landslide risks dominate parts of the 
Middle East and Central Asia.) Hydrometeorological mortality risk is 
significant because the same factors that aggravate this risk also 
aggravate the risk from tsunamis. The United States, despite its 
exposure to multiple hazards, has a relatively low mortality on a 
global scale. Figures 6 and 7 show the same multiple hazard compilation 
for aggregate economic risk. The United States risk is elevated in 
absolute terms because of the geographic distribution of people and 
assets on both coasts. Figures 8 and 9 show the same compilation 
normalized by country GDP. Again, the U.S. risk is downgraded in 
relative terms to the rest of the globe. However it is important to 
note that even in relative terms, the proportional economic risk to the 
US from geophysical and hydrometeorological hazards on the West and 
East Coasts respectively is in the top three deciles globally. The 
mortality risk pattern in Figures 4 and 5 and the relative economic 
risk pattern in Figures 8 and 9 show similarities, indicating that on a 
global level, multiple disaster risk is an important issue for 
developing countries and one of the persistent issues facing the 
world's poor.
    In comparative terms, the geophysical risk along the West Coast of 
the United States and the hydrometeorological risk along the East Coast 
of the United States are two expressions of tsunami risk as well. While 
tsunamis were not included in this calculation (for technical reasons), 
the proximity of the West Coast and Alaska to the Cascadia and Aleutian 
Subduction Zones, and its exposure to trans-oceanic Pacific tsunamis, 
generates a tsunami risk that is highly correlated to the earthquake 
and hydrometeorological risks. Similarly, the relatively high exposure 
of the Eastern Seaboard to hydrometeorological disasters suggests that 
its exposure to trans-Atlantic or Caribbean-generated tsunamis would be 
high also.
    In the Caribbean (c.f. Figures 5, 7, 9), relative mortality, and 
aggregate and proportionate economic exposure all suggest that 
multiple-hazard vulnerability reduction should be a necessary component 
of development. In general, mortality and economic exposure to 
earthquakes, landslides, extreme weather and hurricanes, and floods in 
the Caribbean is greater than for tsunamis, on the basis of historical 
data. However, mitigation strategies for earthquake and hurricane 
hazards in particular, will have the dual outcome of reducing 
vulnerabilities to tsunamis as well. When coupled with comprehensive 
earthquake and ocean observation and real time warning, these 
strategies should significantly reduce the natural hazard risk faced by 
people in the Caribbean.
    It is in this system context that the United States should weigh 
the risk of tsunamis against the risk of other natural disasters. The 
risk from tsunamis is real, but from a historical perspective, the risk 
from other natural hazards is also real and, in most cases, greater. A 
tsunami risk reduction program should be part of a comprehensive multi-
hazard risk reduction strategy, in terms of the use of modern 
observational and monitoring networks, in the establishment of building 
codes and risk reduction policies, and in the issuance and use of 
warnings. The costs of mitigation strategies and warning systems, part 
of a comprehensive suite of risk reduction strategies, should also be 
weighed against the repetitive costs of disaster recovery and 
reconstruction in the United States and around the globe. Where it has 
been systematically computed (for example, by Smyth et al., Earthquake 
Spectra, 2004, for residential buildings in certain earthquakes and 
other work) the benefit-to-cost ratio of hazard mitigation and warning 
strategies favors pre-emptive action.
    In particular, linkages between tsunami and storm/hurricane warning 
systems and emergency management operations should be explored.

The Administration's Proposal for a Tsunami Warning System

    Figure 10 is a timeline, with information from NOAA's Pacific 
Tsunami Warning Center (PTWC) on the initial earthquake location 
process, overlain on the records from the Global Seismographic Network 
(GSN). The timeline indicates that agencies with operational 
responsibilities were able to locate the Sumatra-Andaman Islands 
earthquake and assign a preliminary magnitude (MwP = 8.0) within 11 
minutes of the origin of the earthquake, using seven stations of the 
GSN. A public tsunami information bulletin was broadcast by 15 minutes 
after the origin. Forty-five minutes after the origin, seismic waves 
from 27 stations of the GSN were analyzed and the magnitude was 
increased to MwP = 8.5. A second tsunami warning bulletin was released 
65 minutes after the origin with the upgraded magnitude and included a 
statement of tsunami risk near the epicenter. Approximately six hours 
after the origin, seismologists at Harvard, using a different 
measurement technique and more stations, obtained a magnitude Mw = 8.9, 
which was refined upward to Mw = 9.0 at about twenty hours after the 
earthquake. These larger magnitudes were incorporated into later NEIC 
bulletins.
    The continuing analysis and increasing magnitude estimates 
illustrate the difficulty of characterizing a great earthquake source 
under operational conditions. (There are related difficulties in 
characterizing large landslide and volcanic sources as well.) Locating 
an earthquake is a relatively simple task, but measuring its size, 
particularly when the area of rupture is large and the rupture process 
is extended in time, is more difficult. Luckily the Harvard method, and 
other methods developed by research seismologists, can be 
operationalized. This has implications for the design of a tsunami 
warning system.
    The first requirement (and the first component of the 
Administration's proposals for an enhanced tsunami warning system) is 
the rapid detection and characterization of large undersea earthquakes. 
This is best done by using a global seismic network such as the GSN 
(Figure 11) coupled with enhanced capabilities at the NEIC and the 
existing tsunami warning centers. Three elements of the GSN are 
important: (1) its global coverage and international relationships, as 
epitomized by the IRIS and USGS relationships with other nations and 
international seismological groups; (2) 100 percent station telemetry 
allowing real-time retrieval of seismic observations with sufficient 
redundancy; and (3) its use of very broad-band seismometers that 
provide superior recordings of seismic signals from great earthquakes. 
Enhancements to the NEIC should be made to provide true 24/7 
capabilities. The NEIC should also operationalize advanced source 
characterization tools now used by the academic research community. 
This will ensure more realistic estimates for the largest earthquakes.
    The Administration's proposals for enhancements to the NEIC and the 
GSN, including the installation of new stations in the Caribbean would 
accomplish most of what is required.
    Four components are missing from this part of the Administration's 
proposal. First, the very broad-band seismometers required to correctly 
characterize very large earthquakes are nearing the end of their 
operational lifetime, and the manufacturer may not be in a position to 
produce replacements. The seismological community is concerned that 
research and development of the next generation of very broad-band 
sensors is not taking place in a timely manner. Second, in addition to 
Caribbean stations, the GSN should be enhanced by selected deployments 
of submarine seismometers. The characterization of very large 
subduction zone earthquakes could be enhanced by well-sited ocean 
bottom broad-band stations. Third, the Administration's proposal makes 
no mention of the level of and need for continued support for 
operations and maintenance of the enhanced GSN and NEIC. Fourth, 
support for peer-reviewed research on large event characterization, 
best performed by the university community through the National Science 
Foundation and the external grants program of the USGS, does not appear 
to be part of the Administration's plan.
    A second component of the enhanced tsunami warning system is the 
deployment of ocean water level sensors and tide gauges that are 
telemetered to operational centers. The Administration proposes the 
deployment of additional Deep-ocean Assessment and Reporting of 
Tsunamis (DART) buoys. The proposed deployment sites in the 
Administration's plan are good choices. However, it would be prudent to 
acquire additional DART buoys and deploy them to provide operational 
redundancy. Additionally, there are some questions about the 
reliability of current DART buoy design. Three of the six buoys 
currently deployed are not operational. The Administration proposal 
does not include any funds for research and development work for an 
improved DART buoy system. The initial deployments should be followed 
by an engineering research and development effort to improve buoy 
performance. Long-term stable sources of funding for operations and 
maintenance of the DART buoys and concomitant technology should also be 
a part of the Administration's proposal. I am not aware of the details 
of how new tide gauges will be deployed and how they will be 
telemetered to a central monitoring facility and cannot comment on that 
aspect at this time.
    A third component of a tsunami warning system is the engagement of 
regional, State and local agencies to design the most effective way of 
distributing a tsunami warning and preemptive investments in strategies 
to reduce tsunami vulnerability. Most emergency management agencies 
place the highest priority on this aspect of warning systems. Existing 
tsunami and storm warning programs overseen by NOAA should be 
highlighted, strengthened where necessary, and continuing revenue 
streams identified. The incorporation of new research results, 
inundation maps, risk assessments and other products should be rigorous 
and timely. The Administration's proposal does not address these 
specific issues, although they may be addressed elsewhere. These 
elements will be particularly important in the extension of the tsunami 
warning system to less-developed countries.
    The Administration's proposal should be leveraged in two major 
ways. First, a tsunami warning system should be part of a more 
comprehensive real-time environmental monitoring and observation system 
with global coverage. Planning documents for the GEOSS (Global Earth 
Observation System of Systems) allude to this hazard reduction 
functionality. The proposed tsunami warning system can be used as an 
exercise within the GEOSS framework to identify and illustrate likely 
efficiencies, difficulties, and integration issues for the larger 
system. Additionally, the Earth observation community should be 
motivated to develop specific plans to incorporate other sensor 
technology into the DART systems as a pilot opportunity. Second, in 
addition to expanding the monitoring capacity, the development of a 
tsunami warning system should be leveraged to spur the development of 
multiple hazard warning or monitoring systems for hazards that pose a 
quantitatively greater risk and more persistent risk than tsunamis. A 
good place to start would be to develop a spectrum of coastal hazard 
monitoring technologies to deal with the geophysical and meteorological 
hazards faced by Hawaii, Alaska, and the East and West Coasts. 
Moreover, the expansion of NEIC capabilities should include funding of 
the Advanced National Seismic System to the appropriated level, to 
enhance not just tsunami monitoring but achieve the required level of 
earthquake monitoring and earthquake hazard reduction for the Nation.
    The Administration's proposal does not have a specific component of 
assessment, nor is there a specific component on data archiving and 
post-warning analysis. The tsunami warning system should be open to 
periodic review by both the operational and research communities, to 
promote the integration of new research results into operational 
capabilities. This assessment should include the NEIC where 
appropriate. Data archiving is necessary, not just for research 
purposes, but to provide the quantitative basis for assessments.
    Finally, it bears mention that the foundation of hazard mitigation 
is basic research in geophysical, oceanographic, atmospheric and 
environmental sciences. It is puzzling that the Administration's 
proposal does not amplify the fundamental role that the National 
Science Foundation plays in providing this research for the Nation and 
the world. In fact, without the investments that the NSF has made in 
the GSN, in earthquake science, and in oceanographic science and 
observations, the Administration would not now be in a position to so 
quickly design and deploy an enhanced tsunami warning system. Tsunami 
source characterization, propagation and run-up scenarios are just a 
few of the areas where additional research could provide benefits.

The Role of the U.S. in an Indian Ocean and Worldwide Tsunami Warning 
                    Network

    The World Conference on Disaster Reduction in Kobe, Japan, has just 
ended with the release of the Hyogo Framework for Action: 2005-2015. 
This non-binding framework calls for the reduction of natural hazard 
vulnerabilities, and asks countries with significant hazard exposure to 
place vulnerability reduction on their agendas. The Framework also 
calls for global and regional collaboration where appropriate. 
Environmental monitoring and hazard warning systems are areas where 
regional cooperation is important and appropriate.
    From the work of the Earth Institute and other sources, we know 
that the Central and South Asia, East and Southeast Asia, the 
Caribbean, Central America and Latin America, Sub-Saharan Africa, all 
face significant exposures from multiple hazards in terms of mortality 
and economic impact. The United States is in an excellent position to 
take an international leadership role in supporting a cooperative and 
collaborative agenda of environmental monitoring, hazard reduction, and 
international capacity building in environmental science and 
technology.
    The U.S. can take a leadership role in the following ways:

        1.  Encourage country-level needs assessments, in collaboration 
        with ongoing efforts by the United Nations and World Bank 
        through their post-disaster activities, of multiple hazard 
        vulnerabilities, and use these needs assessments to provide a 
        prioritization framework for international projects in natural 
        hazard observation, monitoring and warning systems, and natural 
        hazard mitigation;

        2.  Use an international framework such as GEOSS to incorporate 
        tsunami warning as a confidence building measure among the 
        parties. Some of this may be done with bilateral agreements, or 
        in partnership with other developed countries such as Japan, 
        Australia and others. The rapid deployment of the U.S. and 
        Indian Ocean systems now being proposed by the U.S. and other 
        countries should comprise a pilot project for the 
        implementation of the GEOSS framework. The technology and 
        operational components of a tsunami warning system are very 
        well-defined and, with some effort devoted to technical and 
        data integration, a global warning system could provide the 
        concrete accomplishment needed to energize further 
        international development of GEOSS;

        3.  Leverage tsunami warning technology, particularly the 
        observational components comprising the GSN and DART buoys, to 
        encourage development of country-level technical capacity to 
        collect, archive and share environmental, meteorological and 
        geophysical data according to international standards;

        4.  Develop an international framework for funding streams for 
        continued operations and maintenance of observing systems. Some 
        of this may be done with regional partnerships;

        5.  Develop standards for data exchange and data integration in 
        an international framework. A good example is the IRIS 
        consortium, which has successfully combined both operational 
        and research components in an international structure;

        6.  Work with the international scientific and technical 
        communities, including academic communities, to promote basic 
        and applied research in natural hazard phenomena and risk 
        reduction and management.

    In brief, the U.S. leadership role should not be confined to 
technical leadership. We have the ability to link our scientific and 
technical excellence to the longer-term disaster reduction and 
development goals of less-developed countries. This can be done by 
specifically demonstrating how implementation of a global tsunami 
warning system in the short term can improve longer-term prospects for 
risk-conscious development.
    Mr. Chairman and Members of the Committee, I thank you once again 
for the opportunity to provide testimony on this important initiative.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Biography for Arthur Lerner-Lam

    Arthur Lerner-Lam is a Doherty Senior Research Scientist and 
Associate Director for Seismology, Geology, and Tectonophysics at the 
Lamont-Doherty Earth Observatory of Columbia University, in Palisades, 
New York. A seismologist, he has studied and published on the 
interactions between crust and mantle, the thickness of continental 
plates, the structure of mountain belts and crustal rifts, and active 
seismicity. He has done fieldwork in the Middle East, Central Asia, the 
Southwest Pacific, and throughout the United States, and in recent 
years has lectured and written on natural hazards and society. He is 
the founding Director of the new Columbia Center for Hazards and Risk 
Research, part of the Columbia Earth Institute. The ``Hazards Center'' 
brings together experts from the physical sciences, the social 
sciences, and the policy communities to develop approaches for reducing 
the vulnerability of society to natural and man-made disasters. In 
establishing this Center, Columbia is developing the intellectual basis 
for sound, science-based policies in hazard mitigation, and to provide 
educational and degree opportunities for students of both physical 
sciences and social sciences interested in natural hazards. Many of the 
research results of the Hazards Center are focused on reducing the 
vulnerability of poor and developing countries to environmental stress 
and natural hazards. Dr. Lerner-Lam and his colleagues and students 
support the activities of the United Nations, the World Bank, and other 
international institutions concerned with alleviating poverty and 
promoting sustainable development.
    Dr. Lerner-Lam has been a reviewer of research proposals for the 
National Science Foundation, the Departments of Defense and Energy, the 
United States Geological Survey, and private foundations. He has also 
been a peer reviewer for journals and other publications in his field. 
He has served on many national and international committees, most 
recently as a member of the Board of Directors and Chair of the 
Planning Committee for the Incorporated Research Institutions for 
Seismology (IRIS).
    Dr. Lerner-Lam received his undergraduate degree in geological 
sciences from Princeton University. His doctorate in geophysical 
sciences was received from the University of California, San Diego at 
the Scripps Institution of Oceanography. He has held Postdoctoral 
positions at Scripps and MIT, and has been at Columbia since 1985.
    Dr. Lerner-Lam lives in Tenafly, NJ with his wife and three 
children.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. Thank you very much.
    And Dr.--Mr. Wilson.

   STATEMENT OF MR. JAY WILSON, COORDINATOR, EARTHQUAKE AND 
TSUNAMI PROGRAMS, PLANS AND TRAINING SECTION, OREGON EMERGENCY 
                           MANAGEMENT

    Mr. Wilson. Good morning, Mr. Chairman and Members of this 
committee. I am honored by the opportunity to represent the 
State of Oregon's tsunami programs. I would also like to 
acknowledge our State partners, Washington, Alaska, Hawaii, and 
California, which participate in the National Tsunami Hazard 
Mitigation Program.
    [Slide.]
    As the Earthquake and Tsunami Program Coordinator for 
Oregon Emergency Management--oh, I should say next slide.
    [Slide.]
    I represent this office and the State of Oregon on several 
statewide, regional, and national earthquake and tsunami 
councils and commissions. Much of my time is spent conducting 
education, technical assistance, and program support to local 
officials and collaborating with State and federal counterparts 
on related projects and policies.
    One of the greatest challenges for the State of Oregon is 
creating and sustaining a culture of awareness in the 
populations of coastal residents and coastal visitors so they 
know instinctively that strong ground shaking at the coast is 
their signal to evacuate immediately to higher ground. In fact, 
the most lives saved in the Indian Ocean were due to the 
educated response of a few people who recognized the signs of 
an oncoming tsunami.
    In the case of the U.S. coastlines, the most cost-effective 
means of solving this problem is for long-term support of the 
State tsunami hazard mapping and mitigation programs. We 
recommend that the National Tsunami Hazard Mitigation Program 
be permanently funded at the level of at least $7.8 million per 
year in NOAA's base budget and that $390,000 per year of this 
support be allocated permanently to each of the five 
participating member states, a total of about $2 million per 
year. This is to support long-term tsunami hazard mapping, 
intensive education programs, and the strengthening of local 
emergency notification infrastructure.
    Next slide.
    [Slide.]
    NOAA's National Tsunami Hazard Mitigation Program has been 
instrumental in increasing the capacity of the five member 
states to conduct tsunami run-up modeling and mapping and to 
tailor tsunami education and outreach to local communities. 
Without this federally-funded program and its portion for each 
state, there would be little, if any, tsunami programs in our 
states.
    The National Weather Service's TsunamiReady program is an 
excellent incentive for communities to reach at least a minimum 
standard of readiness. Reasons for so few participating 
communities in TsunamiReady could be that this is a relatively 
new program, but more importantly, program certification 
requires a large investment of time and resources from the 
local communities. These investments include installing and 
maintaining emergency notification infrastructure, posting 
tsunami signs, evacuation planning, and conducting drills and 
educational activities. Many coastal communities have limited 
resources to carry out these program requirements.
    Since meeting the program criteria is a local 
responsibility, TsunamiReady participation should be encouraged 
by the permanent, increased allocation for the annual tsunami 
budgets for the five states.
    Next slide.
    [Slide.]
    In 1995, Oregon created legislation that calls for mapping 
tsunami inundation zones, and this includes limitations on new 
construction, and requires tsunami drills in K-12 schools 
within the inundation zones. Tsunami inundation maps are 
prepared in Oregon by the Oregon Department of Geology and 
Mineral Industries in collaboration with NOAA and with local 
partners in academia, principally the Oregon Graduate Institute 
of Science and Technology.
    Based on numerical models of site-specific tsunami 
behavior, the inundation maps are indispensable. Without them, 
evacuation planning for complex areas, such as estuaries and 
bays, are mere guesswork. Inundation maps are supported mainly 
by NOAA funds through the National Tsunami Hazard Mitigation 
Program with support by the State, principally with labor-in-
kind contributions. Without the federal funds, there is 
virtually no likelihood that these specialized mapping projects 
would have been realized.
    Next slide.
    [Slide.]
    The National Tsunami Hazard Mitigation Program has also 
funded the creation and printing of local evacuation maps 
produced from the inundation maps. These maps are then 
distributed as free brochures by local government. Depending on 
the resources available to local communities, some 
jurisdictions continue printing the brochures while others, 
particularly rural, unincorporated communities, often need 
continual financial aide.
    Last slide. No, sorry. Thank you.
    [Slide.]
    The Administration's proposed detection and warning system 
is essential for issuance of worldwide warnings about large 
distant transoceanic tsunami. It is important to note that the 
current buoy network and the Administration's ocean-wide buoy 
program would do little to limit loss of life in coastal areas 
that are right next to tsunami-generating earthquake faults. 
Travel time from the Cascadia earthquake source to the U.S. 
West Coast is too short for the proposed system to operate 
effectively. In fact, the existing buoys are designed and 
located to detect and measure outgoing tsunami.
    Oregon's communities at the coastline have 10 to 30 minutes 
to react and evacuate following a probable magnitude 9 Cascadia 
subduction zone earthquake along our coastline. The most cost-
effective means of limiting loss of life from locally-produced 
tsunami is mapping where the dangerous areas are and then 
implementing a long-term, relentless public education campaign 
aimed at developing the culture of awareness that will cause 
people to leave these dangerous areas when they feel a large 
earthquake at the coast. Empowering local government and the 
coastal states to implement this work is the most effective 
means of solving this problem.
    In conclusion, I have just returned from the first 
International Conference on Urban Disaster Reduction in Kobe, 
Japan and participated in two days of work sessions with my 
tsunami program counterparts from Japan. Our joint 
recommendations focused on the need to increase our level of 
confidence in the technology that we rely on, to translate more 
research into direct application, and increase our investment 
in the culture of awareness. Considering the history of Japan's 
tsunami countermeasures, it is validating to see that we have 
universal concerns about our respective societies' needed 
direction for higher safety.
    The proposed increase in tsunami buoys, coupled with an 
expanded seismic monitoring network, will greatly enhance our 
nation's ability to detect and warn of potential distant 
tsunami strikes. But the NOAA DART buoy network does not 
provide adequate warning time for near-shore tsunami. In fact, 
it is critical not to rely on their warning in the event of a 
near-shore earthquake since so little time is available for 
evacuation.
    Please understand that supporting each of the Pacific 
states' tsunami programs is the most effective way to build the 
culture of awareness necessary for prompt evacuation before 
local tsunami and for the notification infrastructure necessary 
to deliver warnings of approaching distant tsunami.
    Thank you.
    [The prepared statement of Mr. Wilson follows:]

                    Prepared Statement of Jay Wilson

Introduction

    Good morning members of the House Committee on Science. I am 
honored by the opportunity to represent the State of Oregon's tsunami 
programs and also acknowledge our State partners, Washington, Alaska, 
Hawaii, and California, which participate on the National Tsunami 
Hazard Mitigation Program Steering Group. Although their State tsunami 
programs have differences from Oregon's, I wish to represent their 
interests at this hearing as well. It should also be noted that today's 
date is significant, since the last great Cascadia Subduction Zone 
earthquake and tsunami occurred on the fault 305 years ago on January 
26th in 1700.

1.  Please explain your job as the Earthquake and Tsunami Program 
Coordinator in Oregon Emergency Management. What are the greatest 
challenges you face in helping the State and localities prepare for 
earthquakes and tsunamis?

    As the Earthquake and Tsunami Program Coordinator for Oregon 
Emergency Management, I represent this office and the State of Oregon 
on several statewide, regional and national earthquake and tsunami 
councils, commissions and consortia, including the National Tsunami 
Hazard Mitigation Program Steering Group. Much of my time is spent 
conducting education, technical assistance and program support to local 
officials regarding earthquake, tsunami and volcano risks and 
collaborating with State and federal counter parts on related projects 
and policies.
    One of the greatest challenges for the State of Oregon is creating 
and sustaining a ``culture of awareness'' in the populations of coastal 
residents and coastal visitors, so they know instinctively that strong 
ground shaking at the coast is their signal to evacuate immediately to 
higher ground. Changing public perception on the tsunami risk--low 
frequency but high impact makes public education a high priority in 
raising awareness level and changing people's perceptions of the 
tsunami risk and personal actions they need to take. This also includes 
the buy-in from businesses in tsunami hazard zones that have to find a 
balance between business opportunities and also buy-in to have signage 
in front of businesses, materials available for the public and the 
training of employees on actions to take for business survival and 
protection of customers.
    Another part of this challenge is to continue to provide guidance 
through tsunami inundation mapping, evacuation maps, and signs as to 
where the dangerous areas are and how to escape to high ground. This 
culture of awareness is already present in much of the Japanese 
population, because they have a lot of local tsunamis and undersea 
earthquakes to reinforce this response. It is currently not the 
response on the U.S. coast and obviously not on the coast of the 
Indonesia where less frequent but much more devastating tsunamis can 
occur.
    If an effective education program had been in place and if the 
local populace in Indonesia had accurate tsunami hazard maps, thousands 
of lives could have been saved, regardless of an international warning 
system. The same is true for the U.S. coasts. In fact the most lives 
saved in the Indian Ocean were due to the educated response of a few 
people who recognized the signs of an oncoming tsunami.
    In the instance of the U.S. coastlines, the most cost-effective 
means of solving this problem is for long-term support of State tsunami 
hazard mapping and mitigation programs. We recommend that the National 
Tsunami Hazard Mitigation Program (NTHMP) be permanently funded at the 
level of at least $7.8 million per year in NOAA's base budget, and that 
$390,000 per year of this support be allocated permanently to each of 
the five Pacific states, Oregon, Washington, California, Alaska and 
Hawaii (a total of about $2 million per year) to support long-term 
tsunami hazard mapping, intensive education programs, and the 
strengthening of local emergency warning infrastructure.
    Another challenge is building a strong infrastructure for warning 
the coastal population, local and visitor, about distant tsunami 
threats from places like the Aleutians and South America. Distant 
tsunamis will arrive four hours or more after a tsunami-generating 
earthquake, so the current international warning system will be 
effective in issuing warnings. Getting the warnings to everyone on 
every beach along the Oregon coast requires a comprehensive 
telecommunications system.
    Administrative challenges include working with minimal funding and 
staffing to develop the tsunami education program--from product 
development to its delivery to the public/private sector and coastal 
citizens. Also local emergency managers are over loaded with DHS 
requirements making it sometimes impossible to support earthquake/
tsunami programs--they must be given the funding to support resources 
needed in the community for the development of a tsunami ready 
community.
    Securing coastal borders of the U.S. should also be made a top 
priority of the new Homeland Security Department. One of the most 
effective means of achieving higher security is stationing more police 
and fire responders along the U.S. coastline. These responders are our 
first line of defense for both natural and manmade disasters. The 
Oregon coast is mostly devoid of highway patrol officers, fire stations 
are sparsely manned (mostly by volunteers), and few National Guard are 
stationed at the coast; yet tens of thousands of visitors flock to the 
Oregon coastline from all over the U.S. It is appropriate that the 
Federal Government partner with the State of Oregon to secure this 
border and thereby facilitate meaningful emergency response to tsunamis 
from both distant and local sources. The State needs direct financial 
federal assistance to put more fire and police personnel on the coast, 
especially at coastal ports.
    The other, almost overwhelming, challenge is making the coastal 
transportation system less vulnerable to catastrophic failure due to a 
local earthquake and tsunami. Federal Highway 101 was built in the 
1930's and is now beyond its design life. Nearly all of the bridges and 
culverts on the coast highway are in greater or lesser stages of 
deterioration. Given a 10-20 percent chance that a magnitude 9 undersea 
earthquake and tsunami will strike the Oregon, Washington, and northern 
California coast in the next 50 years, the current highway will be 
severely damaged and many bridges destroyed, rendering emergency 
response nearly impossible. Federal leadership to replace key 
vulnerable bridges along the coast and those linking the coast to the 
rest of the state is a vital component in making the state more 
resistant to this inevitable natural disaster.

2.  What is your opinion of NOAA's National Tsunami Hazard Mitigation 
Program (NTHMP) and of NOAA's Tsunami Ready program? Why are there so 
few communities that participate in the Tsunami Ready program and what 
can be done to increase participation?

    NOAA's National Tsunami Hazard Mitigation Program has been 
instrumental in increasing the capacity of the five member states to 
conduct tsunami run up modeling and mapping and to tailor tsunami 
education and outreach to local communities. Without this federally 
funded program and the State allocations, there would be little, if 
any, tsunami programs in our states.
    The National Weather Service's TsunamiReady program is an excellent 
incentive for communities to reach at least a minimum standard of 
readiness. Reasons for so few participating communities could be that 
this is a relatively new program, but more importantly, program 
certification requires a large investment of time and resources from 
the local communities. These investments include installing and 
maintaining emergency notification infrastructure, evacuation planning, 
and conducting drills and education activities. Many coastal 
communities have limited resources to carry out these program 
requirements.
    Changing behavior and attitudes is not an overnight process and 
takes many years--therefore, TsunamiReady communities will come on line 
as products are developed and given to the communities and awareness 
and preparedness to the tsunami hazard increases--the bottom line, the 
communities must buy-in to protecting itself from this hazard, even at 
potential social and economic loss.
    Since meeting the program criteria is a local responsibility, 
TsunamiReady participation could be encouraged by the permanent 
increased allocation for the annual tsunami budgets for the five states 
in the National Program as detailed earlier.

3.  What roles do NOAA, USGS and FEMA play in your activities? How can 
these agencies be more useful in your efforts?

    NOAA and USGS have been invaluable partners for the states in 
providing financial, technological, and nationwide networking resources 
that have resulted in faster and more accurate warning systems for 
distant tsunami events. NOAA has also been helpful in providing 
technical assistance for tsunami inundation mapping, as well as 
offering a centralized repository for computer data developed from 
mapping of potential tsunami inundation on U.S. coasts. The Advanced 
National Seismic System (ANSS) of the USGS provides near instant 
determination of earthquakes. FEMA has offered helpful advice and 
served in a key coordination role between the states and other federal 
partners in the National Tsunami Hazard Mitigation Program (NTHMP).
    All of these federal agencies could be more helpful to the states 
by increasing financial and technological support to amplify what the 
states do best: natural hazards characterization, mapping tsunami 
evacuation zones in partnership with local cities and counties, 
emergency response guidance to local government, and earthquake and 
tsunami education to the local populace.
    FEMA could be a more active partner to the states by directly 
funding State mitigation efforts, including preparedness and response 
infrastructure (telecommunications, emergency supply caches, State-
federal coordination of military and Coast Guard assets, tsunami flood 
mapping and education). Since 9/11 and the establishment of DHS, FEMA's 
ability to support tsunami efforts in the states has been considerably 
reduced and until DHS can fully develop it's programs and funding 
streams, FEMA who has a very high stake in tsunami response and 
recovery, will lag behind in its responsibilities to support State 
efforts.
    NOAA would be more effective, if the parts of NOAA that do 
bathymetric surveys would give the highest priority to surveys of those 
parts of the U.S. coast that (1) lack detailed bathymetric data, and 
(2) are most vulnerable to tsunami flooding. Detailed bathymetry, 
particularly in bays, estuaries, and shallow water at the coast, is one 
of the major data needs for the State tsunami hazard mapping programs.
    USGS would greatly aid State efforts to map tsunami inundation, if 
they could regularly provide comprehensive digital terrain data through 
photogrammetry or airborne laser surveys (LIDAR) for the most 
vulnerable parts of the U.S. coastline lacking such data. This data, 
when combined with the bathymetry from NOAA, would empower the State 
tsunami mapping teams with accurate digital elevation data essential to 
accurate tsunami inundation mapping.
    Additionally, there needs be better research on the nature seismic 
activity between the subduction zone plates. Because of insufficient 
instrumentation along the coast, the depth and characterization of 
earthquakes along the edge of the off shore plate boundaries are not 
well understood.
    USGS and NOAA should combine their resources to provide 24-hr/7-
day-a-week tsunami warnings from a single location that is relatively 
invulnerable to the large earthquakes and tsunamis. This location 
should have a critical mass of geologists, geophysicists, and tsunami 
experts available to make instant, collaborative decisions 24 hours a 
day. For example, a collaborative team that included a geologist would 
have known from the geology of the Indonesian coast that a magnitude 
8.5 to 9.0 earthquake at that particular location was most likely a 
subduction zone event that would almost certainly generate a 
devastating tsunami. This knowledge base might well have spurred a more 
robust warning that may well have saved thousands of lives.

4.  Please describe inundation maps. How important are they to your 
ability to plan? Who prepares these maps and who pays for them?

    In 1995, Oregon created legislation that called for mapping tsunami 
inundation zones, that includes limitations on new construction and 
require tsunami drills in K-12 schools. Inundation maps are prepared in 
Oregon by the Oregon Department of Geology and Mineral Industries 
(DOGAMI) in collaboration with NOAA and with local partners in 
academia, principally the Oregon Graduate Institute of Science and 
Technology, Oregon Health Sciences University. DOGAMI publishes and 
widely distributes the maps after review by local government 
authorities, technical experts, and the publication staff. The 
inundation maps are indispensable. Without them, evacuation maps for 
complex areas such as estuaries and bays are mere guesswork.
    The first three inundation maps done for Oregon were supported by a 
combination of USGS National Earthquake Hazard Reduction Program 
(NEHRP) funds, State funds, and NOAA funding. After about 1997, the 
inundation maps were supported mainly by NOAA funds through the NTHMP 
with some support by the State (principally labor in-kind 
contributions). With State budgets struggling to keep essential public 
services like the K-12 schools open, there is virtually no likelihood 
that these specialized mapping projects would have been supported 
through State or local funds.
    NTHMP has also funded the creation and printing of local evacuation 
maps, produced from inundation maps. These maps are then distributed as 
free brochures by local government. Depending on the resources 
available to local communities, some jurisdictions continue printing 
the brochures, while others, particularly unincorporated rural 
communities, often need continuing financial aid in order to provide 
these valuable products to visitors and the local population. Federal 
funding from NTHMP to the State tsunami mitigation programs has 
empowered the states to standardize the evacuation map brochures and 
reprint brochures for these rural communities.

5.  What is your opinion of the Administration's new proposal to 
improve the U.S.'s tsunami detection and warning programs? Are there 
ways it can be improved, and if so, what are they?

    The Administration's proposed detection and warning system is 
essential for issuance of world wide warnings about large distant 
(trans-oceanic) tsunami. The Administration's proposal may be more 
technically robust, and perhaps more cost effective, if the 
probabilities of various tsunami sources were fully evaluated prior to 
final buoy siting. This inexpensive initial research would enable NOAA 
to place the buoy detectors in optimal locations to effectively 
minimize population exposure to potential tsunami threats. It may 
result that fewer buoys than are currently being proposed would be 
required. NOAA or the National Academy of Science could sponsor a panel 
of experts to review the final buoy site recommendations.
    It is critical to note that the current buoy network and 
Administration's ocean-wide buoy program would do little to nothing to 
limit loss of life in coastal areas that are right next to tsunami-
generating earthquakes faults. Travel time from the Cascadia earthquake 
source to the U.S. west coast is too short for the proposed system to 
operate effectively. In fact, the existing buoys are designed and 
located to only detect and measure outgoing tsunami.
    Oregon communities at the coastline have 10 to 30 minutes to react 
and evacuate following a probable magnitude 9 Cascadia Subduction Zone 
earthquake. The most cost-effective means of limiting loss of life from 
locally produced tsunamis is mapping where the dangerous areas are and 
then implementing a long-term, relentless public education campaign 
aimed at developing the ``culture of awareness'' that will cause people 
to leave these dangerous areas when they feel a large earthquake at the 
coast. Empowering local government and the coastal states to implement 
this work is the most effective means of solving the problem.
    Financial and scientific support should also be dedicated to 
develop innovative new warning technologies able to detect and warn of 
locally produced tsunamis from submarine landslides and from ``silent'' 
or ``slow'' earthquakes that result little or no shaking. Educating 
people to respond when the Earth shakes does not work for these events. 
Complementary to developing these new warning technologies is the 
requirement to conduct a geological assessment of the potential for 
these types of tsunami-generating sources on the U.S. coastline. These 
assessments could be completed via cooperative applied research 
projects performed by State geologic surveys and funded by the U.S. 
Geological Survey.

Conclusion

    I have just returned from the 1st International Conference on Urban 
Disaster Reduction in Kobe, Japan and participated in two days of work 
sessions with my tsunami program counter parts from Japan. Our joint 
recommendations focused on the need to increase our level of confidence 
in the technology we rely on, translate more research into direct 
application, and increase our investment in the ``culture of 
awareness.'' Considering the history of Japan's tsunami 
countermeasures, it is validating to see we have universal concerns 
about our respective societies' needed direction for higher safety.
    The proposed increase in tsunami buoys, coupled with an expanded 
seismic monitoring network will greatly enhance our nations ability to 
detect and warn of potential distant tsunami strikes. But the NOAA DART 
buoy network does not provide adequate warning time for near shore 
tsunami. In fact, it is critical not to rely on their warning in the 
event of a near shore earthquake, since so little time is available for 
evacuation.
    Please understand that supporting each of the Pacific state's 
tsunami programs is the most effective way to build the ``culture of 
awareness'' necessary for prompt evacuation before local tsunami and 
for the notification infrastructure necessary to deliver warnings of 
approaching distant tsunami.
    Thank you.
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                        Biography for Jay Wilson

Work experience

        <bullet>  Earthquake and Tsunami Programs Coordinator with 
        Oregon Emergency Management since July 2004;

        <bullet>  Employed as FEMA reservist for five years, conducting 
        Community Education and Outreach support for Hazard Mitigation 
        Programs;

                <bullet>  Region X, Bothell, Washington--1.5 years

                <bullet> Region IX, San Francisco, California--3 years

        <bullet>  Worked as program coordinator and public affairs 
        assistant for earthquake safety

                <bullet>  City of Oakland, California--2 years

                <bullet>  City of Berkeley, California--1 year

Education

M.A. in Geography, San Francisco State University

B.A. in Film, San Francisco State University

                               Discussion

    Chairman Boehlert. Thank you very much, Mr. Wilson.
    For Dr. Groat and General Johnson, testimony indicated that 
there is as much as a 20 percent chance of an earthquake as 
large as last month's occurring on the Pacific Northwest coast 
of the U.S. within the next 50 years. Does the Pacific coast of 
the U.S. face a greater risk from tsunami generated right off 
shore, for example, the Cascadia subduction zone, or from those 
generated from farther away? If the greater danger is closer to 
shore, to what extent will the expanded detection system the 
Administration is proposing be of assistance?
    Dr. Groat.
    Dr. Groat. Chairman, from a seismic hazard point of view, 
the threat of a very large earthquake of the kind that you 
described close to shore and that Mr. Wilson was concerned 
about how we deal with the impacts of that is probably at least 
as likely as something generated further away that would come 
in at great distances. That is a very tectonically active part 
of the plate system. And as far as the U.S. is concerned, with 
the exception of a smaller area in the Caribbean, is the area 
we need to be the most concerned about, so I don't think we can 
afford to put all our eggs in any one basket. We have to be 
worried about the long-term--long-distance tsunamis that the 
NOAA system is intended to provide warnings about and find 
measures, as Mr. Wilson described, to deal with the very real 
likelihood that a large earthquake on the plate boundary will 
happen within a foreseeable time and to provide the adequate 
measures to respond to that.
    Chairman Boehlert. So the sophisticated technology that we 
have all be talking about wouldn't have time to be operative 
there. You have got to have a good education system, which 
speaks to the nature for a comprehensive system, not just buoys 
some place out there in the Pacific or down in the Caribbean, 
but we have got to have a good education system so that the 
Tilly's of the world can see something and understand what is 
happening.
    General Johnson, do you want to address that?
    Brigadier General Johnson. Yes, sir. I agree 100 percent. 
When you have the earthquake trigger, the tsunami wave is 
generated and goes both ways. And if it is right off your 
coast, it comes towards your coast, and you have those precious 
minutes with which to react. That is why I agree that an 
education program has to be part of a comprehensive, end-to-end 
system. If you buy a buoy, you have got a buoy. If you buy a 
system, an end-to-end system, you have education that will 
enable people to react in those precious early minutes.
    Chairman Boehlert. And why does just about all of the 
resources go to buoys? I mean, if I see one deficiency, and I 
don't want to say a deficiency, but I think there should be 
some more emphasis in a comprehensive plan on education than 
there is. We applaud the emphasis on technology. You might 
expect that from this Science Committee, and that is critically 
important. But there has to be something more in the area of 
education, as Mr. Wilson points out.
    Brigadier General Johnson. Sir, I agree that education is a 
very important part, but you will note that water is a very 
efficient transmitter of energy. And the tsunami-generation 
zones are the Pacific Rim in its entirety. And we are, in fact, 
part of the entire planet, and the things that happen over 
there can affect us here. So having sensor systems over there 
as well as here make us part of a comprehensive, worldwide 
program. We also need to pay attention to the Atlantic and the 
Caribbean as well.
    Chairman Boehlert. So------
    Brigadier General Johnson. It is a smaller probability of 
occurrence, but with potentially devastating consequences.
    Chairman Boehlert. Well, could either of you, then, shed 
some light on what the plan is in education? Is there 
sufficient evidence to indicate that we are giving it the 
proper attention?
    Brigadier General Johnson. I think that a lot of people--
sir, I will take it first, if that is okay. I think a lot of 
people have tsunamis in the middle of their cross-check right 
now. My concern is, as time goes on, people will lose that 
awareness. I think we need to codify the National Tsunami 
Hazard Mitigation Program, get the hazard inundation mapping 
accomplished so we know where we can go when we decide to 
evacuate. We need to build the systems now to enable us to 
detect those trigger events and tell people that they do need 
to evacuate. We need to be able to communicate that to people. 
And if it happens on the Cascadia fault zone, it is very 
probable, Mr. Chairman, that a lot of the infrastructure that 
we are depending on could be adversely impacted by the 
earthquake itself. I mean, the radio towers and those kinds of 
things that would help us disseminate those words may or may 
not be operational at that point. But I think a comprehensive 
system that includes the readiness program is certainly part of 
a prudent system that this nation ought to adopt.
    Chairman Boehlert. The plan advanced thus far, and I--once 
again, let me say I applaud the Administration for its 
initiative. And we are going to be fully supportive and then 
some.
    Brigadier General Johnson. Yes, sir.
    Chairman Boehlert. But how about education? In general, 
what amount of those resources------
    Brigadier General Johnson. I have got $1.5 million in the 
proposal to cover inundation mapping, the TsunamiReady Program 
and outreach. Sir, this is a level of effort thing. If 
additional dollars are available, we could do additional 
mapping and have a greater level------
    Chairman Boehlert. Does that pass the test of adequacy? 
$1.5 million in this town is tip money. I mean, I don't mean to 
pose as a big spender, and you know, the heck with what anybody 
else says, you are going to deal with this program, because it 
is in my zone of interest and you are going to provide some 
adequacy in funding, but $1.5 million?
    Brigadier General Johnson. $1.5 million in 2007 and then $1 
million sustained through the outyears, sir. That is the 
current proposal.
    Chairman Boehlert. Okay. Well, maybe we can take the 
current proposal------
    Brigadier General Johnson. I am sorry. I misstated. That is 
2005 and 2006 and then 2007 and beyond would be the $1 million 
sustained.
    Chairman Boehlert. Dr. Groat, do you want to add something?
    Dr. Groat. Yeah. I think Mr. Wilson made an eloquent case 
for the most effective way to educate people in areas at risk, 
and that is by providing State and local governments with the 
resources necessary to do exactly the kind of work that he 
outlined. The Federal Government can play a role in getting 
those funds to the right people. The actual education effort 
comes best from those who are in the affected areas, and it is 
our responsibility, I think, to make sure that the resources 
and the technical information that they need to make those 
plans is available, because they are the continuity. They are 
the ones who keep things moving. The difficulty with natural 
hazards is we forget between events. And the------
    Chairman Boehlert. We really have 15 communities that are 
TsunamiReady------
    Dr. Groat. Exactly.
    Chairman Boehlert.--and that are certified, and in all 
fairness to people at State and local government, they say we 
keep getting these instructions, mandates, if you will, from 
Washington, and they are--in our light and self-interest to 
address them, but where are we going to get the resources?
    Dr. Groat. The resources are critical, Mr. Chairman. There 
is no question. And unless the emphasis is put on those 
resources that go for that purpose, it is going to be difficult 
to do, because they are as resource-dependent as the rest of us 
are, and Mr. Wilson may have some thoughts about the best way 
to make that happen.
    Mr. Wilson. Thank you, Dr. Groat.
    Mr. Chairman, we are currently embarking on a pilot program 
in the city of Seaside, Oregon, and it is a new approach that 
we are trying to do, public--community outreach at a very grass 
roots level. We have gotten funding through the National 
Tsunami Hazard Mitigation Program and FEMA to hire a person who 
is working a little over half-time as an on-the-ground 
coordinator. We are doing surveys before and after an outreach 
program that we are conducting to try and assess just how 
effective our messaging and outreach capacity is to try and 
develop a more model approach for other communities on the 
coast. But I think what we are finding in this particular 
program, this pilot program, is the outreach tools that we have 
in place are effective, but what we don't have is the person on 
the ground to do the face time with the local community, 
someone who is there, someone who can basically do a block-by-
block type awareness campaign. I think, you know, there is a 
lot that comes out of the national funding that promotes the 
warning system and even the infrastructure for disseminating an 
alert, but it is really on the ground that people have to know 
what to do. They have to rehearse these drills during the 
daytime so at 2:00 in the morning, at night, they know where 
they need to go. There is so much that we try to help our 
locals with on the ground and they all have limited resources.
    Chairman Boehlert. My time is expired, and I want to try to 
stick to the time limits so we give everyone an opportunity to 
ask questions.
    We will go to Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman.
    As usual, I think you and I are headed pretty much in the 
same direction. As I said earlier in my statement, I support 
the goal of this program, and I also want to applaud the 
swiftness with which the Administration has brought this to us. 
But I have got two concerns about the proposed budget. First, 
we have had--little information has been provided about the 
funds needed to sustain a functional, end-to-end Tsunami 
Warning System once it is built. And second, what are the 
offsets for the additional spending in the President's 
proposal? Dr. Orcutt and Dr. Lerner-Lam both expressed a 
concern about sustainability of funds for annual operation and 
maintenance costs of the system. And additionally, Dr. Orcutt 
indicated a current operation and maintenance shortfall of the 
GS network of about $5 million. So Dr. Groat and General 
Johnson, what are your estimates of the annual operation and 
maintenance of the system? And when I say that, I don't--I am 
not trying to get you in trouble, but what I would like to do 
is ask you, you know, what is a realistic budget, not what it 
has been budgeted? And I say that because if we are to seek 
additional funds, we would like to do this in an informed way.
    Dr. Groat. Speaking on behalf of the seismic network, as 
Dr. Orcutt mentioned, there is a need for investment in 
additional instrumentation. But as you have pointed out, the 
need to maintain that instrumentation and keep it current is 
extremely high to keep it up and keep it operating.
    Mr. Gordon. Yeah, we have got three that aren't working 
right now in the--you know, so------
    Dr. Groat. In the buoy system, but------
    Mr. Gordon. So correct------
    Dr. Groat.--we have similar problems with our seismometers.
    Mr. Gordon. Yeah.
    Dr. Groat. They do go down, and we have to maintain those, 
and those of us that operate those systems, both the University 
of California, San Diego, and USGS have difficulty in lean 
budget years keeping the funds to maintain the systems 
adequate. I am encouraged, though, Mr. Gordon, in what we know 
up to this point about the President's proposal for keeping the 
system fed with funds to maintain the system we have designed 
in the outyears, 2006 and beyond. Unless we are surprised, I 
think there will be a recognition that that kind of funding is 
needed and that we will receive the money necessary to maintain 
the system that we have implemented. And you asked------
    Mr. Gordon. I am sorry. I mean, are you--did you say that 
you think that there is an adequate amount being budgeted now 
or that you think it will be recognized later and more will be 
added? I didn't------
    Dr. Groat. No, I think that there is an adequate amount 
being budgeted now for 2006, 2007, and beyond to maintain the 
kind of system that we have described, the incremental addition 
to it and then the maintenance necessary to make sure that 
system is functioning in the future. Now does it solve all of 
our delayed maintenance kinds of problems and so forth? Not 
necessarily. But unlike some immediate responses to significant 
events like this where there is a big spike in funding and then 
nothing in the future, and then we do have the very problems 
you described, there is the recognition that those funds to 
maintain the system are necessary. There is the budgeting of 
those funds, and we are comfortable that we have taken a major 
step in making sure that happens.
    Mr. Gordon. And is that both from mapping and public 
education rather than just for maintenance of the network?
    Dr. Groat. In our case, it is principally for maintaining 
the upgraded system at the National Earthquake Information 
Center. It provides some funds to continue the mapping efforts. 
It provides some funds to maintain the system that we have now 
in place.
    Mr. Gordon. Some funds or adequate funds?
    Dr. Groat. I think, Mr. Gordon, that they are adequate 
funds at the level that the system is being deployed. Now I 
could make some arguments that we need a broader system and a 
more dense system, particularly in the case of something like 
the Advanced National Seismic System, and in that case, any 
surge of funds to build the instruments, put the instruments in 
place, would need to be matched with additional funds for 
maintenance. We have not requested, nor are we anticipating 
receiving, that level of funding at this time.
    Mr. Gordon. Okay. And I am concerned that--on a couple 
things. One, that you apparently don't have adequate funds now 
for maintenance or you would be--when I say doing a better job, 
I mean, I don't--I am not trying to--you can only do what you 
have funds for. But it apparently is not being adequately 
performed now. And I am concerned about that. I am also 
concerned about is this going to result in additional offsets? 
You know, for example, with the tornado warning system now, I 
mean, I think there are some technologies out there that you 
know about that if it was brought on board, it would give us a 
better system for technology. But you can't afford to do that. 
So you know, are we just making a difficult and inadequate 
budget worse with this?
    Dr. Groat. Well, let me--I will turn it over to General 
Johnson in just a second for the NOAA's point of view. From our 
point of view, with the seismic system, the interpretation of 
data, the dissemination of data, the increased funds to do that 
more adequately and to maintain that, we don't anticipate at 
this time that we will have to offset other programs to make 
that happen.
    Mr. Gordon. Good.
    Brigadier General Johnson. With regard to NOAA and the 
sustaining of the buoy and tide gauge network as well as the 
inundation mapping, we have programmed money to acquire them 
using the 2005 supplemental and the 2006 President's budget 
top-line increase. For the 2007 to 2011 time frame, NOAA is 
going through that budget process right now. I have got 
commitments from Admiral Lautenbacher to address the tsunami 
tail to sustain that. I have already highlighted to him that it 
is $3.75 million for the buoys, a quarter of a million dollars 
for the tide gauges and ongoing------
    Chairman Boehlert. $3.75 million for the buoys?
    Brigadier General Johnson. Yes, sir.
    Chairman Boehlert. For acquiring new ones?
    Brigadier General Johnson. No, sir; to maintain the--a 25 
array--25 buoy array in the Pacific, which will be installed in 
the beginning of 2007.
    Chairman Boehlert. What we have right now, if I may------
    Brigadier General Johnson. We have six right now.
    Chairman Boehlert. We have six buoys------
    Brigadier General Johnson. Yes, sir.
    Chairman Boehlert.--in the Pacific. Now three of them are 
not operative.
    Brigadier General Johnson. Right.
    Chairman Boehlert. Now I am a baseball fan. If you bat 
0.500 in baseball, you are doing pretty good. There is a little 
place in my District called Cooperstown where I can get you 
admission if you bat 0.500. But when only three of six are 
working--functioning properly right now in a warning detection 
system, that doesn't get you in anybody's hall of fame.
    Brigadier General Johnson. Yes, sir. They are the first six 
going to an eventual 29-buoy array. They are transitioning from 
the research and development phase into operations. And you are 
right; we have three of them that are down right now. Can I 
have back-up slide 11?
    Mr. Gordon. And I assume they are down because the money to 
have the ship time to go out and take care of them?
    Brigadier General Johnson. No, sir.
    Mr. Gordon. Okay.
    Brigadier General Johnson. Some of the problem revolves 
around having a--we had one buoy that had a battery problem out 
here, and when we went out to service it and pick it up, the 
cavity in the buoy had an over-pressure indication and we had a 
little explosion on the buoy. We are in the process--we had a 
safety stand-down. We modified the six other buoys to have a 
pressure-relief valve in. We also came across some water 
intrusion into cabling on the new buoys and are in the process 
of upgrading cables. That is this damage right here. And then 
people from that part of the Pacific will tell you that from 
about November to about March, weather is definitely a hazard. 
And to bear that out, in December, we went out to service a 
buoy in conditions that were marginal. We were--we felt the 
need to pursue that before this event happened. We were out 
there to service it and actually dinged one of the buoys 
because of the condition of the seas. So NOAA is not sitting 
back. You know, we are actively trying to transition these into 
operations and build the redundancy that was brought up earlier 
in those areas where weather is going to be a consistent 
factor.
    Mr. Gordon. Thank you. I guess--do any other witnesses want 
to make a quick, very quick comment on any concerns about any 
cannibalizing of other programs in terms of being adequately 
able to do the operation and maintenance with the funds 
proposed?
    Dr. Orcutt. I might just comment briefly. The part of the 
world that Eddie Bernard here is working in at the moment is 
one of the worst possible places to try to do this job. The 
weather is terrible there almost all of the time, and to ask 
these--it is asking a great deal of these small buoys to 
perform at 100 percent of the time, so the weather is certainly 
something that has a great deal going against you in that 
environment. But the issue is whether there are sufficient 
funds in the long-term. And in a way, we can't answer that 
after fiscal year 2007, but the costs are significant. You can 
replace the capitol investment in a matter of a few years, 
because of the maintenance required.
    Brigadier General Johnson. May I make one additional point, 
Mr. Chairman?
    Chairman Boehlert. Sure, General.
    Brigadier General Johnson. The current buoys are kind of 
the first generation, and we envision deploying a second 
generation that will enable two-way communication, include some 
of these reliability and maintaining improvements that Dr. 
Bernard's great design, that has already proven its worth. So 
when we build the new system, it should be a much better system 
that has the built-in redundancy. Thank you.
    Chairman Boehlert. Thank you.
    Ms. Biggert.
    Ms. Biggert. Thank you, Mr. Chairman.
    General Johnson, and you would probably say that the 
problem with the buoys could be with the contractor, with the 
technology, and with funding? All three of those together?
    Brigadier General Johnson. I think that NOAA experiences 
challenges when we transition good ideas from research and 
development into things that are going to be operationalized 
and, you know, routinely counted on for long periods of time. 
You know, in a perfect world, we would be able to service the 
buoys once a year and be done with it and have nothing go 
wrong. And with the next generation buoy, we are looking at 
having some built-in test indicators into it, some additional 
redundancies, and those kinds of things.
    Ms. Biggert. Thank you.
    Let me then just move to another question. On December 26, 
I think it was reported that two U.S. Tsunami Warning Centers 
knew of the high likelihood that a tsunami had been generated, 
given the magnitude of the earthquake. Why wasn't that reported 
immediately to the State Department or someone that could do 
something to inform them so that other nations would know that 
they were in danger?
    Brigadier General Johnson. The Pacific Tsunami Warning 
System worked as it was designed, which was to alert the 26 
member nations of that consortium of the possible impact. Now 
the Pacific Tsunami Warning Center is right there in Hawaii, 
and they also--when they became aware that there was a tsunami 
wave associated with the earthquake, did take steps to do 
additional notification. I would hasten to point out that many 
times significant earthquakes do not generate tsunamis. That is 
one of the reasons we need to do some more modeling effort and 
work with our colleagues over at USGS the why-fors and the how-
comes there. But at the time, ma'am, when we figured out, 
through press reports, because we were blind, because we had no 
sensors in the Indian Ocean, there is no possibility of knowing 
at that point whether the wave was associated with a big 
earthquake or not, it was already past Indonesia and Thailand 
and Sri Lanka and was affecting the east coast of India. And 
the next big landfall was Diego Garcia, and the Center did, in 
fact, call Diego Garcia. The Pacific fleet has significant 
presence in and around Diego Garcia, and we did have 
consultations with the State Department Operations Center for 
Madagascar, and we have instituted and codified that procedure 
so that now, whenever that happens, we are notifying the State 
Department, and we are also putting out notification through 
the standard World Meteorological Organization weather channels 
that are well established to the countries.
    Ms. Biggert. Let me, maybe, ask the panel what are greatest 
challenges to establishing a global Tsunami Warning System. And 
what role should the U.S. play? And does the Administration's 
plan accomplish that role?
    Dr. Groat. Let me just take a quick shot. And I think the 
GEOSS process was mentioned, the Global Earth Observing System 
of Systems in which the U.S. and 55--54 other nations play a 
significant role. I think the Administration sees that 
organization, which, as was pointed out, meets in Brussels on 
the 16th of February, as the place to bring the international 
community together to design, perhaps, its first truly global 
system that meets societal needs, which is what the intent of 
that whole program is. And the U.S. role in that, Admiral 
Lautenbacher is one of the four co-chairs, would be to provide 
some of the leadership in the technology and in the application 
of that technology. But as you might expect, as a result of the 
event on December 26, international groups all over the world 
are coming together. There was a meeting in Beijing just 
recently, and there is another one in Thailand in a week or so, 
to talk about how they, in their regions, can do this. The real 
challenge is going to be to turn this into a true system of 
systems so that warnings are spread around to the people that 
need them in an effective way, rather than in a fragmented sort 
of way. So I think the GEOSS approach, which brings the whole 
community together, is the real opportunity to bind these 
systems in truly a system that works for everybody.
    Ms. Biggert. Thank you.
    Would anybody else like to comment?
    Dr. Lerner-Lam. I will simply add that I agree with those 
comments, but in my mind, in terms of a global warning system, 
local engagement is, perhaps, the least understood component of 
this. What do we do with the warning once it is issued? I think 
some of the technical and research problems are well on their 
way to solution. I would merely add that end-to-end, however, 
includes everything from the basic research of these great, 
giant events through the operational component, all of the way 
to the local engagement. We have seen some testimony about how 
that might occur in the United States. A coordinated 
international plan, however, is lacking.
    Ms. Biggert. Mr. Wilson.
    Mr. Wilson. I just have a quick addition to that. One of 
the things that we are really working on in the--on the Oregon 
coast is notification to visitors, to tourists. The 
vulnerability of the tourists in Thailand was a good example of 
how people who were on vacation who are not a part of the local 
culture are not thinking about their surroundings. In terms of 
evacuation in areas that are tourist areas, vertical evacuation 
versus inland evacuation is something that is being researched 
and considered. The types of structures that could survive a 
local magnitude 9 earthquake and then still be able to provide 
vertical evacuation for seniors, for the disabled, the people 
who can not get out of harms way with a limited evacuation 
time. I would just say that for a larger, more comprehensive 
tsunami system, this is also something that needs to be 
considered.
    Chairman Boehlert. General Johnson.
    Ms. Biggert. Yes, General?
    Brigadier General Johnson. Dr. Lerner-Lam's chart of 
mortality due to severe environmental effects was telling. The 
United States was a conspicuously non-shaded area. We, on 
average, experience 10,000 severe thunderstorms a year, over 
1,000 tornadoes. We set a new record this year for 1,700 
tornadoes, and we usually experience about six hurricanes a 
year.
    Ms. Biggert. It made flying to Washington very difficult 
sometimes. Yes.
    Brigadier General Johnson. Yes, ma'am. And for that, I 
apologize, on behalf of the Lord.
    However, the reason that is an unshaded area is because we 
have an integrated data-sharing system between all of the 
different sensor networks, not only for tsunamis, but for 
weather events, and this is the kind of benefit that our planet 
needs. The GEOSS is the tool to address not only tsunamis, but 
severe weather and environmental effects worldwide and we have 
got a wonderful opportunity with the attention of the world 
focused right now to capitalize on this opportunity. Thanks.
    Ms. Biggert. Thank you. Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you.
    General Johnson, just out of curiosity, going back through 
recorded history, is there any time when an earthquake of the 
magnitude of this one, 9.0 on the Richter scale, did not cause 
a tsunami? Not all earthquakes cause tsunami. You know, it 
depends on the magnitude. But has there ever been any point in 
history when something of this magnitude failed to result in--
----
    Brigadier General Johnson. Yeah. I think USGS has some 
examples of things that happened just weeks before the tsunami 
event. But it is very complicated. You know, you have to be off 
the coast. It needs to be in the water. Usually, it is created 
because of that up-thrust in the subduction zone or maybe a 
meteorite or maybe a landslide, that kind of a thing.
    Chairman Boehlert. But a 9.0--I mean, the simple answer to 
my question is yes, depending on the circumstances, or------
    Dr. Groat. I think if there were a 9 earthquake of the 
mechanical type that General Johnson mentioned with the 
thrusting in an ocean basin margin, the likelihood is almost 
1:1 that it would generate a tsunami. Part of our record in the 
past, while through mapping of deposits on coasts that--where 
tsunamis have brought those deposits on the shoreline, is that 
we don't have the comparable record of the exact earthquake 
event that caused it and therefore don't know the magnitude. So 
there is not necessarily something magic about 9. It could be a 
smaller earthquake. I mean, 8s or 7.5s could possibly generate 
tsunamis of significance.
    Chairman Boehlert. When did we know it was 9?
    Dr. Groat. When?
    Chairman Boehlert. Yeah.
    Dr. Groat. It took a while, because, again, back to our 
seismic station density, it--certain waves--the surface waves 
have to get to you to do the kind of analysis that is needed to 
make the intensity.
    Chairman Boehlert. Minutes? Hours?
    Dr. Groat. Hours, in some cases. We get the early waves, 
and we get a preliminary analysis, and we generate it in an 
assumption that it was in the neighborhood of an 8. It wasn't 
until the surface waves arrived at enough stations that we 
could interpret data, which was a matter of at least an hour, 
wasn't it Dave?
    Brigadier General Johnson. It was an hour and five 
minutes------
    Dr. Groat. An hour and five minutes.
    Brigadier General Johnson.--later, Mr. Chairman.
    Dr. Groat. That we knew that it was a 9.
    Chairman Boehlert. And when--I don't------
    Brigadier General Johnson. 8.5, yeah. We updated it, and it 
was actually academic institutions and much later that it 
turned out to be 9.
    Chairman Boehlert. I can understand what was happening and 
maybe a lot of people doing a lot of things, but why seven 
hours to notification of the State Department?
    Brigadier General Johnson. Sir, it was a long time before 
we had high confidence that there was a wave associated with 
it.
    Chairman Boehlert. So you didn't want to give a false 
alarm, because you don't------
    Brigadier General Johnson. We experienced--from the 
formation of the Pacific Tsunami Warning Center in 1949, we had 
a 75 percent false alarm rate. After the inception of the buoy 
system, we have a very small sample size, but we don't have a 
false alarm rate to date. Yes, sir, there is a high probability 
that there is a tsunami wave associated with an earthquake of 
that magnitude, but it isn't a complete certainty. I think my 
guys were waiting to get some indications of that fact.
    Dr. Groat. Just to point out, Mr. Chairman, that certain 
types of earthquakes that are generated by slippage this way 
can be very large, can be 8s or so, in coastal areas and don't 
generate tsunamis. So we really do have to have that complete 
analysis of data that is enhanced by a more dense system, more 
real-time data, to provide that kind of information that it is 
or isn't tsunamigenic as quickly as possible.
    Chairman Boehlert. Which argues for more investment in 
technology?
    Dr. Groat. It does in that case, yes, sir.
    Chairman Boehlert. Mr. Wu.
    Mr. Wu. Thank you, Mr. Chairman.
    I would like to follow up on some of your questions and the 
Ranking Member's questions.
    I have great respect for the professionalism of all of your 
people, but I have to ask the obvious question that--the fact 
that this earthquake occurred at roughly 8:00 p.m. Eastern 
Standard Time on Christmas Day, did that have anything to do 
with slowing down the notification process?
    Brigadier General Johnson. Sir, I was very lucky. I had a 
very dedicated guy who was in the office at 3:00 p.m. Honolulu 
time, or 2:59, and that is why we were able to get the message 
out to the member countries as quickly as we did. It was 3 
minutes before he got the initial message out after his 
notification. So it was very, very timely. Now with the 
proposal that the Administration has made, we increased to 24/
7. We are not 24/7 right now. We are one shift during the day, 
and then we have got beepers on people, and I have kind of set 
up a 5-minute response time to get in the office and be able to 
send the pre-loaded messages, if an event happens. But we are 
taking this opportunity in funding to remedy that situation, 
sir.
    Mr. Wu. Does anyone else have anything to add to that?
    Dr. Orcutt. I would just like to comment. It has been 
mentioned a bit before, but I think today it is possible to 
bring an awful lot of this together more closely using modern 
information technology to do these things. One of the reasons 
for recommending satellite telemetry is so that the latency in 
the delivery of data to the NEIC, for example, is in the order 
of a few seconds. That kind of latency ought to also 
characterize communications with the Center and NOAA, with many 
people, including academia that are also involved in these 
things. The magnitude 9 did come from an analysis, in fact, I 
believe at Harvard. These things ought to be linked more 
closely together to reduce that length of time that we have 
here of an hour or an hour and a quarter for notification to 
something that is on the order of substantially less than an 
hour. That--more seismic stations can mean you might be able to 
get this job done in 15 minutes, but that is in a very, very 
ideal sort of world. But the GEOSS, that was mentioned, is a 
good way to coordinate this effort internationally.
    Mr. Wu. Well, thank you very much. And I want to jump very 
quickly to a different topic, because I would like to get two 
questions in.
    And one is to follow up on the set of questions earlier 
from both the Ranking Member and the Chairman about the 
appropriate balance between education and investments in new 
technology. Mr. Wilson, General Johnson, and Dr. Groat, one of 
the biggest threats to our country in terms of tsunami threat 
is off the shore of Oregon and Washington. The subduction fault 
is very close at hand. And while I completely agree with 
General Johnson's comment that we should be part of a worldwide 
integrated system, and that is absolutely crucial, I am 
concerned that we have an appropriate balance between education 
of folks on the west coast so that they can react to an 
immediate event as opposed to giving, say, the Japanese warning 
of a 10-foot wave nine hours later, and, you know, a 50-foot 
wave coming up on the Oregon shores within 10 minutes for 
parochial reasons, if no other. You know, I am very concerned 
about that. Can you all address the appropriate balance in our 
budget between the investments in buoys and technology and 
electronic warning systems and sort of sometimes the harder to 
defend and harder to get dollars, if you will, for ``soft 
things'', like education, which may prove absolutely crucial 
when you have only got 10 minutes from the event to water 
coming on shore.
    Mr. Wilson. I would just like to respond to that, Member 
Wu, because since I have been in this position, I have had to 
deal with the concern for false alarms along the coastline, 
too. And because we communicate that when people feel localized 
earthquakes along the coast, like a pair of earthquakes that 
were off shore this past summer along the Oregon coast, I had 
people in a small town of Waldport, at 11:00 p.m., when they 
felt a magnitude 4.5, you know, running out of their house, 
because they were afraid that this was it. And you know, the 
ability to get an all-clear transmitted to people so that they 
understand that this was--they had--they responded correctly, 
but this isn't a tsunami-producing earthquake. That is still a 
level of technology and a level of confidence that we need to 
work on for delivery to the people. It is the opposite end of 
giving them an accurate warning. We also need to be able to 
give them an accurate all-clear.
    Brigadier General Johnson. I appreciate the question 
because it allows me the opportunity to fix something. The 
numbers of $1.5 million I spoke earlier were specifically for 
just the Pacific side. On the Atlantic/Caribbean/Gulf side, we 
have additional dollars, so the total, Mr. Chairman, is $2.75 
million in 2005 and $2.5 million and then straight-lined 
through the outyears for education, inundation, mapping, 
modeling efforts, and the very important education outreach.
    Mr. Wu. And Mr. Chairman, if you could indulge me one last 
question. I think it is------
    Chairman Boehlert. I would be pleased to indulge my 
distinguished colleague.
    Mr. Wu. Thank you very much, Mr. Chairman.
    This is of great importance to, I think, everybody on the 
West Coast, and I take a great interest in it as I spend a lot 
of time in the coastal parts of my Congressional District. I 
was watching--I was looking at those inundation maps. And if I 
am just driving along Highway 101 and something big happens, 
how high do I have to get, how high do my constituents have to 
get, how far inland do they have to get? That is something I 
have never quite known.
    Mr. Wilson. Well, that certain level of responsiveness is 
different in nearly every locality there based on the off shore 
topography, the local topography, the directionality. It really 
emphasizes why the site-specific modeling has to be done. We 
can't just go down the coast and draw a line at a 50-foot 
contour with any accuracy that--as we have seen and we are just 
learning, there were areas in there that exceeded that. So we 
are still trying to make our evacuation mapping as accurate as 
possible for people. We would hate to tell people they only 
have to go to 50 feet when, in fact, it may be worse than that.
    Mr. Wu. More research to be done?
    Mr. Wilson. More research.
    Brigadier General Johnson. And additionally, you don't get 
one wave. You get multiple successive waves. So--and this is at 
a time where communication infrastructure may be damaged, so 
this awareness issue that the emergency managers bring to the 
end-to-end system is crucial, because you need to know when you 
can go back, because as we saw in this event, sir, there was 
about an hour of spacing in between and five huge waves--and is 
that the last one? How do you know?
    Chairman Boehlert. Mr. McCaul.
    Mr. Wu. Thank you very much, Mr. Chairman.
    Mr. McCaul. Thank you, Mr. Chairman. Thank you, 
distinguished panelists. I had a question about the--for Dr. 
Groat and General Johnson with respect to the $37 million the 
Administration has proposed. Can you, in a very general sense, 
tell me where that money is allocated with respect to the 
warning detection system, both to protect the United States but 
also in a global sense? We talked a lot about GEOSS. Is any of 
that money going towards a global warning system?
    Dr. Groat. From the seismic aspect of this, a small amount 
is going to the global perspective in that we intend to bring 
from 80 percent to 100 percent the real-time transmission of 
earthquake information from the global network. The--and also 
the money that is being put towards upgrading our National 
Earthquake Information Center to bring modern hardware and 
software there to enhance the processing of both global and 
domestic seismic information will have the dual benefit of 
helping the United States in both earthquakes and tsunami 
concerns, but also that information would be available, on a 
global sense, shared with others. So it has that dual role. And 
as far as the maintenance support for that system as well as 
for the global seismic network, particularly including the 
Caribbean, that again has some global aspects, but it benefits 
chiefly the United States and its interests. So our focus is on 
the United States, but in upgrading the Global Seismic 
Network's real-time capability and the processing of data from 
that, it will have some global impacts that are positive as 
well.
    Mr. McCaul. Okay.
    Brigadier General Johnson. I view this as a two-tier 
approach. One is taking care of national concerns and then the 
other is applicability into sharing into the larger Global 
Earth Observation System of Systems where 100 percent of it 
goes towards protecting U.S. Coasts.
    Mr. McCaul. Okay.
    Brigadier General Johnson. It allows you to characterize 
the extent of the wave, the height of the wave, the propagation 
of the wave as it transfers up the coast, up towards the 
Aleutians, if it were to happen at the Cascadia and elsewhere 
into Hawaii, into American--you know, into our obligations. And 
because we need to defend America's--or be able to detect it on 
all of our coastlines, it allows us--as a byproduct, but it 
allows us to share that data, as Dr. Groat says, with the rest 
of the world, and we benefit from them. The tsunami that 
happened off of Sumatra, 26 hours later, gave us a 20-
centimeter rise in San Diego 26 hours later. So there is 
benefit in sharing information. Now that is not of big 
consequence, at this point, but depending on where that 
happens, it is valuable to have data shared from around the 
world, sir.
    Mr. McCaul. And my second question is what is the time 
frame for implementation? And will this be tied to a more 
comprehensive information system as a whole?
    Dr. Groat. Our pledge for implementation are--in current 
year, with supplemental funds, to do that upgrading to 24/7 to 
the hardware/software upgrade and to maintain it without your 
funds. So--and I think, as General Johnson pointed out, they 
had 2007 plan for their system implementation. So it is sooner 
than later.
    Brigadier General Johnson. Yes, sir. 2005 and 2006, I am 
viewing to have mid-2007 as the implementation for the entire 
buoy and sea tide gauge program.
    Mr. McCaul. And will that be tied to a comprehensive 
information system?
    Brigadier General Johnson. It will be linked in through the 
Centers, through the Pacific Tsunami Warning Center, and the 
backup in Alaska that are mutually redundant and then that 
information is shared out through the information grids to all 
of member countries to America, and then we will share that 
data through GEOSS to the rest of the world.
    Mr. McCaul. And lastly, for Dr. Lerner-Lam, now I come from 
a Gulf Coast State, the State of Texas. My constituents will 
want to know, you know, are we at any sort of risk, either that 
the Gulf Coast States or the Caribbean States, if you could 
maybe just highlight what risk there is, if any, of this type 
of disaster.
    Dr. Lerner-Lam. Well, you have a multiple-hazard risk. 
There is the potential for the sorts of large earthquakes, 
based on work that the U.S. Geological Survey has done, in the 
Caribbean. So certainly the Caribbean States have some history, 
both in the geologic record and the historical record of having 
tsunami risk. There is not that history in the Gulf Coast, 
however, of course, you have a meteorological hazard in the 
Gulf Coast. So one thing to emphasize is that by linking, in 
some sense, the hurricane preparedness efforts as well as the 
tsunami preparedness efforts, there may be some economies to 
scale on that point. So in the rare instance that an extreme 
event happens or a landslide off the coast happens, you could 
be prepared.
    Mr. McCaul. So in other words, a warning detection system 
would help with respect to other disasters that could occur?
    Dr. Lerner-Lam. As well, yes.
    Mr. McCaul. Okay. Thank you.
    Chairman Boehlert. Thank you very much.
    And here is the deal. We have got a series of votes on the 
Floor, and we are not going to be presumptuous enough to say 
well, you can hang around for an hour while we go over there 
and play Congresspeople, so after Ms. Jackson Lee has her one 
minute, we are going to adjourn. And thank you all very much 
for serving as resources. We will submit some questions in 
writing to you, because we would like some of your opinions. 
And General Johnson, you may be interested in an aside, because 
both the Ranking Member and I said, when you said you have got 
a five-minute response capability. How can you get there in 
five minutes? And Counsel pointed out that you have got housing 
right on--adjacent to the Center, so------
    Brigadier General Johnson. Yeah, we have got a flophouse 
that we make the guys stay in, sir.
    Mr. Wu. And Mr. Chairman, if--I would ask for unanimous 
consent that opening statements be inserted in the record.
    Chairman Boehlert. Without objection, so ordered.
    And Ms. Jackson Lee, for the final word.
    Ms. Jackson Lee. Thank you, Mr. Chairman. And thank you for 
your kindness. And this is an important hearing. I have just 
come back from the region, and I know many of you, or some of 
you, may have had, I would call it tragic, opportunity to see 
the enormous devastation and loss. Just for the record, the 
last tsunami with deaths over 60,000--over 10,000 was in 1755 
where there were 60,000 people that lost their lives. I would 
simply say, Mr. Chairman, that this tragedy cries out for 
action by the Science Committee. I think we could have done 
better, and I say this because in talking to some officials, 
there was a reach to the United States. And my understanding 
was, because there were no buoys present, that you couldn't 
detect it and therefore give notice or work. So I think we can 
do better.
    I would also offer to say to you that NASA's JASON I was 
able to detect some of the tsunami signals, if you will, but 
there is no system in place to sort of nexus or connect. I 
think that we can do better by involving NASA. It seems they 
are somewhat out of the way, if you will, but that is because 
we have new technology that you can coordinate. So I would 
simply ask that we have an opportunity for engagement, and if 
the General can answer or just say can we, General Johnson, 
look to new technologies and begin to collaborate with other 
agencies, because I, too, come from the coastal region?
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you.
    And General, we have to go, because we have to make the 
vote, and we would appreciate if you would respond in writing. 
And let me say to my distinguished colleague from Texas, that 
is the whole reason why we are here. We are determined to do 
better. They are. We are. That is what we do best. But I will 
tell you this, also, that while it is in our enlightened self 
interest to provide leadership to the world, I am a little bit 
concerned that others aren't as actively engaged as we are and, 
you know, it is not just our treasury and our technology, 
although we have got to employ everything possible, we have got 
to get some of the others. So Mr. Wilson, the Kobe conference, 
got to follow through on. Japan has got to be starting to share 
some information with us. Australia, a lot of other nations 
involved. We are all in this together, and let us do it 
together.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Chairman Boehlert. With that, the hearing is adjourned.
    [Whereupon, at 12:00 p.m., the Committee was adjourned.]

                              Appendix 1:

                              ----------                              



                   Answers to Post-Hearing Questions

Responses by Charles ``Chip'' G. Groat, Director, United States 
        Geological Survey, U.S. Department of the Interior

Q1.  Did the Administration conduct any formal or informal outside 
evaluations of its new proposal, including tsunami detection (DART) 
buoy placement, assessing other technologies, or talking with states 
and localities about their major concerns? If so, please provide 
specifics of the evaluation. If not, why not?

A1. The President has proposed that the U.S. Geological Survey (USGS) 
upgrade the USGS National Earthquake Information Center (NEIC) and the 
Global Seismographic Network (GSN), improve distribution of earthquake 
data, and undertake coastal mapping for tsunami hazard assessment.
    The NEIC upgrade and establishment of 24/7 operations are 
longstanding priorities for the Advanced National Seismic System 
(ANSS), which was authorized as part of the National Earthquake Hazards 
Reduction Program (NEHRP) in 2000 and reauthorized in 2004. These plans 
are laid out in USGS Circular 1188, which was developed in consultation 
with a broad spectrum of stakeholders and partners in government, 
academia and the private sector. The ANSS is overseen by an external 
steering committee that reports to the Scientific Earthquake Studies 
Advisory Committee.
    In the weeks following the earthquake and tsunami, USGS consulted 
with our partners in the Global Seismographic Network about priority 
needs and the best means to address those needs. We also drew on 
existing reports, for example a 1999 USGS-sponsored workshop on 
``Seismic and Tsunami Hazard in Puerto Rico and the Virgin Islands'' 
attended by international academic, local academic and governmental, 
and federal agency experts on seismic and tsunami hazard research, 
engineering, and mitigation (complete workshop proceedings are 
available at http://pubs.usgs.gov/of/of99-353/tsunamigrp.html) as well 
as a 2001 proposal for an Intra-Americas Sea Tsunami Warning System by 
the United Nations Educational, Scientific, and Cultural Organization 
(UNESCO) Intergovernmental Oceanographic Commission. USGS scientists 
were already engaged in extensive discussion of coastal mapping 
priorities with National Oceanic and Atmospheric Administration (NOAA) 
and Federal Emergency Management Agency (FEMA), discussions that 
continued with colleagues in academia and government in recent weeks.

Q2.  Do you agree with the following recommendations made by the 
hearing witnesses to improve the Administration's Tsunami Plan?

        <bullet>  More attention should be paid to education, 
        especially for tsunamis that are either generated close to 
        shore or are generated by events that cannot be felt.

A. The USGS agrees that public awareness is a critical component in any 
warning system, whether for tsunamis or other natural disasters. 
Education is a key focus of the National Tsunami Hazard Mitigation 
Program (NTHMP), which is a partnership among NOAA, USGS, FEMA, NSF, 
and the five states bordering the Pacific Ocean.

        <bullet>  Hazard mapping efforts should be expanded.

A. The President's proposal calls on USGS to undertake additional 
coastal mapping for tsunami hazard assessment. That is in addition to 
work already being done by NTHMP, which is coordinating the preparation 
of tsunami inundation maps for high-risk coastal communities in Alaska, 
California, Hawaii, Oregon, and Washington. The USGS provides valuable 
guidance in the preparation of these maps by: (1) developing high 
resolution coastal bathymetry and topography; (2) finding, analyzing 
and interpreting deposits from historic and prehistoric tsunamis to 
estimate tsunami inundation limits, flow velocities, and recurrence 
intervals; and, (3) developing hydrodynamic models and simulations of 
tsunami impacts.

        <bullet>  More money should be allocated to local warning 
        systems and research to improve them.

A. The USGS provides principal funding for regional seismic networks in 
the United States. In coastal areas with significant risk from locally 
generated tsunamis, such as the Pacific Northwest and Alaska, these 
networks receive additional support from NOAA through NTHMP. The USGS 
supports the President's proposal, which adopts a broad approach to 
improving tsunami warning systems.

        <bullet>  There should be a greater and more explicit 
        commitment to operation and maintenance cost of the buoys.

        <bullet>  Redundant buoys should be purchased and funds should 
        be allocated to developing better buoys.

        <bullet>  More work should be done on tsunami probabilities to 
        better site the buoys.

        <bullet>  The buoys should be equipped with more instruments to 
        be better integrated into NOAA and NSF research programs.

A. Because these recommendations specifically address NOAA systems, 
USGS will leave the response to this recommendation to NOAA.

        <bullet>  Tsunami efforts should be incorporated into the 
        development of a broader multi-hazard warning system.

A. The USGS supports the President's proposal that a global tsunami 
warning system should be developed in the context of the Global Earth 
Observation System of Systems (GEOSS) and it should be developed in a 
multi-hazard context to the fullest extent possible. For earthquakes, 
volcanoes and landslides, the USGS has the lead federal responsibility 
under the Disaster Relief Act (P.L. 93-288, popularly known as the 
Stafford Act), to enhance public safety and reduce losses through 
effective forecasts and warnings based on the best possible scientific 
information. For tsunami, the USGS provides real-time seismic data from 
global and regional seismic networks to NOAA, which has the 
responsibility to issue warnings through its National Weather Service 
(NWS). While NWS has the statutory responsibility for issuing flood 
watches and warnings, USGS provides real-time stream flow information 
to the NWS in support of those activities. The NWS also has 
responsibility for forecasts and warnings associated with landfall of 
hurricanes and other coastal storms. The USGS provides information 
related to the vulnerability of coastal resources and communities to 
resulting coastal change hazards. In the case of wildfires, USGS 
partners with a number of federal agency partners to monitor seasonal 
fire danger condition and provide firefighters with maps of current 
fire locations, perimeters, and potential spread.
    Effective warnings allow people to take actions that save lives, 
protect property, reduce business disruption, and speed recovery. In 
addition, prompt alerting of what is happening during and immediately 
following a natural disaster is also critical. Regardless of the type 
of hazard, effective warnings require more than the technology to 
inform the public of the hazard. Their success depends on having 
response plans in place and pre-event linkages established among 
Federal, State, and local government agencies, nongovernmental 
organizations, the private sector, and the media. It is essential that 
hazard warnings be both accurate and accurately targeted. Accordingly, 
USGS strives to obtain the best scientific understanding of hazardous 
phenomena, while also working closely with a wide range of partners to 
ensure that pre-event linkages are in place so that warnings of 
impending natural events and assessment of their impact get to the 
affected communities as rapidly as possible.
    For all natural hazards, effective warning requires an integrated 
system involving information gathering, expert evaluation, generation 
of accurate warnings, and communication to an educated and informed 
audience that is prepared to take effective action. Although the 
specific technologies for detecting earthquakes and tsunamis is largely 
unique to those hazards, the communication of the warnings derived from 
those systems take advantage of all-hazard capabilities.

        <bullet>  The Global Seismic Network should be expanded and 
        should include new kinds of equipment.

A. The USGS agrees with the need to expand and improve GSN, and the 
President's proposal provides additional funds to do just that. The 
USGS supports the incorporation of GSN into the Global Earth Observing 
System of Systems (GEOSS). The GSN is a multi-use network that supports 
earthquake monitoring, seismological research, and nuclear test 
detection. The network's equipment reflects those diverse missions. The 
USGS expects NSF to take the lead in supporting the development of new 
seismic sensor technologies.

        <bullet>  NSF funding should be provided to properly fund the 
        operation and modernization of the Global Seismic Network.

A. Inasmuch as this refers to funding by NSF, we will defer to NSF on 
this question.

        <bullet>  The Advanced National Seismic System should be 
        expanded.

A. The USGS considers ANSS to be a top priority, and the President's 
proposal to upgrade NEIC is a key component in the plans for ANSS. 
Under present funding, USGS is expanding the number of ANSS stations 
nationwide, including strong-motion sensors in the ground and in 
buildings in high-hazard urban areas. As additional resources become 
available, USGS will expand these efforts to additional high-hazard 
urban areas with an ultimate goal of 26 having sufficient station 
density to release robust shaking intensity maps and other products 
within minutes of an earthquake, providing emergency responders with 
the information they need when they need it.

Q3.  What are the biggest gaps in our scientific understanding of 
tsunamis? How should the Administration address these gaps?

A3. Scientists from USGS are currently working on all three major 
aspects of tsunami research: generation, propagation and inundation. Of 
those three, generation and inundation have the most significant gaps 
in understanding.
    Accurately characterizing an earthquake as a tsunami generator 
means getting an accurate depth, slip distribution, rupture extent, and 
other parameters. The Sumatra megaquake taught us that this is a 
challenging task in the time frame of interest for tsunami warning 
systems. We need to get the most out of the seismic data in order to 
determine whether unique aspects of tsunami-generating earthquakes can 
be distinguished, providing information that can augment the deep-sea 
buoys and tide gauges in tsunami-detection systems. In particular, we 
need to develop seismic discriminants to quickly identify ``tsunami 
earthquakes,'' anomalous earthquake that result in larger than expected 
tsunamis relative to earthquake magnitude.
    Although earthquakes cause most tsunamis, underwater landslides 
triggered by seismic or volcanic activity can produce locally 
devastating tsunamis. Greater understanding is needed on how landslides 
generate tsunamis with the goal of predicting whether a given slope 
will cause a landslide based on its geotechnical properties. Another 
challenge is better characterization of the size-frequency of 
landslides in different regions. In light of the concern about the 
potential for large tsunamis generated by volcanic collapse (for 
example in the Canary Islands or the south flank of Hawaii's Big 
Island), we need a means to verify that huge tsunami waves can be 
generated in the open ocean from measurements of the landslide source 
itself.
    A key uncertainty in preparing inundation maps is the probability 
of occurrence from a given source. Our ability to forecast impacts 
depends on improvements in modeling that draw on a robust database of 
high-quality, comprehensive field data and synthesis from a larger 
number of tsunamis with different sources (e.g., landslides, faults) in 
different settings (e.g., open ocean, fjords) to provide the basis and 
constraints for the models.
    Field observations, eyewitness reports and video footage from the 
Indian Ocean and other recent tsunamis have shown us that tsunami 
inundation is not well understood. A key gap in our scientific 
understanding of tsunamis is in how they lose energy once they hit the 
shoreline until they reach the limit of inundation. Such knowledge is 
needed to predict how far inland a tsunami will be destructive and 
deadly, and such predictions are needed to accurately determine zones 
of high tsunami risk that can be used to develop viable plans to 
minimize loss of life and property.
    Key steps to improve our understanding of inundation and better 
assist emergency managers, coastal zone planners, and the public 
include: (1) better near-<plus-minus>shore bathymetry in areas known to 
have tsunami risk; (2) more complex non-linear inundation models; and, 
(3) additional field studies of recent and ancient tsunamis to compare 
with inundation models. For the U.S., these efforts should be directed 
toward the Pacific Northwest, Caribbean, Alaska, Hawaii, Guam, and 
other U.S. Trust Territories and Possessions. Regional gaps in 
understanding include: determining the size of the largest tsunamis in 
the past several thousand years to hit each of these areas; the size of 
tsunamis generated by the Cascadia Subduction Zone off the Pacific 
Northwest every 300-900 years and the impacts of such an event on 
central and southern California; and whether the Atlantic Coast has 
ever been hit by a large tsunami.

Questions submitted by Representative Bart Gordon

Q1.  Circular No. A-ll, Part 7 requires. . .capital asset plan. . .I 
assume USGS completed the required life-cycle analysis.. . . What range 
of annual operation and maintenance costs were estimated by USGS for 
the upgraded GSN network included in the Presidents proposal and 
submitted to OMB?

A1. The Global Seismographic Network (GSN) is considered to be a 
Capital Asset of the Federal Government. Within the framework of OMB 
Circular A-11, Section 7, the GSN has been evaluated by USGS to be a 
non-major IT investment in an operational/steady state. Such an 
investment does not require a formal Capital Asset Plan (OMB Exhibit 
300). Nevertheless, USGS employs the disciplines of good project 
management for GSN, and monitors all aspects of the performance of the 
investment.
    With regard to your specific question, USGS has made (and regularly 
updates) estimates of annual and long-term operations and maintenance 
(O&M) costs, both for that portion of GSN we operate and for the 
network as a whole. The most recent comprehensive review of GSN O&M 
costs was in 2002. The review committee found that to maintain a 90 
percent level of data availability will require $82,000 per station per 
year. This includes funding for labor, travel, spare parts and 
amortization of equipment. In recent years, inflation costs have been 
offset by reduced telemetry costs and improved efficiency in station 
maintenance; this situation is reviewed annually.

Q2.  In response to my question. . . What is the additional annual 
operation and maintenance cost required to solve the network's delayed 
maintenance problems and maintain the GSN network in good operating 
condition.

A2. In the President's FY 2006 Budget, an increase in funding for GSN 
operations and maintenance is requested in the amount of $600,000. This 
amount would be applied to improve data delivery and station 
reliability for the USGS-operated GSN stations (currently two-thirds of 
network stations). With this proposed increase, USGS expects to be able 
to increase both the GSN stations with telemetry and the data 
availability for those stations we operate.
    The proposed funding increase does not address delayed station 
maintenance problems. Some of the electronic components of GSN have 
reached their amortized life expectancy. In particular, power and 
digital data logger systems now need to be recapitalized. To take 
advantage of newer technology and to streamline maintenance, GSN 
program mangers seek to replace all GSN data loggers over the next few 
years. We estimate the cost of addressing deferred maintenance and 
recapitalization of system at an average of $13,333 per station per 
year, or $1,747,000 per year for the full network (USGS+NSF).
    The administration expects partner contributions toward the 
operation and maintenance of GSN stations abroad, and indeed many 
countries and institutions already provide direct and/or in-kind 
support for such stations. Our success in establishing and maintaining 
these contributions is evident in the relatively low cost-per-station 
average for the current network.

Q3.  I understand the current seismic monitors are no longer 
manufactured. . . What plans are underway to acquire replacement 
seismometers? Has USGS or NSF identified a potential manufacturer for 
these seismometers? What is the estimated cost to replace the existing 
network and over what time frame will this replacement need to take 
place?

A3. One of several types of GSN-standard seismometers is no longer 
manufactured, the Strekheisen STS-1, a very-broad-band seismometer used 
to accurately measure the sizes of the largest earthquakes and to 
collect accurate data on other geophysical phenomena. In the short 
term, USGS anticipates that a modification of the mode of emplacement 
of another Strekheisen seismometer, the STS-2 (still-manufactured), may 
serve as an interim replacement for the STS-1. We are, therefore, not 
seeking a new manufacturer at this time, but recognize the need for its 
replacement in the near future. The USGS expects NSF to take the lead 
in supporting the development of new seismic sensor technologies.
    The USGS has set no timeline for replacing GSN seismometers, as 
they appear to have very long lives if properly installed and 
adequately maintained. This question is reviewed semi-annually by the 
GSN Standing Committee. Amortization of GSN equipment is included in 
the per-station operation and maintenance figures previously mentioned.

Q4.  The President's plan is silent on the role of [NSF]. . . What role 
will NSF play in the planning and deployment of this expanded tsunami 
warning system?

A4. From a USGS perspective, our full partnership with NSF in the 
implementation, expansion and maintenance of the GSN will ensure NSF's 
engagement in the planning and deployment of the expanded tsunami 
warning system. For example, we have worked with NSF through its 
implementing agent for GSN, the IRIS Consortium, in developing the 
currently proposed GSN enhancement. Coordination of the implementation 
of the upgrades will be done through the GSN Standing Committee, which 
reports to NSF through IRIS.
                   Answers to Post-Hearing Questions
Responses by Brigadier General David L. Johnson (Ret.), Director, 
        National Oceanic and Atmospheric Administration's National 
        Weather Service

Q1.  Did the Administration conduct any formal or informal outside 
evaluation of its new proposal, including tsunami detection (DART) buoy 
placement, assessing other technologies, or talking with states and 
localities about their major concerns? If so, please provide specifics 
of the evaluation. If not, why not?

A1. The structure and contents of the Administration's tsunami proposal 
is based on the existing National Tsunami Hazard Mitigation Program 
(NTHMP), which has been developed through years of working closely with 
our State partners and external experts. The Administration's plan was 
developed, in response to the Indian Ocean Tsunami, in order to expand 
coverage of the United States. This plan represents an accelerated 
version of our current efforts in the NTHMP.
    NOAA has given careful thought to the placement of DART stations in 
order to establish a complete DART network that will provide high-
quality tsunami data to the NOAA tsunami warning centers for accurate 
tsunami forecasting. Careful siting of each DART station within the 
network is required to cover all potential tsunami source zones that 
could impact the United States. Tsunamis can be highly directional, 
with a relatively narrow beam of focused energy that could propagate 
undetected through the network, if tsunameters are too widely spaced. 
Spacing of approximately 1000 km between each DART station is required 
to reliably assess the main energy beam of a tsunami generated by a 
magnitude 8 earthquake.
    While other technologies (e.g., GPS water level, and satellite 
altimetry and synthetic aperture radar) may provide future promise, 
bottom pressure recorder capabilities are the most accurate instruments 
available at this time. Discussions with states and localities occur 
within the National Tsunami Hazard Mitigation Program.

Q2.  Recommendations to improve the Administration's Tsunami Plan:

     The following is a list of recommendations made by the witnesses 
to improve the Administration's plan. It would be helpful to have 
comments on each of the recommendations.

     Do you agree with the recommendation that:

        <bullet>  More attention should be paid to education, 
        especially for tsunamis that are either generated close to 
        shore or are generated by events that cannot be felt.

A. The Administration's plan includes $2.5M over two years for 
education and outreach. Part of this funding will support the 
TsunamiReady Program, which requires active participation by the 
community to educate the public to recognize hazardous conditions and 
take actions to keep them safe. Part of the education process requires 
identifying high-risk areas for determining where to focus education 
efforts.

        <bullet>  Hazard mapping efforts should be expanded.

A. NOAA's activities are on target to meet this recommendation. Our 
current plan is to complete inundation mapping for all at risk U.S. 
communities by 2015.

        <bullet>  More money should be allocated to local warning 
        systems and research to improve them.

A. It is important to improve local warning systems to protect U.S. 
communities. However, tsunami warnings are just one of many natural 
hazards and disasters which can impact our nation. Any comprehensive 
warning system must address all hazards. NOAA will continue working 
with the Department of Homeland Security (in particular, the Federal 
Emergency Management Agency (FEMA) ) in the federal effort to develop a 
comprehensive national warning ``system of systems.''

        <bullet>  There should be a greater and more explicit 
        commitment to operation and maintenance costs of the buoys.

A. The Administration's plan contains sufficient funds to operate and 
maintain the proposed DART station network. NOAA remains fully 
committed to operating and maintaining our network of DART stations.

        <bullet>  Redundant buoys should be purchased and funds should 
        be allocated to developing better buoys.

A. We agree these issues are critical and NOAA has accounted for some 
redundancy in our plan. The DART stations are being redesigned with 
some redundant features built in so they will better withstand the 
harsh conditions of the northern Pacific. NOAA will maintain three 
redundant in-water buoys in Alaska, where the sea conditions are 
particularly harsh and servicing buoys can be difficult. As a part of 
the Administrations FY 2006 budget, NOAA will be procuring 10 DART 
buoys as spares available for redeployment as necessary.

        <bullet>  More work should be done on tsunami probabilities to 
        better site the buoys.

A. Extensive research has been done on this topic. The DART stations 
will be located along the major subduction zones, where tsunamigenic 
earthquakes occur. The planned network of DART stations covers areas 
susceptible to tsunamis. Additional evaluations are underway to better 
optimize DART station placement.

        <bullet>  The buoys should be equipped with more instruments to 
        be better integrated into NOAA and NSF research programs.

A. NOAA agrees that the DART stations can be useful platforms for other 
types of observing instruments. The Administration's plan includes $1M 
for research and development of the next generation of DART stations. 
NOAA is working to ensure these new DART stations will be capable of 
accommodating multiple environmental sensors to provide additional 
environmental data.

        <bullet>  Tsunami efforts should be incorporated into the 
        development of a broader multi-hazard warning system.

A. NOAA agrees and will continue to work with DHS/FEMA to facilitate 
such an effort.

        <bullet>  The Global Seismic Network should be expanded and 
        should include new kinds of equipment.

A. The U.S. Geological Survey (USGS) operates the U.S. assets of the 
Global Seismic Network (GSN) and is best suited to answer this 
question. However, the Administration's plan includes funding for 
upgraded seismometers used to improve tsunami detection and includes 
funding for improvements to the GSN. Most tsunamis are triggered by 
seismic events, and improvements to the GSN are critical to (1) quickly 
determine the precise location of the seismic event (2) its precise 
magnitude and (3) quickly disseminate this information to the National 
Earthquake Information Center (NEIC) and the NOAA Tsunami Warning 
Centers.

        <bullet>  NSF funding should be provided to properly fund the 
        operation and modernization of the Global Seismic Network.

A. The U.S. Geological Survey operates the U.S. assets of the Global 
Seismic Network (GSN) and is best suited to answer this question. 
However, the Administration's plan includes funding for upgraded 
seismometers used to improve tsunami detection and improvements to the 
GSN.

        <bullet>  The Advanced National Seismic System should be 
        expanded.

A. U.S. Geological Survey runs the Advances National Seismic System and 
is best suited to answer this question. However, the Administration's 
plan includes funding for upgraded seismometers used to improve tsunami 
detection.

Q3.  According to the NOAA, the annual operational costs for 38 buoys 
(in the Administration's plan) will be about $20 million per year. Does 
that include replacement costs, given that according to the NOAA web 
site, the average life span of a DART buoy is less than two years?

A3. The Administration's plan proposes 39 buoys, including 29 DART 
stations in the Pacific, three in-water backups in Alaska, and seven 
DART stations in the Atlantic and Caribbean. Future operation and 
maintenance costs for this network will include replacement costs. The 
level of funding required beyond FY 2006 will be determined through the 
budget process.
    NOAA is taking steps to lengthen the average life span of the DART 
stations. The DART stations are being redesigned to better withstand 
the harsh conditions in the Pacific Ocean. Some redundant capabilities 
built in to the new stations will increase the life span, as will 
routine maintenance of those stations.

Q4.  How does NOAA prioritize what types of activities are funded 
through the Tsunami Hazard Mitigation Program, such as inundation 
mapping and education? How will the additional $5 million proposed for 
the program in the Administration's plan be used?

A4. The Administration's plan includes $4.75M that will be spent on 
inundation mapping and modeling, as well as education and outreach 
(e.g., community preparedness activities including TsunamiReady). Of 
this $4.75M, approximately $2.25M will be spent on inundation mapping 
and modeling and $2.5M will go towards public education activities.
    The objectives of the National Tsunami Hazard Mitigation Program 
(NTHMP) were established in the NTHMP Implementation Plan in 1996. This 
plan can be found at: http://www.pmel.noaa.gov/tsunami-hazard/
hazard3.pdf. NTHMP funding decisions are made by the NTHMP Steering 
Committee, which includes membership from each participating state 
(Alaska, Hawaii, Washington, Oregon and California), NOAA, Federal 
Emergency Management Agency and U.S. Geological Survey. Funds are 
allocated to proposals submitted by the states, federal agencies 
(including NOAA), and others, by vote of the Steering Committee. 
Funding decisions are based upon the three NTHMP priorities: Hazard 
Assessment, Hazard Prediction, and Hazard Mitigation. The NTHMP 
Steering Committee reviews these priorities annually. The 
Administration's Plan accelerates all three of these priorities and 
expands them to include all U.S. communities at risk.

Q5.  The Administration's plan is to add DART buoys to the Atlantic and 
Caribbean. Would either the current Pacific Tsunami Warning Center in 
Hawaii or the center in Alaska be able to monitor and forecast warnings 
for the Atlantic and Caribbean?

A5. Yes, either of the current NOAA Tsunami Warning Centers will be 
able to monitor conditions and issue tele-tsunami warnings for the 
Atlantic and Caribbean. The key to providing accurate and timely 
tsunami warnings for the Atlantic and the Caribbean is to have improved 
tsunami detection and warning capabilities in place. The 
Administration's plan includes:

        <bullet>  Expanded real-time seismic network for the Caribbean,

        <bullet>  Expanded Caribbean-Atlantic DART systems, Expanded 
        sea-level monitoring network, and

        <bullet>  24/7 operation of the USGS/NEIC and the U.S. Tsunami 
        Warning Centers.

    Once appropriate sensors are in place, the existing Tsunami Warning 
Centers will be able to monitor conditions and issue tele-tsunami 
warnings for the Atlantic and the Caribbean. We are exploring other 
options to address regional concerns, such as international education 
and outreach efforts, and to address local tsunami warnings.

Q6.  What are the biggest gaps in our scientific understanding of 
tsunamis? How should the Administration address these gaps?

A6. The tsunami phenomenon is fairly well understood from a physics 
perspective, and numerical models are used to describe how shallow 
water waves are generated and how they interact with the shore. 
However, there are some gaps when one considers the entire process, 
from which earthquakes can cause a tsunami, to knowing the particular 
bathymetry of the coast, to how far the waves will reach inland. One 
gap in our scientific understanding of the entire process is the 
capability to detect and measure tsunami waves crossing the ocean. 
Another is the understanding of the forces of tsunamis as they flood 
the coastline. The proposed DART network will go a long way toward 
filling these gaps as critical data from the network increase our 
understanding of the offshore forcing mechanisms of tsunamis and 
increase our open ocean detection capabilities. This information, 
coupled with field measurements, laboratory experiments, and numerical 
models of the forces on structures as the tsunami floods the coastline, 
will further our understanding, and ultimately prediction of, tsunamis. 
This research effort should include the coordinated efforts of NSF, 
NOAA, and National Earthquake Hazard Reduction Program. Additional 
research is also needed to quickly identify the true size, rupture 
region, and slip distribution of massive tsunamigenic earthquakes, such 
as the December 26, 2005 Indian Ocean event. Similar events occurred in 
the Pacific four times in the last century. Research is also needed to 
quantify uncertainties in numerical model forecasts based on very 
sparse observational data. The Administration's proposal goes a long 
way toward addressing these issues.

Questions submitted by Representative Bart Gordon

Q1.  Circular No. A- 11, Part 7 requires all agencies to provide a 
capital asset plan for each major new and on-going major investment, 
system, or acquisition, and operational asset they manage. As part of 
the capital asset plan NOAA is required to estimate life-cycle costs of 
the system with more detail and specificity on, costs as a system 
approaches the operational stage.

     A capital asset is defined as structures, equipment, intellectual 
property and information technology that are used by the Federal 
Government and have an estimated useful life of two years or more. 
Clearly, the combined tsunami buoy and seismic networks required for 
the tsunami warning system are capital assets. The proposal for 
expanding the network in the Pacific, deploying a network in the 
Atlantic and Caribbean, and maintaining 24/7 staffing at the National 
Tsunami Warning Center requires a capital asset acquisition and the 
associated operation and maintenance cost to maintain the system.

     I assume NOAA completed the required life-cycle analysis as 
required under Circular No. A-11 to develop the budget request for the 
FY 2005 Supplemental and as justification for the FY 2006 budget since 
the proposed upgrades and expansion of the network and the increased 
staffing represent a change in acquisition, operation and maintenance 
of a capital asset.

     What range of annual operation and maintenance costs were 
estimated by NOAA for the expanded tsunami warning network included in 
the President's proposal and submitted to OMB?

A1. The Administration's two-year commitment to strengthen the U.S. 
Tsunami Warning Program contains funding to procure and deploy new 
tsunami detection systems and to accelerate hazard assessment and 
hazard mitigation programs. The level of funding required beyond FY 
2006 will be determined through the budget process.

Q2.  It appears we have two issues with respect to the requirements for 
ship time to service the buoy network: the first is whether your budget 
contains sufficient funds to cover the cost of ship time for servicing. 
The second is whether NOAA will have ship time available even if 
sufficient funds are available to cover its cost.

Q2a.  Will NOAA have sufficient ships and time available on them to 
cover all of the current program activities, the expansion of the 
network in the Pacific, and the establishment of a network in the 
Atlantic and Caribbean?

A2a. The Administration's plan includes sufficient funds for ship time, 
either service provided by NOAA vessels or through contract ship 
support, to maintain the proposed DART station network.

Q2b.  What is the estimated ship time per year required to service the 
expanded Pacific network based upon your experience with the current 
network?

A2b. Based on our experience with the current DART stations, we 
estimate that 280 days (230 planned and SO contingency) worth of ship 
time will be required to service the expanded network of DART stations 
in the Pacific Basin, given the current information on their planned 
locations.

Q2c.  What is the estimated ship time per year required to service the 
Atlantic and Caribbean network?

A2c. We estimate that the seven DART stations deployed in the Atlantic 
and Caribbean will require 58 days (48 planned and 10 contingency) 
worth of ship time, given the current information on their planned 
locations.

Q3.  How much does our research on hurricane-related storm surges in 
the Atlantic and Caribbean contribute to our understanding of tsunami 
hazards in those areas?

A3. NOAA's operational and research efforts for hurricane-related storm 
surge in the Atlantic and Caribbean has given us a starting point to 
understand and model the bathymetry of the near-shore environment that 
can be used to model tsunamis. Using the bathymetric results from the 
storm surge program will help with the inundation mapping for the East 
coast, Gulf coast, and Caribbean islands, but it is just a beginning. 
The physical processes responsible for hurricane surges and tsunamis 
are vastly different. Tsunamis are a series of waves, or surges, 
sometimes many hours apart, rather than one storm surge driven by 
strong winds from a hurricane.

Q4.  Tsunami hazard potential is directly affected by the topography of 
the seafloor between an earthquake's epicenter and a particular 
coastline. How adequate is our knowledge of the bathymetry along the 
U.S. coastlines? How does the availability of this information affect 
the accuracy of inundation maps?

A4. With the exception of a few coastal communities in Alaska, existing 
U.S. bathymetry data and information are adequate for tsunami modeling 
to produce tsunami inundation maps.

Q5.  The Administration's proposal indicates you will be expanding the 
Tsunami Ready communities program. Considering that much of the funding 
for achieving Tsunami Ready status comes from State and local budgets, 
how does NOAA plan to increase the number of Tsunami Ready communities 
along the coasts?

A5. NOAA is committed to accelerating and expanding its TsunamiReady 
community program to all at-risk communities, and expects to have at 
least 40 additional TsunamiReady communities by the end of FY 2006. The 
Administration's plan provides $2.5M to NOAA over two years to support 
public education activities, including community preparedness 
activities such as the TsunamiReady Program. While NOAA recognizes that 
achieving TsunamiReady status requires significant State and local 
support, NOAA will continue working with local communities to leverage 
existing assets and community warning preparedness programs, which 
provide the foundation for allowing a community to become 
``TsunamiReady.''

Q6.  Mr. Wilson indicated he participates in a multi-state and multi-
federal agency group through the National Tsunami Hazard Mitigation 
Program. Does NOAA intend to establish similar multi-state groups for 
the Atlantic states to promote the development of tsunami evacuation 
plans and public education programs? Will a similar approach be taken 
for U.S. territories? When do you anticipate establishing these working 
groups?

A6. NOAA would like to expand the NTHMP to include all U.S. States and 
Territories with communities at risk from a tsunami, but the current 
structure of the program would have to be modified. Under the current 
structure, NTHMP funds are distributed to the states and federal 
agencies by the vote of the NTHMP Steering Committee. Adding 15 states, 
three territories, and two commonwealths to the current Steering 
Committee expands the scope of the program and requires us to consider 
a new governance structure.

Q7.  What is the status of inundation mapping for the west coast of the 
U.S.? Is most of the mapping completed? What about the Atlantic coast 
and the Caribbean territories? How often do these maps need to be 
revised?

A7. Based on input from Alaska, California, Hawaii, Oregon and 
Washington, 21 of 167 planned mapping efforts have been completed. 
About 15 percent of the west coast inundation mapping, covering 30 
percent of the population at risk, is complete. On the east coast and 
the Caribbean, only Puerto Rico has tsunami inundation maps, which were 
funded by Sea Grant and the government of Puerto Rico. Revisions to 
these inundation maps are required only when a major change (more than 
10 percent) in near shore bathymetry or coastal topography has 
occurred.

Q8.  The DART system (Deep Ocean Assessment and Reporting of Tsunamis 
buoys) combined with the Bottom Pressure Recorders (BPR), installed by 
NOAA in the Pacific Ocean was effective in canceling an evacuation in 
Hawaii following a 7.5 magnitude Alaskan earthquake in November 2003 
that could have, but did not, cause a tsunami. This helped to save tens 
of millions of dollars, not to mention the potential for personal 
injury or property damage associated with an unnecessary evacuation. If 
installed in the Indian Ocean and combined with appropriate warning and 
evacuation protocols, I can imagine that many lives might have been 
saved in Sri Lanka and in Thailand. There is also considerable 
discussion about expanding the DART system to the Atlantic and within 
the Pacific. Earlier this month, Admiral Lautenbacher (Administrator of 
National Oceanic and Atmospheric Administration) indicated that three 
of the six DART buoys are not functioning. He also classified these as 
``test buoys.'' The first four DART stations were in place by August 
2000. The standard DART surface buoy has a stated design life of one 
year and the seafloor BPR package has a life of two years.

Q8a.  Have the non-functioning DART buoys and BPRs reached their 
expected life, or did they fail prematurely?

A8a. The term ``design life'' used in this context does not refer to 
expected failure of the DART stations, but rather when the power system 
(batteries) will no longer be sufficient to operate the electronics. 
Thus the design life of the communication package in the surface buoy 
was one year and of the bottom pressure unit was two years. The 
failures mentioned by VADM Lautenbacher were unanticipated and did not 
result from battery failure.

Q8b.  Since 2000, what has been the reliability of the DART buoys?

A8b. The reliability of the DART stations since October 2003, the time 
when they were transitioned from being operated by NOAA Research to 
NOAA's National Weather Service, has been 72 percent. This represents 
the combined number of hours the stations have been operational.

Q8c.  BPRs have been deployed in the Pacific (without the DART buoy) 
since 1985. I understand that they have a designed life of 15-24 
months. What is the actual reliability of the BPR.

A8c. It is very difficult to ascertain the reliability of the bottom 
pressure recorders themselves. The majority of DART BPR failures, since 
October 2003 (operational date), have not been a result of failure 
actual pressure unit itself, but rather do to other causes, such as 
failure of cable connectors. All of the bottom pressure recorders are 
currently operating.

Q8d.  Admiral Lautenbacher classified the DART as a ``test'' system. 
With four years of deployment at sea, how much additional testing is 
required before we can be confident about making the investment in 
deploying these recorders and buoys worldwide and that the technology 
is sufficiently reliable to justify the investment?

A8d. NOAA believes the research and development efforts done with the 
six station DART pathfinder network have defined what can and cannot be 
accomplished with these detection capabilities. We are in the process 
of designing built-in redundant capabilities where feasible to ensure a 
longer lifetime of the stations. We are confident that once the full 
DART II network is deployed, the U.S. will have an operational 
configuration providing near 100 percent tsunami detection capability 
with embedded redundancy.

Q9.  The DOD's National Geospatial-Intelligence Agency is making its 
satellite maps available to the USAID and other government agencies in 
their relief operations. The National Geospatial-Intelligence Agency 
also maps ocean contours to support the strategic mission of our 
submarine fleet. We know from the experience in the devastating 1998 
Papua New Guinea tsunami that undersea landslides can dramatically 
increase the severity of tsunamis. What kind of information is 
available from the National Geospatial-Intelligence Agency that could 
be used to identify high-risk tsunami areas? Are there ways to provide 
this information to NOAA and the others involved with the installation 
of a tsunami warning system that will not compromise national security?

A9. NOAA will use all available data and information to strengthen the 
U.S. Tsunami Warning System. The Department of Defense and/or the 
National Geospatial-Intelligence Agency are best suited to answer these 
specific compromise national security.
                   Answers to Post-Hearing Questions
Responses by John A. Orcutt, Deputy Director, Research at the Scripps 
        Institution of Oceanography; President, American Geophysical 
        Union

Q1.  If you could change one or two things about the Administration's 
proposal, what would it be and why?

A1. Develop a long-term plan and funding to operate and maintain the 
DART buoy system given that O&M costs will exceed the initial capital 
costs in only 3-4 years of operation. Approaches include a plan to 
increase the breadth of measurements made through collaboration with 
the NSF Ocean Observatories Initiative and the identification of NOAA 
funding for O&M.
    Include the NSF in funding planning given that they support the O&M 
for nearly a third of the GSN and have supported the full costs (NSF 
and USGS) of new station installation and station upgrades in the past 
two decades.

Q2.  Recommendations to improve the Administration's Tsunami Plan:

     The following is a list of recommendations made by the witnesses 
to improve the Administration's plan. It would be helpful to have 
comments on each of the recommendations.

     Do you agree with the recommendation that:

        <bullet>  More attention should be paid to education, 
        especially for tsunamis that are either generated close to 
        shore or are generated by events that cannot be felt.

A. Absolutely. In the case of the Indian Ocean the enormous loss of 
life could have been greatly reduced, almost eliminated, if there had 
been a long-term plan in place for teaching natural hazards throughout 
the region. There may be no technical approaches that can save 
populations near the tsunami source too little time. Seattle is an 
analogous case in the U.S.

        <bullet>  Hazard mapping efforts should be expanded.

A. This is an important activity from inundation estimation to likely 
sources of tsunamis including earthquake, volcanoes and seafloor 
slumping. Inundation mapping depends a great deal, for example, on 
detailed, high-resolution topographic mapping offshore and onshore.

        <bullet>  More money should be allocated to local warning 
        systems and research to improve them.

A. Yes, this is probably most important for carrying out the 
educational goals mentioned above. Local and regional communities could 
also support the installation, operation and maintenance of technical 
systems installed including seismograph, tide gauges and cameras.

        <bullet>  There should be a greater and more explicit 
        commitment to operation and maintenance costs of the buoys.

A. Yes, this is a major problem for extending the lives of buoys over 
decades. In a biologically productive environment buoys have to be 
entirely replaced over the course of a very few years, for example, 
because of intensive biofouling.

        <bullet>  Redundant buoys should be purchased and funds should 
        be allocated to developing better buoys.

A. A better approach is likely a transition to entirely new buoy 
designs including those being contemplated for use by the NSF Ocean 
Observatories Initiative. In the case of Cascadia, the OOI will include 
seafloor, fiber optical-connected nodes on the seafloor throughout the 
area precluding the use of buoys entirely for relevant tsunami 
measurements.

        <bullet>  More work should be done on tsunami probabilities to 
        better site the buoys.

A. Yes, first understand the earthquake hazard in an area as well as 
forecasts of activity to prioritize the installation of buoys.

        <bullet>  The buoys should be equipped with more instruments to 
        be better integrated into NOAA and NSF research programs.

A. Yes, I agree. The current small buoys with very limited power and 
telemetry are not well suited for supporting a broad suite of sensors.

        <bullet>  Tsunami efforts should be incorporated into the 
        development of a broader multi-hazard warning system.

        <bullet>  The Global Seismic Network should be expanded and 
        should include new kinds of equipment.

        <bullet>  NSF funding should be provided to properly fund the 
        operation and modernization of the Global Seismic Network.

A. Yes, the NSF operates approximately one-third of the Global Seismic 
Network and has, in the past, funded nearly all the costs for new 
station installations and upgrades for both the NSF and USGS portions 
of the network. Most of the stations operated in the Indian Ocean are 
NSF's responsibility.

        <bullet>  The Advanced National Seismic System should be 
        expanded.

A. The ANSS has concentrated largely on urban seismology and urban 
earthquake hazards. Subsequent to my testimony researchers have used 
many (1200 -1400) seismographs in Japan to map the Sumatra earthquake 
fault propagation. Had the data been available in real-time, this 
technique could have significantly reduced the time needed to identify 
the event as a Great Earthquake. The ANSS could serve the same purpose, 
but the goals of ANSS will have to be changed substantially.

Q3.  What are the biggest gaps in our scientific understanding of 
tsunamis? How should the Administration address these gaps?

A3. Can seismic measurements alone be used to predict tsunamis? This 
certainly isn't possible now. Can detailed earthquake source 
parameterizations be used to predict accurately tsunami generation and 
propagation? Can acoustic sensors be used to couple observations of 
fault rupture to tsunami creation? There are a large number of 
excellent scientific questions to motivate high quality research. 
Presently, there is no viable research program in the NSF, NOAA, or the 
USGS nor funding available to university scientists for competition. 
It's very difficult to develop a scientific career in studying 
tsunamis. The NSF would be best able to manage such a research program.

Questions submitted by Representative Bart Gordon

Q1.  Your testimony provided an estimated $5 million dollar shortfall 
in annual operation and maintenance costs for the global seismic 
network (GSN). Dr. Groat indicated the President's future budget 
allocations would cover operation and maintenance costs for the 
proposed network upgrades. However, he also stated that funds to 
address the maintenance backlog were not being allocated. Will the 
upgrades to the network as outlined in the President's proposal 
increase the operation and maintenance cost of the network or will they 
remain the same? If Dr. Groat's assumption is correct, that operation 
and maintenance cost of the upgraded network will be covered, but the 
backlog is not, what effect will that have on the sustainability of the 
network?

A1. Part of the costs for upgrading the GSN are to be devoted to 
modernization of the connections of the stations to the Internet for 
near-real-time data delivery. If this is done using modern commercial 
satellite technologies, the reliability of the network could be greatly 
increased while at the same time slightly decreasing the actual costs 
of telemetry. The current medley of communications schemes including 
phone lines, local Internet Service Providers (ISP), satellite sharing 
with the UN, and others is an ad hoc collection of methodologies that 
is difficult to manage and varies widely in costs.
    Increasing the number of stations in the GSN will necessarily 
increase the costs of operating and maintaining the network. As I noted 
in my testimony, these O&M costs vary from $60,00 to $75,000 per year. 
The current budget for O&M ($2M from the NSF and $3M from the USGS) is 
inadequate for maintaining the network given the projected costs of $8M 
to $1 OM. The UCSD component of the NSF-funded GSN (40 stations) 
receives approximately $2MJyr for O&M while the projected costs are 40 
X $60K = $2.4M/yr to 40 X $75K = $3M so the bulk of the shortfall is in 
USGS support. The current USGS shortfall of $2M to $4M will grow with 
an increasing number of stations.
    Long-term underfunding of the GSN will have a negative impact on 
system reliability and, because installed infrastructure will not be 
regularly modernized, maintenance costs will increase faster than 
inflation.

Q2.  I understand the current seismic monitors are no longer 
manufactured, the monitors have been in place for a number of years, 
and they may need to be replaced to maintain the performance goals of 
data acquisition from the network. Are you aware of any plans at NSF or 
USGS to acquire replacement seismometers? Has USGS or NSF identified a 
potential manufacturer for these seismometers? What is the estimated 
cost to replace the existing network and over what time frame will this 
replacement need to take place?

A2. The seismometers used to establish the GSN built by Swiss and US 
manufacturers are no longer available. These include the highest 
quality sensors (Swiss) intended for installation in vaults and 
borehole sensors (US). The NSF is currently funding a project at 
Scripps Institution of Oceanography/University of California San Diego 
to develop a new optical seismometer. The original designer of the 
Swiss seismometer is working with scientists and engineers at Scripps 
in this development. The prototype recorded the Sumatra earthquake on 
26 December with great fidelity. The seismometer has a substantially 
larger dynamic range than existing systems and because of the lack of 
sophisticated electronics, may be less expensive to manufacture.
    Several commercial companies, including Guralp (UK), KMI (US), and 
Nanometrics (Canada) are also developing new seismometers based on 
classical principles. Their markets, however, are programs such as the 
Advanced National Seismic System (USGS) and USArray (NSF) that require 
large numbers of less capable instruments.

Q3.  Your points about the National Science Foundation are well-taken. 
Is this a question of ensuring NSF's participation with NOAA and USGS 
as the network upgrades and development take place or do you recommend 
additional research funding at NSF above the current earthquake 
research program?

A3. Generally, transferring funds between agencies is problematic and I 
am concerned that limited appreciation for the key role played by the 
NSF and lack of specificity in the tsunami bill will limit 
significantly funding needed for upgrading the components of the GSN 
supported by the NSF.
                   Answers to Post-Hearing Questions
Responses by Arthur L. Lerner-Lam, Director, Columbia University Center 
        for Hazards and Risk Research

Q1.  If you could change one or two things about the Administration's 
proposal, what would it be and why?

A1. The Administration should increase the emphasis on public awareness 
and education at the State community level, coordinated with 
comparative risk assessments for coastal regions. This would improve 
use of warnings, and increase support for mitigation actions. NOAA's 
TsunamiReady program, which was described at the hearing, is an example 
that should be expanded in a multi-hazard context. Investments in the 
tsunami warning system should be part of a broader initiative for 
multiple hazard monitoring, including integrated ocean observations. 
Tsunamis, while extreme, are not the most damaging hazard as measured 
by annualized risk. Risk should inform the deployment of warning and 
observation systems, hazard reduction programs and mitigation policy. A 
quick technological fix driven by hindsight may not be the best use of 
the Nation's resources.

Q2.  Recommendations to improve the Administration's tsunami plan:

        <bullet>  More attention should be paid to public education, 
        especially for tsunamis that are either generated close to 
        shore or are generated by events that cannot be felt.

A. I agree that more attention should be paid to improving public 
awareness of natural threats, including tsunamis. This awareness should 
include concrete instructions for community-based as well as individual 
preparedness and response. The public education program should include 
training for first responders, emergency managers, and other local 
community officials. For cases without adequate warning, such as 
tsunamis generated close to shore or unobserved tsunami-triggering 
events, the public's ability to respond is both the first and last line 
of defense. Schools provide an effective training environment, but the 
effort could also include public service announcements, free 
publications, library and museum exhibits, and university outreach. It 
will be important to provide a conduit between research organizations, 
particularly those that are mapping potential risks and modeling hazard 
scenarios, and the public outreach process, so that the most current 
information is made available proactively.

        <bullet>  Hazard mapping efforts should be expanded: This is 
        certainly necessary, but should be done on several levels.

A. One of the most important components of a comprehensive hazard 
mapping effort is accurate mapping of near-shore topography and 
bathymetry with improved spatial resolution. The most accurate global 
data set of topography is the C-band map produced by the Shuttle Radar 
Topography Mission (SRTM). This map has 30 m resolution, and while the 
mission provided near global coverage, only the United States coverage 
is openly available. Elsewhere, only a degraded image with 90 m 
resolution is available. This is insufficient for accurate coastal 
hazard mapping on a global basis. The Administration should declassify 
the SRTM global data set. More can be written about this. High-
resolution bathymetric maps are available in selected areas, but the 
choice of regions to be mapped has been governed by reasons other than 
risk assessment. The Administration should develop plans to acquire 
high-resolution bathymetric data in areas prioritized by natural hazard 
risk. Topographic and bathymetric data should be openly available for 
research and analysis, because the processing of the raw data for 
accurate topography and bathymetry, especially near the coastline, is a 
difficult and error-prone exercise. The development of accurate high-
resolution bathymetric and topographic maps at the coastline will 
benefit from the vigorous attention from research oceanographers and 
quantitative geomorphologists. The best defense against incorrect maps 
is an open data philosophy that allows continuing assessment of the 
quality of the data and the incorporation of new research results into 
the operational raw data processing. An additional component of hazard 
mapping is the integration of socio-economic data sets with geophysical 
hazard maps in order to quantify specific vulnerabilities.

        <bullet>  More money should be allocated to local warning 
        systems and research to improve them.

A. I infer that this question refers to the dissemination of 
authoritative warnings by local communities and the communication of 
warnings in an informative and community-calibrated way to first 
responders and the public. I agree with the need for more research on 
how warnings should be prioritized and characterized so that the public 
is adequately informed in a manner that suppresses a panic response and 
achieves the desired results. This is an important area of research in 
decision theory, decision making under uncertainty, risk perception, 
and techniques of risk management.

        <bullet>  There should be greater and more explicit commitment 
        to operations and maintenance costs of the buoys.

A. The version of the Administration's proposal I reviewed prior to the 
26 January hearing was not explicit. There is concern among those with 
experience with oceanographic instrumentation that the difficult 
deployment and operating environment in the oceans will exact a toll on 
even well-designed buoys. NOAA appears to recognize this, but a 
continuing R&D program for instrument development that would improve 
the O&M profile of globally dispersed deployments must be part of the 
Administration's package.

        <bullet>  Redundant buoys should be purchased and funds should 
        be allocated to developing better buoys.

A. The Administration should provide funds for a well-scoped 
instrumentation research and development program. ``Better buoys'' 
comprises instruments that last longer and have reduced O&M costs. The 
term can also refer to improvements to the software that detects the 
passage of a tsunami wave. Given current deployment plans, concern 
remains that there is inadequate redundancy in the number of buoys 
requested.

        <bullet>  More work should be done on tsunami probabilities to 
        better site the buoys.

A. This is a complex problem rooted in both tsunami and earthquake 
science. The Sumatra-Andaman earthquake that generated the Indian Ocean 
tsunami was the largest earthquake ever recorded by high-fidelity 
digital seismographs, which were largely put in place beginning in the 
seventies. As a consequence, the event has spawned a tremendous amount 
of research on the dynamics of large earthquake sources. We are at a 
turning point in our understanding about giant earthquakes and our 
ability to anticipate their occurrence and tsunamigenic potential. 
However, in the absence of well-founded models of extreme events (rare-
occurrence, high-impact), the siting of buoys should be based on 
providing adequate coverage of potential sites of tsunami genesis along 
the world's major subduction zones. Past experience is the most 
justifiable guide. Buoy siting is also governed by the ability of 
tsunami detection algorithms to characterize the propagating tsunami 
disturbance in the water. This is reasonably well understood, but there 
should be constant improvement in the algorithms as more is understood 
about tsunami propagation. Finally, paleoseismological and paleo-
tsunami studies, which determine the spatial and temporal distribution 
of tsunamis from historical and geological records, can help prioritize 
placement by developing recurrence histories in major subduction zones. 
Examples include studies performed along the Cascadia margin, and in 
other areas around the world. Existing studies should be inventoried, 
and new ones performed where needed.

        <bullet>  The buoys should be equipped with more instruments to 
        be better integrated into NOAA and NSF research programs.

A. While there are many current and pending NOAA and NSF research 
programs that could benefit from the infrastructure put in place for a 
tsunami warning system, the current design of the buoys is focused on 
solving the tsunami problem. In principle, the buoys could be a 
platform for complementary geophysical observations by providing a 
modular solution to remote power and telecommunications issues. For 
example, a seafloor instrument package containing seismometers could be 
linked to the buoy communications and power platform. The deployment of 
seafloor seismometers would enhance the capabilities of the Global 
Seismographic Network for tsunami-generating event detection and 
characterization. The placement of other sensors, including sensors in 
the water column, should be explored. However, a better approach might 
be to develop a broader modular approach to in situ oceanographic 
instrumentation infrastructure (in which the tsunami buoys could be a 
component), rather than modify the purpose-built tsunami system.

        <bullet>  Tsunami efforts should be incorporated into the 
        development of a broader multi-hazard warning system.

A. This is a good idea in principle. In practice, this strategy is 
effective when the underlying natural hazards overlap in spatial extent 
and the nature of their impacts. Once this is established, it is 
important to look at ways in which the preparation for and response to 
different hazards overlap. Fundamentally, a tsunami warning system 
could be integrated into a more expansive integrated ocean and coastal 
observing system. The most likely candidate for rapid progress is 
linking tsunami warning instrumentation to coastal storm surge 
monitoring. Underlying this reasoning is the simple observation that on 
an annualized basis, other hazards are more frequent and damaging. A 
single-purpose hazard warning system implemented for an extreme yet 
infrequent event class will not provide the most cost-effective 
approach to overall hazard reduction. Design studies should be 
initiated.

        <bullet>  The Global Seismic Network should be expanded and 
        should include new kinds of equipment.

A. The Global Seismic Network should be expanded to include ocean 
bottom instrumentation, particularly in equatorial ocean basins and the 
northern Pacific where tsunami generation potential is greatest. The 
GSN should be improved to provide real time data from 100 percent of 
its stations with 90 percent reliability. With the exception of these 
considerations, the GSN has achieved many of its design goals for the 
research community. Improving its operational utility for warning is 
the next priority. This can be done by regionally densifying the GSN by 
forming collaborative relationships with regional and national networks 
around the world, by adding telemetry to stations without it, and by 
increasing quality control and maintenance operations to approach 90 
percent up-time rates. Other equipment that might be included at GSN 
sites includes telecommunications nodes, infrasound sensors, magnetic 
observatories, and complementary geophysical instrumentation such as 
gravity and magnetic field sensors. The basic GSN system has been 
designed in a modular fashion that should make the addition of other 
instrumentation a straightforward engineering exercise.

        <bullet>  NSF funding should be provided to properly fund the 
        operation and modernization of the GSN.

A. The GSN serves both research and mission communities, and is one of 
the foremost examples of such a dual-use network. NSF funds the GSN as 
part of its commitment to the Nation's research enterprise. The U.S. 
Geological Survey also participates, with separate funding in its 
budget for network operations. The Department of Interior's 
responsibility in providing partial support should be emphasized and 
the Administration should assure long-term funding for the U.S.G.S. The 
data management and archive is managed by IRIS and funded by the NSF. 
This funding should be sustained through the standard NSF process of 
peer review. Whether NSF should provide funding for a monitoring 
operation is not at issue: as long as Earth Science Instrumentation and 
Facilities is sufficiently funded (as long as the NSF R&RA account is 
sufficient), IRIS can compete in a community peer-review environment 
for continued operation of the GSN. It is estimated that an additional 
$10M will be needed over five years to fully fund and modernize the 
GSN. It is also important to note the quality control of the GSN is 
critically dependent on the activities of the U.S. university research 
community in using the data and assessing its quality continuously. 
This implies that continued health of the GSN is also contingent on 
funding for basic research in earthquake science and Earth structure, 
through the NSF, and through the USGS external grants program.

        <bullet>  The ANSS should be expanded.

A. Within the U.S., the ANSS comprises a national scale backbone 
network and a several regional networks with regional operational and 
outreach responsibilities. Authoritative detection and characterization 
of events is the responsibility of the National Earthquake Information 
Center in Golden. The NEIC will be enhanced to provide 24/7 operation 
under the Administration's plan. However, the capitalization, 
operations and maintenance of the ANSS are limited by a level of 
funding well below authorized amounts. For the purposes of a tsunami 
warning, the ANSS should expand real-time capabilities in the Pacific 
Northwest, in Alaska, and in the Caribbean, to quickly locate and 
characterize tsunamigenic earthquakes. In the rest of the country, the 
ANSS should be fully funded at authorized level so that there can be 
timely and accurate characterizations of earthquakes within U.S. 
borders.

Q3.  What specific recommendations would you give to the administration 
on how to use the current momentum to build an international tsunami 
warning system to test its concept of building a comprehensive global 
Earth observing system?

A3. A tsunami warning system integrates observations from various in 
situ geophysical sensors. The successful integration from different 
systems, including the data format, open data exchange, real time 
telecommunications, rapid analysis, archiving, and assessment are all 
components of what should be achieved by a global Earth observing 
system. The use of satellite remote sensing in rapidly characterizing 
damage by comparing before and after scenes implies that data 
integration of geophysical data with socio-economic data should also be 
operationalized. The most important parts of an international observing 
system are: (1) the free and open exchange of data from global, 
national and regional systems so that all information is available for 
immediate use when needed, and (2) improving the capacity of all 
nations to use the observations, and tailoring the information products 
to different national and regional circumstances. The Administration 
should emphasize that the building of a global observation system 
should be based on the free and open exchange of all geophysical data, 
its use in hazards reduction, and its use in research collaborations. 
International research collaborations will build scientific and 
technical capacity throughout the world and will build confidence that 
the exchange of data has local benefits. Ultimately, this exchange of 
research results will improve the operations of the tsunami and other 
hazard warning system, improve their use by local communities, and 
provide a higher level of technical capacity complementing and 
supporting broader international development goals.

Q4.  What are the most serious natural hazard threats facing the United 
States today? Please provide specific examples of how response plans 
for these threats could be integrated with the tsunami risk reduction 
program proposed by the Administration.

A4. Earthquakes, drought, flooding, severe storms and hurricanes, and 
coastal erosion are all serious natural hazard threats faced by the 
United States today. The regional distribution of these threats varies 
of course, but this is reasonably well understood. Threats specific to 
the coasts include hydrometeorological and earthquake/landslide hazards 
whose understanding and warning would benefit from an enhanced multiple 
hazard observation and warning system. The simplest way to integrate 
the multi-hazard response is to include multiple hazards in the coastal 
risk mapping that is proposed in the Administration's tsunami program. 
Once these multiple hazards risk are mapped and a quantitative risk 
comparison is made, the overlap in preparedness and response strategies 
could be investigated to provide a synoptic and cost-effective coastal 
warning system for multiple hazards. A first step would be to integrate 
storm surge and coastal flooding warnings with severe storm and tsunami 
warning.

Q5.  What are the biggest gaps in our scientific understanding of 
tsunamis? How should the Administration address these gaps?

A5. The biggest gaps are: occurrence probabilities of different 
tsunamigenic events, the tsunami source function (how different events 
actually produce the water disturbance that becomes a tsunami), the 
dynamics of run-up and near-shore propagation, which are highly non-
linear and critically dependent on relatively unknown coastal 
bathymetry, and data integration to understand the potential impacts of 
tsunamis on populations, livelihoods, and economic output. The 
Administration should address these gaps with both basic and applied 
research programs in earthquake and tsunami research, a coastal 
bathymetric mapping program, and an applied and basic research program 
in risk assessment and management. There are specific gaps in the our 
assessment and understanding of different strategies for making use of 
the warning on local or community levels. Current programs should be 
assessed, and social science research should be conducted so that we 
understand how to best assess and communicate risk, and develop 
policies to reduce or manage risk. Despite the gaps in our 
understanding of tsunami and earthquake sources, this does not mean 
that action on developing warning and observation systems should be 
delayed. Rather, the Administration should ensure that the basic and 
applied research enterprise is healthy and conversant with operational 
problems, so that research results can be communicated to the 
operations in a timely and effective manner.

Questions submitted by Representative Bart Gordon

Q1.  Dr. Orcutt's testimony provided an estimated $5 million dollar 
shortfall in annual operation and maintenance costs for the global 
seismic network (GSN). Dr. Groat indicated the President's future 
budget allocations would cover operation and maintenance costs for the 
proposed network upgrades. However, he also stated that funds to 
address the maintenance backlog were not being allocated. Will the 
upgrades to the network as outlined in the President's proposal 
increase the operation and maintenance cost of the network or will they 
remain the same? If Dr. Groat's assumption is correct, that operation 
and maintenance cost of the upgraded network will be covered, but the 
backlog is not, what effect will that have on the sustainability of the 
network?

A1. The O&M cost impacts of the upgrades to the GSN, which include 
achieving 100 percent telemetry and 90 percent up-time, are expected to 
amount to $5 to $7M/yr. additional, with half allocated to NSF and half 
allocated to the USGS. However, there is a maintenance backlog that is 
associated with hardware upgrades to older instruments and maintaining 
a spare parts inventory. Sustainable operation of the GSN is dependent 
on clearing the maintenance backlog.

Q2.  I understand the current seismic monitors are no longer 
manufactured, the monitors have been in place for a number of years, 
and they may need to be replaced to maintain the performance goals of 
data acquisition from the network. Are you aware of any plans at NSF or 
USGS to acquire replacement seismometers? Has USGS or NSF identified a 
potential manufacturer for these seismometers? What is the estimated 
cost to replace the existing network and over what time frame will this 
replacement need to take place?

A2. The IRIS consortium funded by the NSF has held several manufacturer 
discussions and community workshops to address the problem of very-
broad-band seismometer obsolescence. However, a manufacturer of 
replacement instruments has not been identified. This decision and 
associated research should rightly be funded through the NSF 
instrumentation and facilities program, because the instruments will be 
crucial to basic research. Replacement costs for the instruments are 
likely to be in the range of $10M over five years. The NSF is also 
running an instrumentation research program, which is funding 
development of several promising sensor technologies. It is not clear 
at this time whether these new technologies will be suitable for 
production sensors in the near future.

Q3.  You made a persuasive case for considering a multi-hazard approach 
to reducing national vulnerabilities. The plan we have before us is 
designed to address the earthquake and tsunami hazard. What additional 
features would this plan contain if we were taking a multi-hazard 
approach? What do you see as the major barriers to adopting a multi-
hazard approach to disaster planning and mitigation? How do these 
barriers differ for the wealthy and less wealthy nations?

A3. Additional features of the plan to address multi-hazard comprise 
(1) assessment of multi-hazard risks, particularly in the coastal areas 
of the United States, to determine the geographic and temporal 
distribution of multiple hazard occurrence and impacts; (2) common 
approaches for preparedness and response for hazards having similar 
impact/damage scenarios and common or overlapping risk occurrence; (3) 
development of integrated geophysical instrument networks with the 
ability to direct specific real-time data streams to the relevant 
analytical tools for specific hazard characterization and warning/
response; (4) encouraging an all-hazard approach for communities facing 
multiple risks; first responders and relief teams should be trained in 
multiple risk management or response so that technical and operational 
efficiencies and cross-fertilization can be pursued. Major barriers to 
multi-hazard approach include: (1) a national risk management strategy 
that focuses on individual hazards, even in regions where risks from 
several hazards are comparable; (2) dispersal of risk assessment, 
hazard observation and management functions among different agencies, 
(3) a heterogeneous public-private environment for implementing risk 
management policies. Differences between wealthy and less wealthy 
nations include the understandable tendency for less wealthy nations to 
discount the risk from future events when weighed against more 
immediate humanitarian concerns. Further, a ``one-size-fits-all'' 
technical approach is less likely to succeed in less-developed 
countries because of mismatches in technical and administrative 
capacity. Implementation must be tailored to the social, technical, 
administrative and cultural conditions in different countries and 
regions. Also, open data exchange and collaborative research are not 
yet universally acknowledged by all parties as a foundational element 
of global multi-hazard observation and warning: many countries seek to 
develop self-contained systems, which are problematic, as a matter of 
national pride. Linking natural hazard risk management to broader 
international economic and political development goals may be one 
approach to these issues.

Q4.  The Global Earth Observation System of Systems (GEOSS) has been 
mentioned numerous times in connection with this tsunami detection and 
warning system. However, it is unclear how far along the real planning 
for GEOSS has come and whether there have been substantive discussions 
of how the tsunami network would fit into the system. You seem to 
believe the deployment of this network could serve as a pilot for 
GEOSS. How would you envision a pilot program to link these two 
visions--one of which (GEOSS) seems quite undeveloped?

A4. I agree that GEOSS plans are dominated by technological 
descriptions of the system, without a considered science plan that 
includes natural hazard reduction elements. A tsunami warning system 
would be an interesting pilot, because a properly formulated warning 
system would (1) illustrate the technical approaches to integrating 
diverse data streams from different instrumentation; (2) show how the 
results of basic research could be applied in a timely and concrete way 
to the characterization of a difficult phenomenon; (3) show the value 
of linking basic and applied research collaborations, integrated 
observations, and open data exchange not only to the safety of wealthy 
countries, but to the building the scientific and technical capacity of 
less wealthy ones, and (4) show how information products can be derived 
to meet the needs of diverse constituencies.

Q5.  Your points about the National Science Foundation are well-taken. 
Is this a question of ensuring NSF's participation with NOAA and USGS 
as the network upgrades and development take place or do you recommend 
additional research funding at NSF above the current earthquake 
research program?

A5. NSF has a role to play in ensuring that the GSN remains healthy, 
through the competitive peer review process for geoscience 
instrumentation and facilities that has served IRIS and the GSN so 
well. Moreover, since we are dealing with new understanding of 
dangerous phenomena, NSF has a role to play in funding the basic 
research that ensures that the United States maintains a healthy Earth 
and environmental science research profile, supporting research in the 
new technologies for new generations of instrumentation, supporting 
social science research into risk management, perception, and 
assessment, and support for the new thinking about how to link science 
outcomes to broad social goals. A tsunami warning system without basic 
research would soon be obsolete, ineffective, and a waste. Finally, NSF 
is the critical link in maintaining the pipeline supplying a technical 
workforce for, in this case, natural hazards reduction.

Question submitted by Representative Eddie Bernice Johnson

Q1.  The advancement of marine seismic research is allowing us to 
uncover data that never before has been thought possible. The knowledge 
that can be gained from this research is will paramount in aiding early 
warning detection systems. However, with limited resources available we 
need to make sure that the benefit of detection systems is maximized. 
Marine seismic research is now able to detect megathrusts or faults 
where larger earthquakes occur within subduction zones, similar to that 
in the Indian Ocean. This seems to be the first step in implementing an 
effective detection plan. How close are we to mapping out the locations 
of these megathrusts so that the most successful actions can be taken?

A1. The technology for mapping the seafloor at high resolution exists, 
but the costs of doing this comprehensively for the U.S. is generally 
estimated to be a few hundred million dollars. In a revenue-restricted 
world, the mapping should be prioritized by the potential exposure of 
people, their livelihoods, their assets, and the Nation's economic 
productivity. Thus urban areas, ports, and critical ecosystems should 
be mapped comprehensively. ``Nested mapping,'' wherein lower-resolution 
mapping permits a more effective design of high-resolution surveys, may 
be a productive strategy that can adapt to new information gathered at 
lower resolution by oceanographers.
                   Answers to Post-Hearing Questions
Responses by Jay Wilson, Coordinator, Earthquake and Tsunami Programs, 
        Plans and Training Section, Oregon Emergency Management

Q1.  If you could change one or two things about the Administration's 
proposal, what would it be and why?

A1. Make the entire tsunami program under the direction of the National 
Tsunami Hazard Mitigation Program Executive Steering Committee 
consisting of voting members as follows:

        <bullet>  NOAA (two representatives--warning and tsunami 
        inundation mapping),

        <bullet>  USGS (two representatives--seismic network and 
        geology of tsunami sources and deposits),

        <bullet>  FEMA (one representative),

        <bullet>  NSF (one representative)

        <bullet>  Oregon (two representatives--emergency management and 
        tsunami hazard mapping)

        <bullet>  Washington (two representatives--emergency management 
        and tsunami hazard mapping),

        <bullet>  California (two representatives--emergency management 
        and tsunami hazard mapping),

        <bullet>  Hawaii (two representatives--emergency management and 
        tsunami hazard mapping)

        <bullet>  Alaska (two representatives--emergency management and 
        tsunami hazard mapping),

        <bullet>  Island Territories (two voting representatives to 
        represent all of the territories--one for emergency management 
        and one for tsunami hazard mapping).

    Add $7.8 million to the $35 million budget to fully implement the 
current NTHMP goals, which include a strong education and inundation-
mapping component.
    Add $700,000 per state per year to fund ``tsunami champions'' in 
each vulnerable community who would organize neighborhood response and 
do door-to-door outreach. Only states highly vulnerable to locally 
generated tsunamis would receive this additional support. These are 
Alaska, Hawaii, Oregon, Washington, and California. The total would be 
an additional $3.4 million.
    For example, in Oregon this would place a half-time position in 
every vulnerable community. For Oregon, you would need 20 half-time 
positions with some travel, mailing, etc., costs. This would amount to 
19 x $30,000 x 1.18 indirect costs = $672,600/year + Oregon Emergency 
Management and Oregon Dept. of Geology and Mineral Industries 
administrative costs for the community grant program of $10,000 per 
year for a total of $685,000 for a typical state. The grand total for 
the five states would be $3.43 million per year.

Q2.  Recommendations to improve the Administration's Tsunami Plan:

     The following is a list of recommendations made by witnesses to 
improve the Administration's plan. It would be helpful to have comments 
on each of the recommendations.

     Do you agree with the recommendation that:

        <bullet>  More attention should be paid to education, 
        especially for tsunami that are either generated close to shore 
        or are generated by events that cannot be felt.

A. Yes, this is the highest priority of all of the items in terms of 
lives saved per dollar spent.

        <bullet>  Hazard mapping efforts should be expanded.

A. Yes, education is useless unless the hazard is defined accurately in 
terms of where flooding can be expected and how soon the wave arrives.

        <bullet>  More money should be allocated to local warning 
        systems and research to improve them.

A. This is of lower importance than mapping and education in terms of 
lives saved per dollar spent.

        <bullet>  There should be a greater and more explicit 
        commitment to operation and maintenance costs of the buoys.

A. This is of lower importance than mapping and education in terms of 
lives saved per dollar spent.

        <bullet>  Redundant buoys should be purchased and funds 
        allocated to developing better buoys.

A. This is of lower importance than mapping and education in terms of 
lives saved per dollar spent.

        <bullet>  More work should be done on tsunami probabilities to 
        better site the buoys.

A. Yes, this can be done at very little cost and could yield 
substantial savings by maximizing the effectiveness of any buoys 
installed.

        <bullet>  The buoys should be equipped with more instruments to 
        be better integrated into NOAA and NSF research programs.

A. Yes, maintenance and installation of buoys is so expensive that it 
is incumbent on NOAA to make sure that they give data on weather, wind 
waves and any other possible data that can be produced.

        <bullet>  Tsunami efforts should be incorporated into the 
        development of a broader multi-hazard warning system.

A. Yes, any warning infrastructure should be multi-hazard.

        <bullet>  The Global Seismic Network should be expanded and 
        should include new kinds of equipment.

A. This is of lower importance than tsunami hazard mapping and response 
education in terms of lives saved per dollar spent.

        <bullet>  NSF funding should be provided to properly fund the 
        operation and modernization of the Global Seismic Network.

A. In terms of tsunami hazard mitigation for locally generated 
tsunamis, which pose the greatest danger, three much higher priorities 
for NSF research are:

        1.  Improvement of tsunami modeling software, including 
        fundamental research into the numerical methods now used world-
        wide to simulate tsunami flooding. All current methods suffer 
        from energy losses and inaccurate simulation of dry land 
        inundation that generally cause underestimation of the hazard.

        2.  Improvement of fundamental understanding of the mechanics 
        behind and prediction of tsunami fault and landslide sources. 
        Uncertainty in these parameters translates to tsunami hazard 
        mapping uncertainties on the order of 50 to 100 percent 
        (elevation and inland penetration of the waves).

        3.  Ground truth tsunami simulations by improved understanding 
        of ancient tsunami deposits. The past is the key to the 
        present. Simulations should reproduce current velocities and 
        water depths consistent with ancient tsunami deposits, but 
        deriving current velocities and water depths from the deposits 
        needs much additional research both in the field for modern 
        tsunamis and in the laboratory.

        <bullet>  The Advanced National Seismic System should be 
        expanded.

A. This is of lower importance than tsunami mapping and response 
education in terms of lives saved per dollar spent. If the seismic 
networks in the Cascadia region were more dense, then a better 
understanding of small (M 4-5) earthquakes along the fault boundary.

Q3.  What are the biggest gaps in our scientific understanding of 
tsunami? How should the Administration address these gaps?

A3. 

        <bullet>  Improvement of tsunami modeling software, including 
        fundamental research into the numerical methods now used world-
        wide to simulate the flooding. All current methods suffer from 
        energy losses and inaccurate simulation of dry land inundation 
        that generally cause under-estimation of the hazard. NSF should 
        announce a special program and proposal solicitation with 
        dedicated funding aimed at this specific problem.

        <bullet>  Improvement of fundamental understanding of the 
        mechanics behind and prediction of tsunami fault and landslide 
        sources. Uncertainty in these parameters translates to tsunami 
        hazard mapping uncertainties on the order of 50 to 100 percent 
        (elevation and inland penetration of the waves). NSF should 
        announce a special program and proposal solicitation with 
        dedicated funding aimed at this specific problem. USGS should 
        fully fund research on tsunamigenic landslides and faults. Work 
        at NSF and USGS should be coordinated through the National 
        Tsunami Hazard Mitigation Program to focus the research on 
        tsunami fault and landslide sources of highest priority for 
        mapping of tsunami inundation by State geological surveys.

        <bullet>  Ground truth tsunami simulations by improved 
        understanding of ancient tsunami deposits. The past is the key 
        to the present. Simulations should reproduce current velocities 
        and water depths consistent with ancient tsunami deposits, but 
        deriving current velocities and water depths from the deposits 
        needs much additional research both in the field for modern 
        tsunamis and in the laboratory. NSF should announce a special 
        program and proposal solicitation with dedicated funding aimed 
        at this specific problem. USGS should fully fund paleoseismic 
        and paleotsunami research. Work at NSF and USGS should be 
        coordinated through the National Tsunami Hazard Mitigation 
        Program to focus the research on tsunami deposits of highest 
        priority to ground-truth tsunami inundation simulations used by 
        State geological surveys for hazard mapping.

Questions submitted by Representative Bart Gordon

Q1.  What is the estimated cost for a local community to become Tsunami 
Ready? What is the average annual cost of operation and maintenance to 
local communities to sustain the program? How often do your Tsunami 
Ready communities conduct drills?

A1. We estimate for an average coastal community at least $10K to start 
and $5K per year afterward for maintenance. The contributions in staff 
time for Lincoln City Oregon added up to $15,000 over the past two 
years for certification. Annual costs/in-kind contributions from 
Lincoln City include:

        <bullet>  Staff time (Public Works--800 hours, Emergency 
        Manager--400 hours, clerical--156 hours, and not including the 
        City Manager's time)

        <bullet>  Administrative costs (travel, Internet services, and 
        training)

        <bullet>  Satellite fees

        <bullet>  Printing fees for publications

        <bullet>  NOAA Weather Radios from Radio Shack

        <bullet>  And State expenses (mapping, evacuations brochures, 
        tsunami signs and staff time)

    Tsunami evacuation drills for schools in inundation zones are 
mandated at least once per year by State law. For other facilities or 
businesses it happen once per 2-3 years for the most active 
communities.

Q2.  How are your Tsunami Ready and Earthquake preparedness programs 
connected? If a large earthquake occurred close to shore would the 
earthquake damage to communication equipment and shelters be likely to 
prevent evacuation plans from being executed? Are the Tsunami Ready 
communities also earthquake-hardened? Should we move to a multiple 
hazard-preparation program to deal comprehensively with multiple 
hazards that particular communities face?

A2. TsunamiReady is merely a program designed to give recognition for 
the base minimum level of preparedness for tsunamis, not earthquakes. 
It is not really adequate for full mitigation for tsunamis and does 
little for earthquake mitigation. A near-shore earthquake would likely 
damage communication equipment, but there would be little or no time to 
deliver an evacuation message anyway for an incoming local tsunami.
    Yes, large local earthquakes have the capacity to cause damage to 
communication equipment and shelters if those facilities are built at 
locations vulnerable to liquefaction or ground amplification. 
Additionally, local tsunamis generated from local earthquakes will 
likely damage much of the communication infrastructure and many 
evacuation shelters where shelters are not specifically designed to 
withstand the earthquake. Note that in many cases bridges are the 
weakest links for executing evacuation plans of a few critical areas 
like Seaside. Bridges area major problem for long-term response and 
recovery, since they will isolate most coastal towns from inland areas 
for weeks or months.
    Tsunami preparedness works well for a great many other hazards, 
since it relies on good education beforehand (really the only effective 
mitigation for a locally generated tsunami), emergency response 
planning (command and control), communication systems, and emergency 
resources (food, water, medical services, and shelter).

Q3.  In the case of a tsunami generated from an earthquake far off-
shore, have you experienced problems of spectators coming to vulnerable 
coastal areas to witness the tsunami?

A3. These problems do occur and have not to date resulted in damage or 
loss of life. However it does point out the need for continuing 
education of both full time and transient populations in coastal areas.

Q4.  What role does NOAA weather radio play in the alert dissemination 
system of Storm Ready and Tsunami Ready?

A4. NOAA weather radio is a valuable resource for issuance of warnings 
and ``all clear'' messages for distant tsunamis and storms. The radio 
is not as useful for locally generated tsunamis that arrive too quickly 
for it to operate. It is useful for delivering guidance to local 
officials on the decrease of wave activity after a local tsunami.

Q5.  Has it been difficult to sustain funding for your tsunami hazards 
programs in Oregon given that tsunami are rare occurrences and 
therefore the warning system may not be needed for decades?

A5. It has been virtually impossible to attract State resources other 
than a few one-time grants in the early years of the State mitigation 
effort. With State resources not able to keep schools open a full 
school year, mitigation of a rare catastrophic event is a low priority. 
The State has benefited from the National Tsunami Hazard Mitigation 
Program (NTHMP) from its inception several years ago. Funding for 
fundamental tsunami hazard mapping and education from NTHMP (contracted 
through NOAA) is the reason we have been able to make the progress we 
have. Funding has been forthcoming because of the excellent federal-
State partnership powered by the five Pacific states having a majority 
vote in the Executive Steering Committee of the NTHMP. When states have 
ownership and control of some substantial portion of the funding, the 
resources are more likely to be targeted efficiently to the needs of 
local government where all really effective mitigation occurs.
    The NOAA-NWS tsunami warning system, from critiques given by the 
State membership of the NTHMP, has become much more reliable. States 
insisted on elimination of false warnings for distant tsunamis and that 
has largely occurred mainly by some structural changes in the way 
warnings are issued and to a lesser extent by implementation of the new 
buoy sensing technology.

Q6.  How far along is Oregon in producing a full set of inundation maps 
for the Oregon coast? How often do you need to update these maps?

A6. Oregon is about 80 percent of the way to finishing inundation maps 
with software that was developed over a decade ago. Tsunami modelers 
have suspected for some time that the prevalent software under predicts 
the flooding danger. The technology is poised for major advance as a 
result of knowledge gained from the Sumatra tsunami, but continued 
support will be needed for a number of different models and centers of 
modeling excellence to advance the techniques.
    Most of the current maps of complex areas like bays and estuaries 
should be redone in the next decade, as the simulation software becomes 
more robust. Once this new generation of maps is complete, little 
updating will be necessary. Some areas with relatively simple terrain 
(cliffs next to one flat area close to the shoreline) will not need to 
be redone even with the improved software.

Q7.  You recommended a sustained annual allocation of $7.8 million 
dollars for the NTHMP. This figure is higher than the figure in the new 
proposal and higher than current expenditures. How did you arrive at 
this figure? What activities would be increased with the additional 
funding? Would this allow states to allocate more funding to local 
communities to become Tsunami Ready?

A7. NOAA arrived at this figure after consultation with reviewers of 
the NTHMP and in consultation with the Executive Steering Committee of 
the NTHMP in 2002. It achieves a modest increasing in the base level 
funding for ongoing tsunami inundation mapping, public education, 
publication of products from the five Pacific states, and maintenance 
of currently installed buoys and seismographs. The budget also adds 
base level support for tsunami mapping and mitigation of Caribbean and 
Pacific island territories. The budget does not support large expansion 
of the seismograph or tsunami buoy network.
    The budget would accelerate inundation mapping and education plus 
allow additional improvement of the warning system so NOAA could 
predict actual flooding impact of distant tsunamis rather than just 
issuing a generalized warning.
    There would be funding to local communities to become recognized as 
TsunamiReady, since there would be increased support of evacuation map 
brochure production and installation of evacuation signs. There would 
not be adequate funding in local communities to completely achieve the 
more difficult mitigation goal: creation of a ``culture of response'' 
so people would know instinctively that an earthquake is the warning to 
get to high ground. That goal requires an ongoing commitment to public 
education and neighborhood emergency response. TsunamiReady, as 
currently defined, does not achieve this.
    Funding of a ``tsunami champion'' in every community to do the hard 
work of organizing for evacuation and reaching out door-to-door and 
neighborhood-by-neighborhood would, in conjunction with school 
curricula, achieve the goal. This ``tsunami champion'' would be at 
least a half-time position for every vulnerable community and cost 
approximately an additional $700,000 for each of the five Pacific 
states.
    Additionally, participants in a recent Oregon Tsunami Workshop with 
over 90 representatives from seven coastal counties and State agencies, 
acknowledged the need for a State administered grant program to oversee 
funding of local emergency infrastructure (sirens, emergency caches of 
food, medical supplies and shelter, and satellite phones). We propose 
$1.3 million for the first year with a similar grant amount for the 
next nine years to invest in coastal emergency communications that 
would serve, not only tsunami, but also multiple hazard warnings. Over 
this 10-year period we would be able to meet the requests of virtually 
everything on the workshop list.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record

    Statement in support of improved earthquake and tsunami hazard 
                               mitigation
                      By Steve Malone, President,
                  The Seismological Society of America

    As compassionate people we are all saddened by the death and 
destruction caused by the Sumatra earthquake and resulting tsunami, but 
as seismologists we are additionally dismayed by the needless deaths 
since tsunami warning systems are scientifically and technologically 
possible. Indeed, many seismologists are reflecting on our discipline's 
responsibility for the extent of the human suffering. However, this 
reflection is rarely on what more we could have done scientifically and 
more often on our inability to translate and disseminate our knowledge 
in a way that might have made a difference. We have the understanding 
and technology to rapidly issue warnings for tsunamis based on seismic 
and oceanographic data (and already issue warnings for the Pacific 
Basin). We publish scientific papers about our understanding of past 
events and the way geology works, often with an eye to anticipating 
future hazardous events. With all of this knowledge and technology how 
could this disaster have occurred? Unfortunately too often the 
connection between scientific understanding and practical, applied use 
of that understanding is lacking or comes too late.
    The Administration's proposed tsunami hazard reduction plan 
combines the capabilities of two agencies to help address the tsunami 
problem of the future. This is a good idea and will not only help 
protect U.S. coastal areas but help protect those of neighboring 
countries as well. However, this technological solution is just a small 
part of an effective real solution. There is a real danger that in our 
haste to fix what was broken in the recent disaster, we will fix the 
wrong thing for next time. Not only is this plan embarrassingly U.S.-
centric, it doesn't clearly address the whole problem, even for the 
U.S. Detecting the earthquake and generating a warning is one thing but 
distributing the warning to all at-risk populations who have been 
educated about what to do is the bigger, more critical mitigation 
effort. Indeed, education alone, even without a warning system, could 
save large parts of a coastal population. Effective information could 
be as simple as, `` If you feel a strong earthquake and/or see the 
ocean level behave in an unusual way, get off the coast as fast, far 
and high as possible.'' This plan should contain a much stronger 
educational component.
    There are other dangers of the quick fix. While this is an 
opportunity to significantly improve mitigation efforts for the very 
serious yet rare tsunami hazard it is critical that the enormity of the 
recent tragic event not sidetrack us from other equally dangerous and 
more common hazards. Earthquakes without tsunamis are still the biggest 
geologic hazard worldwide. Unfortunately, even a moderate earthquake 
directly under one of the world's very large but unprepared cities will 
result in many more deaths than resulted from the Indian Ocean tsunami. 
Improved hazard mapping and building construction practices can make a 
huge difference in this case. Science and engineering show both where 
the hazards are high and propose techniques to significantly mitigate 
those hazards. U.S. science funding has made great advances; however, 
putting the results into practical action is too often forgotten. As 
one example, while on this committee's recommendation Congress 
authorized the Advanced National Seismic System to take a lead role in 
improving earthquake hazard mitigation Congress has only appropriated 
10 percent of the needed and authorized funding. It would be truly 
unfortunate if in our rush to fix the tsunami problem we forget about 
other, even more hazardous situations and wait until after one of those 
occurs to make serious advances.

</pre></body></html>
